<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairwoman) 
presiding.
    Present: Senators Mikulski, Leahy, Landrieu, Shaheen, 
Merkley, Shelby, Collins, Murkowski, Graham, Kirk, and Boozman.

                         DEPARTMENT OF JUSTICE

                     Office of the Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Chairwoman Mikulski. Good morning. The Subcommittee on 
Commerce, Justice, and Science will come to order. And today, 
we will take testimony on the budget request from the 
Department of Justice.
    Today, we will be listening to the Attorney General, Eric 
Holder, testifying in behalf of the Justice Department, and, 
after that, we hope to hear from the Justice Department's 
Inspector General, Michael Horowitz, on important oversight 
issues. This is a subcommittee, not only of making sure we 
spend the right money in the right way, but also to make sure 
we have the wonderful advice of an Inspector General.
    We want to alert everyone, though, there could be the 
possibility of votes beginning at 11:30 a.m., so we're going to 
kind of move it.
    This hearing today is one of 60 hearings in 6 weeks, where 
we're doing very due diligence in taking a look at the request 
from these agencies and the President's budget.
    Today, we really take testimony from, I think, one of the 
most important agencies in the government constellation, the 
Department of Justice, who really has a very key job in making 
sure they keep America safe and--whether it's from Federal law 
enforcement, Federal prosecution, terrorism, but also the 
enforcement of other issues, the important enforcement of white 
collar crime, whether it's antitrust or mortgage fraud, to also 
civil rights and hate crimes. It is the Department of Justice; 
it is not the Department of Anti-Crime. And we're really proud 
of them.
    Mr. Attorney General, we want you to know we really salute 
the 112,000 employees who work for Justice--the 25,000 Federal 
agents, the roughly 18,000 prison guards and correctional 
staff, the 13,000 prosecutors and investigators, and those 
wonderful support staff, you know the GS-5, -7s, and -9s that 
really keep the government going. While you and I might get the 
headlines, they make sure that they keep it all going.
    We know we've had an amazing year. The marshals have 
arrested over 11,000 fugitive sex offenders; the FBI has 
dismantled 421 criminal enterprises; the DEA, 3400 drug-
trafficking organizations out of business and charged; and the 
U.S. Attorneys with charging over 83,000 defendants in criminal 
court--all that while facing sequester and slam-down government 
shutdown.
    So, just imagine, now, what you can do with certainty in 
funding. Under the Murray-Ryan budget, we have canceled 
sequester for 2014 and for 2015. We have our top line. So, we 
now want to really take a look at what your requests are.
    And my goals for the hearing are three priorities: 
community security, in terms of State and local, of course 
national security; oversight and accountability, in terms of 
spending dollars wisely; and to uphold the rule of law, protect 
civil liberties and communities.
    There is a request in here for $2.2 billion for State and 
local government that puts cops on the beat, puts away child 
abusers, processes rape kits, all of those things at the local 
level, and we will be getting your views and insights about how 
those partnerships are working and what, through the funding 
process, we can actually strengthen them to get better results 
and better enforcement. We also want to know that that thin 
blue line in the local community that protects us, like our 
local police officers, have the equipment that they need.

                           BUREAU OF PRISONS

    We also want to take a look at the issues related to our 
prisons. We know that you are leading a review on appropriate 
sentencing and how we can reduce the prison population without 
increasing risk to our communities. And you've looked at 
everything from compassionate parole for those prisoners that 
are now in their 70s and 80s to other creative things. We'd 
like to hear about that, but we also want to talk about what it 
is that we need to fund our prisons, and we need to make sure 
that we keep our prison guards safe.
    We met with the family and other correction officers 
related to Eric Williams, who was one of our prison guards 
murdered in a Federal penitentiary in Pennsylvania. It was just 
wrenching to hear what they do. They have ideas that they need 
for training, what they need to carry in the prisons, how they 
have to keep themselves safe with increasing violent criminals 
and increasingly mentally ill prisoners. So, we'd like to hear 
your thoughts on that.

                        BOSTON MARATHON BOMBING

    About this time last year, we were all gripped with the 
Boston Marathon. It really showed us how important national 
security is, that national security isn't in the Crimea or in 
the Middle East or in Iraq and Afghanistan, it was in the 
streets at the Boston Marathon. We had Marylanders injured. One 
our really beloved preschool teachers lost her leg there, 
cheering her mother on. They're back in Boston, and she's back 
on her feet. But, we want to make sure that never happens 
again. And we'd like your views on what we can do, in terms of 
national security.

                             CYBER SECURITY

    The other threat is cyber security. Mr. Attorney General, I 
hope you could join with us in drawing the distinction between 
cyber security and surveillance. As you know, a lot of people 
are spooked because of the Snowden revelations. And they talk 
about 2/15. I will tell you, my constituents are spooked by 
cyber security. If you go into a Target, and you go into a 
Michael's, the famous crafts store--some even go into Nieman 
Marcus--but, most of all, most of America is in places like 
Target, and the cybersecurity breach has been phenomenal. The 
cybersecurity breach now at universities, my own University of 
Maryland, Hopkins, they, themselves, that are really prime-time 
schools, now are hacking, stealing identities, stealing 
everything. So, from stealing our trade secrets to the kind of 
thing that's going on, we need to know, what do we need to do 
and what are the resources in cyber security?
    Every day, we count on the Justice Department to fulfill 
its mission and to protect our lives and protect our way of 
life, and to protect our Constitution. We need to hear from you 
what is the right funding that we need to make sure we do 
justice to the Justice Department.
    I now turn to my Vice Chairman, Senator Shelby, a very 
strong advocate of--in national security and also in supporting 
our local law enforcement. And we're particularly appreciative 
of his efforts in behalf of women and children.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chair.
    Welcome to the committee, again, Attorney General Holder.
    Today, we will hear from Attorney General Holder about the 
Department of Justice's 2015 budget request. Michael Horowitz, 
the Department's Inspector General--as the Chairperson has 
already said, will testify about his work and the difficulties 
he has encountered in executing his oversight responsibility. 
Today, I welcome you both.

                        FISCAL YEAR 2015 BUDGET

    The 2015 budget request for the Department of Justice 
totals $27.4 billion. I'm concerned that, while the 
Department's 2015 budget purports to recognize the multifaceted 
nature of the Department's work, it fails to truly prioritize 
anything but the administration's pet projects. Programs such 
as Smart on Crime, Now is the Time, and nearly 12 new grant 
programs, I believe take center stage. Meanwhile, law 
enforcement and national security priorities, the main mission, 
central mission, of the Department, I believe take a backseat. 
This approach is evident in the indiscriminate cuts required of 
nearly every component within the Department of Justice.
    The 2015 budget requires cuts totaling more than $500 
million. These cuts are characterized as miscellaneous program 
and administrative reductions, and will be identified once 
funds are appropriated. In short, it is the Department's own 
version, I believe, of an arbitrary sequester.
    Mr. Attorney General, Congress made a conscious decision to 
return to regular order, in part to put a stop, as you know, to 
indiscriminate cuts that your budget requires. A budget 
proposal that uses smoke and mirrors does not provide a stable 
foundation to safeguard national security, reduce violent 
crime, prosecute criminals, or support our State and local 
partners. It calls into question the Department's commitment to 
these requirements.
    I do not support the approach this budget has taken, and I 
look forward to working with you, Madam Chair, to ensure that 
Department of Justice is appropriately funded to carry out its 
central, its important, missions.

                           INSPECTOR GENERAL

    I also want to touch briefly on a topic of concern that the 
Chairperson has already mentioned and that directly impacts the 
Inspector General's ability to conduct much-needed oversight of 
the Department of Justice.
    Since arriving in 2012, Mr. Horowitz has worked diligently 
to investigate a myriad of trouble spots. Throughout the course 
of these investigations, however, the Inspector General 
encountered significant roadblocks. Specifically, he has not 
been provided unfettered access to materials essential to 
ongoing investigations and audits, unless the Attorney General 
approves that.
    Think about that. This is the Inspector General. You should 
provide him the material to see what's going on in your 
Department, good and bad.
    I strongly believe that the work of the Inspector General 
is essential to well-functioning government agency. They are 
independent and should not be encumbered by individuals in 
positions of power, even the Attorney General of the United 
States.
    Mr. Attorney General, yesterday the Chair and I sent you a 
letter on this matter. We expect that you will move swiftly to 
address our questions and resolve this controversy. But, 
without an independent Office of Inspector General that can 
truly carry out its oversight responsibilities, I'm concerned 
that the honesty and the integrity of the whole Department 
could be called into question. And that's something none of us 
want.
    Madam Chair, I thank you for your time, and I look forward 
to hearing more from the Attorney General and also the 
Inspector General.
    Thank you.
    Chairwoman Mikulski. Senator Collins, did you want to say 
anything, or do you want to go right to the testimony?
    Senator Collins. Madam Chair----
    Chairwoman Mikulski. You're welcome to do what you choose.
    Senator Collins [continuing]. Thank you very much.
    First of all, I want to welcome the Attorney General to the 
subcommittee today which has such great leadership on both 
sides of the aisle.
    I'm going to be directing my questions to you today on 
several topics. One has to do with our broken asylum-granting 
system, which the Department of Justice has jurisdiction with 
the Department of Homeland Security over. Another is the 
testing of the boundaries of executive power by this 
administration; in particular, the aggressive position the 
administration has taken with regard to the President's 
enforcement discretion. And third, I hope that--if you don't do 
so in your testimony, I will be asking you for an update on the 
Department of Justice's activities to bring to justice the 
attackers in the Benghazi case.
    So, thank you, Madam Chair.
    Chairwoman Mikulski. Mr. Attorney General.

                SUMMARY STATEMENT OF ERIC H. HOLDER, JR.

    Attorney General Holder. Well, good morning, and thank you, 
Chairwoman Mikulski, Ranking Member Shelby, Senator Collins, 
Senator Kirk, other distinguished members of the subcommittee. 
I want to thank you for the opportunity to appear before you 
today to discuss the President's fiscal year 2015 budget for 
the Justice Department and to provide an overview of the 
Department's recent achievements and ongoing priorities.
    Now, as we convene this morning, I know that we're all 
mindful of yesterday's mass shooting at Fort Hood. I am being 
regularly briefed on the situation, and I have directed that 
the full resources of the Department of Justice, and, in 
particular, the FBI, be made available to ensure the security 
of everyone on that base. We will work with local officials and 
the Department of Defense to provide assistance to those who 
need it and to help conduct a full and thorough Federal 
investigation.
    As this investigation unfolds and as we work to determine 
exactly what happened, and why, my thoughts and prayers will be 
with all those whose lives have been impacted by this terrible 
tragedy, and with the entire Fort Hood community, which has 
displayed such extraordinary strength and resilience since the 
horrific events of nearly 5 years ago.
    As President Obama said yesterday, it is heartbreaking that 
something like this has happened again. And we owe it to all of 
our men and women in uniform, and also to their families, to 
see that justice is done, to ensure that they are safe here at 
home, and to do everything in our power to prevent these too 
common tragedies from happening again.
    My colleagues and I are firmly committed to doing just 
that, and we are determined to continue building upon the 
exceptional work, I think, that the Justice Department 
employees have performed over the past year. Going forward, 
your support will enable us to build on the results that my 
colleagues have obtained, and to perform the vital mission with 
which we are entrusted.
    Many of our accomplishments over the past year are notable, 
and even historic, but none have been more important than our 
ongoing work to protect the American people from terrorism and 
other threats to our national security. Just last week, the 
Department achieved a major milestone when we secured the 
conviction of Sulaiman Abu Ghaith, the son-in-law of Osama bin 
Laden and a senior member of al-Qaeda, on terrorism-related 
charges. This verdict has proven that proceedings such as these 
can safely occur in the city that I am proud to call home, as 
in other locations across our great Nation. It was appropriate 
that this defendant, who very publicly rejoiced over the 
attacks on the World Trade Center, faced trial in the shadow of 
where those buildings once stood. We never doubted the ability 
of our Article III court system to administer justice swiftly 
in this case, as it has in hundreds of other cases involving 
terrorism defendants. And this outcome vindicates, I believe, 
the government's approach to securing convictions of senior al-
Qaeda leaders. It would be a good thing, I believe, for the 
country if this case has the result of putting that political 
debate to rest.
    The President's budget request would strengthen our 
national security work by investing a total of $4 billion in 
the Department's cutting-edge counterterrorism and national 
security programs, including 1.5 million to maintain and 
operate the FBI's new Terrorism Explosive Device Analytic 
Center facility in Alabama. The fiscal year budget also would 
invest in other key priorities, providing $273 million to 
bolster the Department's vigorous enforcement of Federal civil 
rights laws, including $8 million in new resources. It would 
also allocate $1.1 billion to support the administration's work 
to reduce gun violence. It would enhance the Department's 
ability to combat heinous crimes, like human- and sex-
trafficking, as well. And it would provide $173 million to 
support our efforts to strengthen the Federal criminal justice 
system as a whole through the groundbreaking Smart on Crime 
initiative that was announced last August.
    Now, this initiative comprises a range of targeted 
commonsense reforms, including modification to the Department's 
charging policies with regard to mandatory minimum sentences 
for certain nonviolent, low-level drug crimes, along with a 
renewed focus on evidence-based diversion, rehabilitation, and 
reentry programs. The fiscal year 2015 budget would sustain 
investments in the Bureau of Prisons reentry programs, 
including the Residential Drug Abuse Program, residential 
reentry centers, and reentry-specific education programs. These 
and other proven programs will help to make our criminal 
justice system not only more effective, but also, by freeing up 
resources for police and prosecutors as well as other vital law 
enforcement priorities, make our system significantly more 
efficient. And this, in turn, would enable us to further invest 
in the outstanding work that's performed every day by dedicated 
attorneys and support staff in each of the Department's 
litigating divisions and United States Attorneys' offices.

          CIVIL AND CRIMINAL FINES, PENALTIES, AND SETTLEMENT

    Thanks to their efforts during the fiscal year ending in 
2013, the Justice Department collected a total of more than $8 
billion in civil and criminal fines and penalties. And this 
represents more than double the approximately $3 billion in 
direct appropriations that pay for our 94 U.S. Attorneys' 
offices and main litigating divisions.
    During fiscal year 2012 and fiscal year 2013, the 
Department collected a combined total of more than $21 billion, 
a record amount for a 2-year span, and we've obtained a series 
of historic resolutions and taken other significant actions to 
ensure that we're serving as sound stewards of taxpayer dollars 
and protecting American consumers from fraud and other 
financial crimes.
    Last November, the Justice Department secured a $13 billion 
settlement with JPMorgan Chase & Company, the largest 
settlement with a single entity in the history of the United 
States, to resolve Federal and State civil claims related to 
the company's mortgage securitization processes.
    As part of our ongoing efforts to hold accountable those 
whose conduct sowed the seeds of the mortgage crisis, the 
Department also filed a lawsuit against the ratings firm S&P; 
and, with a $1.2 billion agreement that we reached with Toyota 
just last month, again the largest criminal penalty ever 
imposed on an automotive company, we're making good on our 
determination to protect consumers and to address fraud in all 
of its forms.

                           PREPARED STATEMENT

    I'm very eager to work with this subcommittee and with the 
entire Congress to build on these and other successes and to 
secure the timely passage of the President's budget request, 
which provides a total of $27.4 billion in discretionary 
resources for the Department of Justice, including $25.3 
billion for vital Federal programs and $2.1 billion for State, 
local, and tribal assistance programs, as well. This level of 
support will be essential to ensuring that we can continue to 
protect the American people and take important actions to 
strengthen our criminal justice system.
    I want to thank you once again for this opportunity to 
discuss this work with you today, and I'd be happy to answer 
any questions that you might have.
    Thank you.
    [The statement follows:]
             Prepared Statement of Hon. Eric H. Holder, Jr.
    Good morning, Chairwoman Mikulski, Vice Chairman Shelby, and other 
distinguished members of the subcommittee. Thank you for the 
opportunity to appear before you today to highlight the President's 
fiscal year 2015 budget for the U.S. Department of Justice--and to 
discuss the Department's recent achievements and future priorities. I 
would also like to thank you for your leadership in securing the 
passage of the Consolidated Appropriations Act for fiscal year 2014, 
which restores Justice Department funding to pre-sequestration levels--
and even adds funding for key priorities.
    In February, as a result of the fiscal year 2014 appropriation, I 
was able to lift the Department-wide hiring freeze that had been in 
place for over 3 years, and had resulted in the loss of over 4,000 
employees. We are now able to fill critical vacancies and resume the 
normal hiring process for Federal agents, prosecutors, analysts and 
other staff we need to fulfill our varied missions, including: 
protecting the American people from terrorism and other national 
security threats; combating violent crime; eradicating financial fraud; 
and safeguarding the most vulnerable members of society.
    Across the board, I'm extremely proud of the exceptional work that 
Justice Department employees perform on a daily basis, despite 
escalating threats and challenges. They are a credit to the Department, 
to our Nation, and to the American people we are privileged to serve. 
Like you, I am committed to securing the resources and support the 
Department of Justice (DOJ) employees need to carry out their important 
duties--and to keep advancing the cause of justice that remains our 
common pursuit.
    The resources provided this fiscal year will help us carry out our 
critical law enforcement responsibilities and enhance public safety. 
The President's fiscal year 2015 budget request builds on the funds 
provided in fiscal year 2014 that are vital to thwarting sophisticated 
adversaries, protecting our citizens from gun violence and other types 
of crime, and maintaining safe and secure operations throughout the 
Federal correctional system.
    The President's fiscal year 2015 budget requests $27.4 billion in 
discretionary resources for the Department, including $25.3 billion for 
Federal programs and $2.1 billion for discretionary State, local, and 
tribal assistance programs. This represents a 0.4 percent increase over 
the fiscal year 2014 enacted level and allows the Department to 
continue its trajectory towards fiscal and operational health. More 
specifically, the President's fiscal year 2015 budget request:

  --Invests in criminal justice reform. The budget invests $173 million 
        in my ``Smart on Crime'' initiative, which is designed to 
        promote reforms to the criminal justice system that will 
        improve public safety, save money, and ensure the fair and 
        effective enforcement of Federal laws.
  --Invests in Federal civil rights enforcement. To help meet the 
        Nation's civil rights challenges, the fiscal year 2015 budget 
        invests a total of $273 million, including $8 million in new 
        resources, to support the Department's enforcement of Federal 
        civil rights laws, including laws on human trafficking, hate 
        crimes, disability rights, and many others.
  --Maintains critical counterterrorism and counterespionage programs, 
        as well as intelligence gathering and surveillance 
        capabilities. The budget invests a total of $4 billion to 
        sustain recent increases that support national security 
        investigations, including an enhancement of $15 million to fund 
        the costs of the Federal Bureau of Investigation's (FBI) new 
        Terrorist Explosive Device Analytical Center--or TEDAC--at 
        Redstone Arsenal in Alabama.
  --Supports the administration's initiative to reduce gun violence. 
        The budget invests a total of $1.1 billion in Federal and grant 
        programs in support of the President's ``Now is the Time'' 
        initiative, which includes $182 million to sustain investments 
        provided in fiscal year 2014. These resources will help ensure 
        that those who are not eligible to purchase or possess guns are 
        prevented from doing so. In addition, the request delivers 
        grant funding to continue the Comprehensive School Safety 
        Program, to encourage the development of innovative gun safety 
        technology, and to provide training for active shooter 
        situations.
  --Enhances efforts to combat and keep pace with increasingly 
        sophisticated and rapidly evolving cyber threats. Cybercrimes 
        are becoming more common, more sophisticated, and more 
        dangerous. The President's budget invests a total of $722 
        million, including $8 million in enhancements to Federal 
        programs and grants, to address computer intrusions and 
        cybercrimes and defend the security of the Department's 
        critical information networks.
  --Substantially improves the ability to provide legal assistance to 
        foreign law enforcement partners. In order to better assist 
        foreign government partners with investigating and prosecuting 
        criminals, the budget invests an additional $24 million to 
        reduce the current backlog of Mutual Legal Assistance Treaty 
        requests, to process requests in a matter of weeks, and to cut 
        overall response times in half by the end of 2015.
  --Sustains financial fraud law enforcement efforts. The budget 
        invests a total of $681 million in the Department's ongoing 
        efforts to investigate and prosecute mortgage fraud and 
        financial schemes that harm the American people and our 
        financial markets.
  --Strengthens enforcement of immigration laws and addresses the 
        immigration case backlog. To help increase efficiency in the 
        immigration courts, the budget requests enhancements of $23 
        million in order to add 35 new Immigration Judge Teams and 15 
        new Board of Immigration Appeals attorneys and to expand the 
        successful Legal Orientation Program as well as a pilot program 
        to implement additional efficiencies in the immigration program 
        overall.
  --Maintains safe and secure prison capacity. The budget provides $8.5 
        billion to maintain secure, controlled Federal prison and 
        detention facilities and to continue bringing newly completed 
        or acquired prisons on-line in order to protect public safety 
        by alleviating prison crowding. Further, the budget includes 
        resources to support implementation of the Prison Rape 
        Elimination Act in Federal, State, and local prisons and jails, 
        and to help inmates successfully transition back into their 
        communities.
  --Enhances State, local, and tribal law enforcement programs. In 
        total, the fiscal year 2015 budget requests $3 billion in 
        mandatory and discretionary funds for State, local and tribal 
        law enforcement assistance. These funds will allow the 
        Department to continue to support our State, local and tribal 
        partners who fight violent crime, combat violence against 
        women, and support victim assistance programs. The fiscal year 
        2015 request will bolster the Department's efforts to ensure 
        that Federal grant funding flows to evidence-based purposes and 
        helps to advance knowledge of what works in State and local 
        criminal justice systems.

    In addition, the fiscal year 2015 budget proposes additional 
discretionary investments as part of the Administration's Opportunity, 
Growth and Security Initiative. This initiative targets investments for 
State and local assistance grants, such as the Comprehensive School 
Safety Program and a new youth investment program; resources to speed 
up the process of bringing online newly completed or acquired prisons; 
and funding for the investigation and prosecution of the full spectrum 
of financial fraud.
    The fiscal year 2015 budget recognizes the multi-faceted nature of 
the Department's work and outlines spending priorities for critical 
mission areas. We must continue to grow both tougher and smarter on 
crime. This budget builds on the great work being done by the dedicated 
employees of the Department across the country and around the world to 
reduce violent crime and reform our criminal justice system.
                       becoming smarter on crime
    Just over 1 year ago, at my direction, the Justice Department 
launched a targeted review of the criminal justice system in order to 
identify reforms that would ensure Federal laws are enforced fairly and 
efficiently. In 2013, as part of this review, the Department studied 
all phases of the criminal justice system, including charging, 
sentencing, incarceration and reentry, to identify the practices that 
are successful at deterring crime and protecting the public.
    Today, a vicious cycle of poverty, criminality, and incarceration 
traps too many Americans and weakens too many communities. While we 
will continue to aggressively enforce Federal criminal statutes, we 
recognize that we cannot arrest and incarcerate our way to becoming a 
safer nation. To be effective, Federal efforts must also focus on other 
critical aspects of criminal justice, including prevention and reentry.
    With that in mind, the budget requests $173 million in support of 
the Department's efforts to promote alternatives to incarceration for 
people convicted of low-level, non-violent drug offenses, and invests 
in reentry programs in order to reduce recidivism among formerly 
incarcerated individuals. Each dollar spent on prevention and reentry 
at the Federal, State and local levels has the potential to save far 
more in incarceration costs.
          safeguarding the most vulnerable members of society
    Last month, I had the privilege of attending a celebration 
commemorating the upcoming 50th anniversary of the Civil Rights Act of 
1964 alongside many esteemed jurists, public servants and public safety 
officials. In the years that followed adoption of this landmark 
legislation, this struggle--to secure what President Johnson once 
called the ``dignity of man and the destiny of democracy''--would lead 
to the passage of the Voting Rights Act of 1965 and a range of other 
reforms, both large and small. Together, these changes altered the 
course of the 20th century. Moreover, they led the Department of 
Justice to take an active role in defending the civil rights to which 
everyone in this country is entitled--work that remains among our top 
priorities today.
    Since 2009, the Civil Rights Division has filed more criminal civil 
rights cases than at any other time in our history, including record 
numbers of police misconduct and human trafficking cases. Under the 
leadership of our Civil Rights Division and our Community Relations 
Service (CRS), we are using important tools like the Matthew Shepard 
and James Byrd Jr. Hate Crimes Prevention Act to prevent and respond to 
hate crimes on behalf of those who are victimized because of who they 
are, what they look like, or who they love. Under the leadership of the 
Civil Division, we are working diligently with our Federal agency 
partners to implement the Supreme Court's ruling in United States v. 
Windsor to make real the promise of equal protection under the law for 
all American families--and to extend applicable Federal benefits to all 
married same-sex couples. And we are vigorously enforcing Federal 
voting protections to help ensure that every eligible American has 
access to the franchise.
    The fiscal year 2015 budget will support the Department's 
appropriately aggressive enforcement of Federal civil rights laws in 
all of these areas, in addition to fair housing, fair lending, and 
disability rights, among many others. In total, the request seeks $273 
million to help meet the Nation's civil rights challenges, including an 
additional $8 million in program increases for the Civil Rights 
Division and CRS.
   protecting the american people from terrorism and other national 
                            security threats
    As I have said many times before, the Department's top priority 
must always be the protection of the American people from terrorism and 
other national security threats. The fiscal year 2015 budget provides a 
total of $4 billion in direct funding to maintain critical 
counterterrorism, counterespionage, intelligence collection, and 
national security oversight programs. In addition, the budget sustains 
recent increases that support national security investigations. The 
fiscal year 2015 budget also requests a $15 million program increase to 
fund the cost of operations and maintenance of the FBI's new TEDAC 
facility at Redstone Arsenal in Huntsville, Alabama, which will become 
operational in late 2014. TEDAC provides direct support to U.S. 
Government efforts to prevent and mitigate improvised explosive device 
attacks both in the United States and abroad, and has already provided 
critical assistance to domestic and international cases, including last 
year's Boston Marathon bombing.
    The FBI uses intelligence and investigations to combat national 
security threats and protect and defend the United States against 
terrorism and foreign intelligence threats. In fiscal year 2013, the 
FBI dedicated approximately 4,500 agents to investigating more than 
18,000 national security cases.
    The National Security Division (NSD) is responsible for overseeing 
terrorism investigations and prosecutions; handling counterespionage 
cases and matters; and assisting the Attorney General and other senior 
department and executive branch officials in ensuring that the national 
security-related investigations and activities of the United States are 
consistent with the Nation's laws and regulations, including those that 
protect privacy interests and civil liberties. In coordination with the 
FBI, the Intelligence Community, and the U.S. Attorneys' Offices, NSD's 
primary operational functions are to prevent acts of terrorism and 
espionage inside the United States and to facilitate the collection of 
information regarding the activities of foreign powers and their 
agents.
    The Department has had many noteworthy successes on the national 
security front. We have continued to: strengthen key intelligence-
gathering capabilities; refine our ability to identify and disrupt 
potential terrorist plots; and ensure that those charged with 
terrorism-related offenses are held accountable to the fullest extent 
of the law. From the recently-unsealed guilty plea of Ahmed Abdulkadir 
Warsame, a former senior al-Shabaab commander and emissary to al-Qaeda 
in the Arabian Peninsula, on charges of terrorism, to the extraordinary 
and highly-coordinated FBI-led response to last year's Boston Marathon 
bombing, the Department and its law enforcement allies have 
relentlessly worked to secure the American homeland and bring those who 
would harm our people to justice. In fact, just last week, the 
Department achieved a major milestone when we secured the conviction of 
Sulaiman Abu Ghayth, the son-in-law of Usama bin Laden and a senior 
member of al Qaeda, on terrorism-related charges.
    This verdict has proven that proceedings such as these can safely 
occur in the city I am proud to call home, as in other locations across 
our great Nation. It was appropriate that this defendant, who publicly 
rejoiced over the attacks on the World Trade Center, faced trial in the 
shadow of where those buildings once stood. We never doubted the 
ability of our Article III court system to administer justice swiftly 
in this case, as it has in hundreds of other cases involving terrorism 
defendants--and this outcome vindicates the Government's approach to 
securing convictions of senior al Qaeda leaders. It would be a good 
thing for the country if this case has the result of putting that 
political debate to rest.
    In addition to its national security work, the Department has 
successfully executed ground-breaking counterintelligence operations to 
safeguard sensitive U.S. military and strategic technologies and keep 
them from falling into the wrong hands. In February, Robert Patrick 
Hoffman II, a cryptologic technician with the Navy, was sentenced to 30 
years in prison for attempting to commit espionage on behalf of the 
Russian Federation against the United States. Working aboard or in 
conjunction with U.S. submarines for much of his naval career, Hoffman 
held security clearances and regularly received access to classified 
national defense information about U.S. submarines and their 
capabilities, and about adversaries, specific missions, and U.S. 
military and naval intelligence. Hoffman supplied to undercover FBI 
agents, among other things, national defense information classified at 
the levels of Secret and Top Secret/Sensitive Compartmented 
Information. By attempting to hand over some of America's most closely 
held military secrets, Hoffman put U.S. servicemembers and this country 
at risk.
    National security threats are constantly evolving, requiring 
significant resources to adapt to those threats. However, as President 
Obama noted in a speech at the Justice Department earlier this year, it 
is imperative that we continue working to protect our national security 
while upholding the civil liberties we all hold dear. In January, we 
and our partners in the Intelligence Community took a significant step 
toward fulfilling the President's commitment to greater transparency by 
permitting communications providers to disclose more information than 
ever before about the number of national security orders and requests 
they receive and the number of customer accounts targeted under those 
orders and requests. And as we move forward with the timely 
implementation of other reforms, my colleagues and I remain committed 
to working closely with Congress to implement the President's 
transparency directives and determine the best path forward for these 
programs.
   improving our ability to implement and enforce gun safety measures
    Gun violence has touched every State and locality in America, and 
addressing this epidemic remains a high priority for the Department. In 
2013, following the Newtown, Connecticut, school shootings, the 
administration proposed a range of legislative remedies to address mass 
shootings and reduce gun violence. The Department is working to 
implement a number of these actions and requests a total of $1.1 
billion in fiscal year 2015 to address violent gun crimes.
    Of the total, $1 billion in Federal law enforcement resources will 
allow the Department to ensure that those who are not eligible to 
purchase or possess guns are prevented from doing so. Within this 
amount, $182 million is included for the President's ``Now is the 
Time'' initiative to support additional background checks, allow for 
continued focus on inspections of federally-licensed firearms dealers, 
improve tracing and ballistics analysis, and keep guns out of the hands 
of dangerous criminals and other prohibited persons. The Department 
also has been working to strengthen the national background check 
system. For example, in January 2014, the Department proposed a rule to 
clarify the definition of persons prohibited for mental health reasons 
from receiving, possessing, shipping, or transporting firearms. 
Further, an additional $13 million is provided to the FBI to sustain 
the substantial investment made in the National Instant Criminal 
Background Check System (NICS) in fiscal year 2014.
    The Department is also taking a hard look at our Federal laws and 
our enforcement priorities to ensure that we are doing everything 
possible at the Federal level to keep firearms away from drug 
traffickers and other criminals. To support the enforcement of Federal 
laws, the Department is requesting an additional $22 million for the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), which will 
allow ATF to sustain the firearms enforcement and inspection efforts 
funded in fiscal year 2014.
    The budget also requests $147 million to help State and local 
governments continue to implement the administration's proposals for 
increasing firearms safety and supporting programs that help keep 
communities safe from mass casualty violence. In addition to the FBI's 
role with the Federal side of NICS, the Department is working to 
strengthen national background checks by addressing gaps in the State 
records currently available in NICS. Incomplete or insufficient records 
significantly hinder the ability of NICS to quickly confirm whether a 
prospective purchaser is prohibited from acquiring a firearm. In fiscal 
year 2015, the Department requests a total of $55 million in grant 
funding to further assist States in making more records available in 
NICS and enhancing the National Criminal History Improvement Program.
    Beyond keeping guns out of the wrong hands, we also want to help 
those on the ground prevent and mitigate violent situations when they 
do occur. To this end, the Office of Justice Programs (OJP), with the 
support of the FBI, will be providing a specialized training course for 
active shooter situations for law enforcement officers, first 
responders, and school officials. The Department is requesting a total 
of $15 million to support this training and other officer safety 
initiatives. In addition, the Department is requesting $75 million in 
grant funding for the Comprehensive School Safety Program, which was 
funded for the first time in fiscal year 2014. Finally, the budget 
includes $2 million for OJP to support the administration's challenge 
to the private sector to develop innovative and cost-effective gun 
safety technology. The funding for this initiative will provide prizes 
for those technologies that are proven to be reliable and effective.
 investigating cybercrime and protecting our nation's critical networks
    Like other national security threats, cyber threats are constantly 
evolving and require a coordinated and comprehensive plan for 
protection and response. The Department has a unique and critical role 
in cyber security that emphasizes domestic mitigation of threat actors 
and involves countering the threat by investigating and prosecuting 
intrusion cases, gathering intelligence in support of nation state 
attribution, and providing legal and policy support to other agencies. 
The Department is also responsible for establishing effective internal 
network defense and serving as a model for other departments and 
agencies.
    The fiscal year 2015 budget provides a total of $722 million for 
cyber enforcement and maintains recent increases for NSD's 
prosecutorial efforts and the FBI's Next Generation Cyber Initiative, 
which has enhanced capabilities to combat cyber threats from 
individuals, organized groups and rogue actors. The request also 
includes an increase of $3 million for the Criminal Division to 
strengthen its investigative and prosecutorial capabilities, and $5 
million to provide grants related to cybercrime and intellectual 
property enforcement.
    The Department is committed to carrying out its cyber security 
role, emphasizing intelligence and information sharing as well as the 
preservation of privacy, data confidentiality, and civil liberties. The 
administration is working to improve Government mechanisms for 
providing timely cyber threat information to the private sector so it 
can better protect and defend itself against cyber threats. Pursuant to 
an Executive Order on Improving Critical Infrastructure Cybersecurity, 
each Federal department and agency is also required to develop and 
implement privacy and civil liberties safeguards in concert with its 
cyber security activities.
    And although we work tirelessly to bring cyber criminals to 
justice, we need additional tools to strengthen the Justice 
Department's ability to combat crime and ensure individual privacy. 
I've recently called on Congress to create a strong national standard 
for quickly alerting consumers whose personal identifying information 
may be compromised. This would empower the American people to protect 
themselves if they are at risk of identity theft. It would enable law 
enforcement to better investigate these crimes. And it would hold 
compromised entities accountable when they fail to keep sensitive 
information safe. I hope I can count on your support.
     improving collaboration with foreign law enforcement partners
    Criminal activity transcends national boundaries, requiring the 
United States and its foreign partners to cooperate in the provision of 
evidence and the extradition of persons. Mutual Legal Assistance Treaty 
(MLAT) requests are the formal way in which countries request 
assistance in obtaining evidence located in a foreign country for 
criminal investigations and proceedings located in another country. 
However, delays and difficulties in obtaining evidence, especially 
Internet records, through the MLAT process are increasingly becoming a 
source of frustration for many of our foreign partners.
    Continued delays in producing this type of information to our 
foreign counterparts could reduce their compliance with U.S.-initiated 
MLAT requests and their cooperation with U.S. law enforcement agencies, 
thus hampering our ability to investigate crime and prosecute 
criminals. In his January speech on the review of signals intelligence, 
the President stated that he ``will devote the resources to centralize 
and improve the process we use to handle foreign requests for legal 
assistance, keeping our high standards for privacy while helping 
foreign partners fight crime and terrorism.'' Pursuant to the 
President's commitment, the Department is leading an interagency effort 
to update, improve, and accelerate the handling of requests from 
foreign governments for evidence requested pursuant to MLATs.
    Over the past decade, the number of requests for assistance from 
foreign authorities handled by the Criminal Division's Office of 
International Affairs has increased nearly 60 percent, and the number 
of requests for computer records has increased 10-fold. While the 
workload has increased dramatically, our ability to handle them has not 
kept pace. The Department's fiscal year 2015 budget requests a total of 
$44 million, including an increase of $24 million for the Criminal 
Division, the FBI and U.S. Attorneys, for the Department to 
significantly expand the number of personnel dedicated to reviewing and 
executing MLAT requests, and for technological enhancements to improve 
the way requests are analyzed, categorized, and prioritized. With these 
additional resources, the Department will implement a robust 
centralized processing system, reduce backlog, cut its response time by 
half by the end of 2015, and respond to legally sufficient requests in 
a matter of weeks. Additionally, the resources will support training 
efforts for foreign partners to ensure they can meet U.S. evidentiary 
standards, which will enable the Department to respond to their 
requests more quickly.
    This MLAT reform effort involves collaboration among the 
Departments of Justice, State, and Commerce. Funds identified in the 
fiscal year 2015 President's budget for improvements to the MLAT 
program will be coordinated across these departments and agencies as 
well as the commercial sector.
                prosecuting financial and mortgage fraud
    Protecting consumers, investors, and our financial markets from 
fraud is one of the Department's top priorities. The budget maintains 
support to investigate and prosecute financial and mortgage fraud, 
providing a total of $681 million for financial fraud enforcement. It 
also continues efforts to strengthen the Department's ability to pursue 
large-scale financial fraud.
    Fraud harms the American people and has the potential to undermine 
our financial markets, and fraudulent misconduct may have contributed 
to the worst economic crisis in recent history. With its criminal and 
civil enforcement tools, the Department plays a crucial role in 
achieving justice for those who have been victimized. Fraud cases are 
complex matters that can take years to investigate and prosecute. Last 
year, as part of our ongoing effort to hold accountable those whose 
conduct sowed the seeds of the mortgage crisis, the Department filed 
lawsuits against Bank of America and the ratings firm Standard & 
Poor's. Since 2009, we have filed criminal charges against more than 
46,000 white-collar defendants, more than half of whom are financial 
fraud defendants. And in November, the Department reached a $13 billion 
settlement with JPMorgan Chase & Co.--the largest settlement with any 
single entity in American history--to resolve Federal and State civil 
claims related to the company's mortgage securitization process. These 
results demonstrate that no firm, no matter how profitable, is above 
the law--and the passage of time is no shield from accountability. They 
also reinforce our commitment to integrity and equal justice in every 
case, in every circumstance, and in every community.
 enforcing immigration laws and addressing the immigration case backlog
    The Department has substantial responsibilities with respect to 
immigration, including enforcement, detention, judicial functions, 
administrative hearings, and litigation. The Department's Executive 
Office for Immigration Review (EOIR) maintains a nationwide presence, 
overseeing the immigration court and appeals processes, receiving cases 
directly from Department of Homeland Security enforcement personnel. 
EOIR's immigration court caseload is increasing to unsustainable 
levels. Between fiscal year 2009 and fiscal year 2013, the caseload 
pending adjudication grew by 56 percent--from 229,000 to 358,000.
    The fiscal year 2015 budget includes $23 million in new resources 
to support and advance EOIR's mission. Of this amount, $17 million is 
requested for EOIR to support 35 additional Immigration Judge Teams and 
15 additional Board of Immigration Appeals attorneys. An additional $3 
million is included to expand EOIR's Legal Orientation Program, which 
improves immigration court proceedings for those who are detained by 
increasing their awareness of their rights and the overall process. 
Another $3 million is requested to allow EOIR to continue the 
development and expansion of a pilot program that provides counsel to 
vulnerable populations, such as unaccompanied alien children, for which 
funding was provided in fiscal year 2014.
      maintaining safe and secure prison and detention facilities
    The Department continues to prioritize the maintenance of secure, 
controlled prison and detention facilities, as well as investment in 
programs that can reduce recidivism. Federal prisons are operating over 
30 percent above rated capacity. Spending on Federal prisons consumes a 
quarter of the Department's budget--an unsustainable figure that is 
nevertheless projected to continue to increase.
    As part of the ``Smart on Crime'' approach I announced last August, 
I directed a significant change to the Department's charging policies 
to ensure that people accused of certain low-level, non-violent Federal 
drug crimes receive sentences appropriate to their individual conduct--
and that stringent mandatory minimum sentences are reserved for the 
most serious crimes. Alongside other important reforms, this change 
will make our criminal justice system not only fairer, but also more 
efficient, reducing the burden on our overcrowded prison system and 
freeing up resources for police and prosecutors and other vital law 
enforcement priorities.
    The fiscal year 2015 budget includes funding to support this 
initiative, providing $8.5 billion for prisons and detention, including 
$6.9 billion for the Bureau of Prisons (BOP) and $1.6 billion for 
Federal Prisoner Detention under the U.S. Marshals Service. Included in 
the total is $29 million to sustain the investments made in fiscal year 
2014 for BOP's reentry programs, including the Residential Drug Abuse 
Program, Residential Reentry Centers, and reentry-specific education 
programs. In all, the budget requests a total of $660 million for BOP's 
reentry-related activities. These resources provide critical 
opportunities for inmates to successfully transition back into their 
communities. Further, $32 million in program increases are requested 
for Federal detention to pay for increases in the average daily 
detainee population under the U.S. Marshals Service.
   investing in state, local and tribal assistance programs that work
    The Department continues to support its partnerships with State, 
local, and tribal law enforcement. The fiscal year 2015 budget 
maintains these commitments without cutting the Department's Federal 
operational role. Simultaneously, the budget identifies efficiencies to 
help ensure that Federal resources are being targeted to the most 
effective grant programs. The fiscal year 2015 request for State, 
local, and tribal law enforcement assistance is $3 billion, including 
$2.1 billion for discretionary grants and $891 million for mandatory 
grants.
    The Department is requesting $1.5 billion for the Office of Justice 
Programs' discretionary grants. The request increases funding for an 
evaluation clearinghouse, an indigent defense initiative, and evidence-
based competitive programs. This includes funding to establish the 
Byrne Incentive Grants and Juvenile Justice Realignment Incentive 
grants, which will provide supplementary awards to States and 
localities using formula grant funds for evidence-based purposes. The 
budget also requests funding to address school safety and gun violence 
with resources to improve criminal history records information and for 
the Comprehensive School Safety Program, which initially received 
funding in fiscal year 2014. In addition, the budget requests $33 
million to support the Department's Access to Justice Initiative 
efforts, including to assess and improve the quality of indigent 
defense services in the United States. Finally, the request includes 
$35 million for a new grant for communities to develop plans and 
identify the most critical needs to address sexual assault prevention, 
investigation, prosecution and services, including addressing untested 
sexual assault evidence kits at law enforcement agencies or backlogged 
crime labs.
    The fiscal year 2015 budget includes a total of $423 million for 
the Office on Violence Against Women, and continues the 
administration's strong commitment to providing Federal leadership in 
developing the Nation's capacity to combat sexual assault and violence 
against women. The request includes an increase of $9 million for Legal 
Assistance to Victims Programs, Campus Violence, Grants to Support 
Families in the Justice System, and the Transitional Housing program. 
These programs fund proven and innovative interventions to save lives, 
hold abusers accountable, and rebuild families and communities. As a 
result of prior investments in this area, civil and criminal justice 
systems are more responsive to victims, and crimes of violence 
committed against women have declined in recent years. Even so, 
reducing such violence and meeting the needs of the almost 1.3 million 
women victimized annually by rape and sexual assault, and the nearly 
seven million victims of intimate partner violence each year, remains a 
critical priority.
    Finally, the request includes $274 million for Community Oriented 
Policing Services (COPS), which supports a $71 million increase for 
COPS Hiring and Tribal Law Enforcement programs. These resources will 
fund the hiring or retention of approximately 1,300 police officers and 
sheriffs' deputies across the United States, thereby supporting the 
efforts of State, local and tribal law enforcement agencies in meeting 
the challenge of keeping their communities safe.
                               conclusion
    Chairwoman Mikulski, Vice Chairman Shelby, and members of the 
subcommittee, I want to thank you for this opportunity to share the 
significant accomplishments of the Department over the past year, to 
highlight our ongoing priorities, and to discuss how the funding 
proposed in the fiscal year 2015 President's budget will help make the 
criminal justice system more effective and efficient.
    The Department recognizes the need for fiscal restraint, and we 
have focused our resources on priority initiatives. As evidenced by our 
national security and law enforcement achievements, and our continued 
ability to demonstrate a significant return on investment, we have 
proven our ability to target and respond to the Nation's highest 
priorities efficiently and effectively. I look forward to working with 
this subcommittee and with the entire Congress to build on these 
successes. And I would be happy to answer any questions you may have.

    Chairwoman Mikulski. Thank you very much, Mr. Attorney 
General.
    We're going to follow a 5-minute time limit and try to get 
to as many people as we can. And if there's a chance, we will 
do a second round.

                            FEDERAL PRISONS

    So, let me get right to my question. Mr. Attorney General, 
one of the biggest areas, in terms of the Justice Department, 
is the funding of Federal prisons. And my question to you is--
two--and we're concerned about two things--one, the adequacy of 
the funding; second, the protection of prison guards, looking 
back to that terrible death. And, number three, what is your 
plan? Because there are now 18,000 prison guards, doing a great 
job. We're very proud of our guards in the Cumberland 
facility--and the stress that they're under every day. But, 
you've got initiatives here. And now, the prison guard 
population is one-third of the Justice Department.
    So, we've got to keep the bad people off the street, but 
are we just loading up our Federal prisons, and are there other 
ways where we protect America? It's almost impossible to keep 
up with this prison population demand. Could you give us your 
views on the resources needed and the policy directions you see 
going in?
    Attorney General Holder. Well, I agree with you, Madam 
Chairwoman. We have to focus on looking at the intake, how many 
people we are bringing into our Federal prison system, and make 
sure that only those people who should be charged with Federal 
crimes are actually brought into the system. And so, that's one 
of the ways in which we can, I think, do a better job.
    The safety of the people who work at the Federal Bureau of 
Prisons, the people who are there in our system on a day-to-day 
basis, is what we must keep uppermost in our minds. Our budget 
request includes a total of $6.8 billion to maintain the 
enhancements provided in the 2014 budget and to support 
mandatory prison operations. And one of the things that we want 
to do, as well, is to prioritize the filling of staff positions 
so that we have adequate numbers of people in our prisons. That 
will not only mean that people are treated fairly, humanely in 
the system, it also keeps our employees safe. We have a renewed 
and good relationship with the union that represents our prison 
officers. And I think that, through the combination of the work 
that Director Samuels is doing, with the help of this 
committee, I think that we can keep our Bureau of Prisons 
adequately funded, and keep the people who work there safe.
    Chairwoman Mikulski. Well, I met with prison--well, of 
course, I've been up to the Cumberland prison, but also with 
prison guards that were mates of--teammates, if you will, of 
Officer Williams, who died in Pennsylvania. They had--they, 
through the union, really had very specific things that they 
felt they could do to--that they needed to do to protect 
themselves. And I would encourage you to have ongoing and 
regular meetings with them, because it's almost like--it's not 
labor management negotiation, it's safety conversation on 
protecting them so they can protect us.

                             HEROIN CRISIS

    In my time, I'm going to go to another question, and this 
goes to the heroin crisis. The heroin crisis is sweeping 
America. I'm now hearing it in my own State of Maryland, from 
county executives, cops on the beat, and so on. Heroin is 
selling in Baltimore today for $6 a bag. You know, cheaper than 
buying a bag of kale at a gourmet grocery store kind of thing. 
The Governor of Vermont made it the focus of the State of the 
Union. Senator Leahy has spoken. Could you share with us, one, 
your view on this, and what are the resources needed at the 
Department of Justice level and how you would work with State 
and local law enforcement on dealing with this, really, new 
epidemic that is both criminal and public health?
    Attorney General Holder. Well, I first started to hear 
about the resurgence of the use of heroin about 3 years or so 
ago as I was going around the country to various U.S. 
Attorneys' offices, and was struck by the fact that I was 
hearing about heroin. This was something that I had consigned, 
in my own mind, to a problem that existed in the 1960s. But, 
there is no question that over the course of these last few 
years this has become a national problem. It's not a regional 
problem, it's not a State problem; this is something that is 
national in significance.
    What we need to do is have a balanced approach to dealing 
with this issue. We need to have a strong enforcement component 
to it. Our Drug Enforcement Administration takes the lead in 
that regard. We've recovered record amounts of heroin coming 
from the Mexican cartels into the United States. But now, this, 
I think, is important--we need to focus on the public health 
component as well, and work with our partners at HHS and at 
CDC, to come up with ways in which we can educate people about 
the issues that surround heroin use, and also the connected 
problem of prescription drug abuse, the use of opioids, and how 
that leads to the use of heroin.
    This is all part of a problem that will require, I think, 
more than simply the Justice Department to really get at it, 
though I think we have to be in the lead, given our enforcement 
responsibilities that we take very seriously.
    Chairwoman Mikulski. My--thank you very much, Mr. Attorney 
General--my time is up. I'm going to turn to Vice Chairman 
Shelby.
    But, I think we cannot underestimate that this heroin 
matter is a new epidemic. And if we were hit by an infectious 
disease or a new kind of flu, we'd have Fauci, from NIH, and 
Francis Collins, and Sebelius on the edge of her chair, and 
Arne Duncan worrying about children in school needing 
vaccinations. I think we've got to go to the edge of our chair 
here.
    This is prescription drugs, this is prescription drug 
addiction that's then leading to people buying heroin because 
it's easier to get. We've got suburban people driving into 
Baltimore looking into heroin markets that were featured in 
some of those awful movies about us. I mean, we are really 
concerned about what this is, and it's--and I think, if we 
marshal the resources of the Federal Government, working with 
the American Medical Association, doctors in the community, et 
cetera, we can deal with this. This is not only crime, it is 
public health.
    And can I count on you to take the lead in this?
    Attorney General Holder. Yes, I will. And I will engage 
with other members of the Cabinet. But, beyond that, to go 
beyond the Federal Government to try to enlist others who I 
think have an interest, and should have an interest, in this--
as you've indicated, the American Medical Association and 
others--so that we can really get at this problem in a balanced 
way. This is simply not an enforcement problem, this is 
something we have to deal with as a public health issue as 
well.
    Chairwoman Mikulski. Right.
    Senator Shelby.
    Senator Shelby. Thank you.

                           DRUG-RELATED CRIME

    I just want to pick up on the Chairwoman's area, there. 
What percent of the people in Federal prison, roughly--and you 
might want to furnish the exact number, if you don't have it 
offhand--for the record--are in prison but related to drug 
abuse, drug use, drug sales, or connected to drugs?
    Attorney General Holder. Roughly 50 percent.
    Senator Shelby. Fifty percent.
    Attorney General Holder. Yes.
    Senator Shelby. And in the State, I believe it's higher 
than that.
    Attorney General Holder. I think that's correct. In most 
States, I think that the number is probably higher.
    Senator Shelby. What is the rate of--not just drug 
related--what's the rate of recidivism, repeat offenders, in 
the prison--that go into the prison system and go back, you 
know, after a while?
    Attorney General Holder. Again, that'll vary from State to 
State. I think the Federal rate is----
    Senator Shelby. I'm speaking of the Federal. The Federal.
    Attorney General Holder. Okay. Federal rate is roughly, I 
think, around 35-40 percent.
    Senator Shelby. About a third, more or less----
    Attorney General Holder. Right. I think that's about right.
    Senator Shelby [continuing]. Of the people who go to prison 
come back.
    Attorney General Holder. Right.
    Senator Shelby. So, basically, our prison systems, State 
and Federal, are challenged, to say the least, are they not, on 
rehabilitating----
    Attorney General Holder. Yes.
    Senator Shelby [continuing]. People, getting them back in 
society?
    Attorney General Holder. Absolutely.
    Senator Shelby. What percent of the Federal prison--of 
people in Federal prison are there connected in some way to 
violent crime, the people that we need to get off the streets, 
period?
    Attorney General Holder. I don't know----
    Senator Shelby. Can you furnish that for the record?
    Attorney General Holder. Yes, we can certainly furnish that 
for the record----
    Senator Shelby. Do you have----
    Attorney General Holder [continuing]. We have drug 
offenses, about 50 percent; weapons, explosives, arson, about 
5.4 percent. So----
    Senator Shelby. But, violent-related.
    Attorney General Holder. Yes.
    Senator Shelby. People that you wouldn't want in your 
neighborhood or your school or around your children----
    Attorney General Holder. Yes.
    Senator Shelby [continuing]. You know, period.
    Attorney General Holder. I can provide you with----
    Senator Shelby. Okay.
    Attorney General Holder [continuing]. A more precise 
number, Senator.
    [The information follows:]

    Question. What percentage of the Federal prison population is 
connected in some way to violent crime?
    Answer. Of the sentenced inmates in BOP custody, one third (33.8 
percent) are serving time for a violent offense, defined to include 
homicide, robbery, aggravated assault, sex offenses, weapons and 
explosives (68,486 out of 202,397). Half (49.5 percent) have a previous 
conviction for a violent offense (100,142 out of 202,397). Data as of 
August 30, 2014.

    Senator Shelby. Do you believe that a lot of our prisons 
are overcrowded, State and Federal?

                            FEDERAL PRISONS

    Attorney General Holder. Yes. If you look at the Federal 
prison system, we don't have enough beds for the people, and 
especially when you look at those people who we consider the 
most significant offenders. It's one of the reasons why we try 
to bring online more of our prisons.
    Senator Shelby. Do you believe it's the--when you make 
priorities, as a prosecutor, that you should look at violent 
crime and get people off the street, get them out of doing harm 
to other people in institutions first?
    Attorney General Holder. Sure. There are a range of things 
that we have to----
    Senator Shelby. Absolutely.
    Attorney General Holder [continuing]. Do in the Federal 
system. National security, violent crime, drug offenses. We 
have a range of things that we have to do, working with our 
State and local partners, as well. They do the vast majority of 
the prosecuting when it comes to violent crime.
    Senator Shelby. I know it's been said that the Department, 
led by you, is trying to figure ways out to lessen the impact 
of some tough sentencing, which is statutory, I think. So, a 
lot of that--a lot of the sentencing by Federal courts over--on 
drugs and other things, I believe that's according to statute. 
Is that right, Mr. Attorney General?

                           SENTENCING REFORM

    Attorney General Holder. There are certain mandatory 
minimum sentences that exist with regard to how we charge 
certain crimes. We have discretion as to----
    Senator Shelby. I'm talking about after they're sentenced, 
they're sentenced on--based on a statute, are they not?
    Attorney General Holder. There are guidelines that are 
advisory now, but they're no longer mandatory.
    Senator Shelby. Well, once a judge sentences a prisoner for 
X years after going through a court or a plea, do you have the 
power, as the Attorney General, to change that sentence?
    Attorney General Holder. I have limited amounts of power.
    Senator Shelby. Like what? Explain.
    Attorney General Holder. With regard to people, for 
instance, as the Chair was saying, people who I can release, or 
the director of Bureau of Prisons can release on the basis of 
compassionate release, somebody who is 70-80 years old, who is 
no longer a threat to society. I have that capacity. But, 
generally, the Attorney General----
    Senator Shelby. It's statutory, is it not?
    Attorney General Holder. Yes. Statutory and regulatory. 
But, generally, the Attorney General does not have the ability 
to reduce sentences. That is something the President can do.
    Senator Shelby. And if there's any change in the laws on 
sentencing, it came from Congress--it had come from Congress to 
modify, repeal, or enact something to supersede it, is that 
correct?
    Attorney General Holder. Yes. And that's why we are 
supporting the efforts of Senator Lee, Senator Leahy, and 
Senator----
    Senator Shelby. Okay.
    Attorney General Holder [continuing]. Durbin, to try to 
make changes to our Federal system.

                       ROLE OF INSPECTOR GENERAL

    Senator Shelby. I just have a few seconds left, but this is 
important, I think. A lot of us--I raised it in my opening 
statement--we're concerned about the issues raised dealing with 
the Inspector General. I think Congress has been clear, as has 
this committee, that the Inspector General must have unfettered 
access to any and all documents necessary to carry out his 
duties. Do you disagree with that?
    Attorney General Holder. I would say that the Inspector 
General should have access to those materials necessary to do 
the investigations that he does, and consistent with the laws 
that govern some of the material that he might want access to.
    Senator Shelby. Well, it's all consistent with the law, 
but----
    Attorney General Holder. Well, the law is written in such a 
way that, with regard to certain requests that are made, the 
Attorney General or the Deputy Attorney General has to make a 
determination that it can be appropriately shared.
    But, one thing I would point out. There has never been an 
instance, as long as I have been Attorney General, that the 
Inspector General has asked for materials that I have said he 
could not have. That has just not happened.
    Senator Shelby. It hasn't happened.
    Attorney General Holder. Has not happened.
    Senator Shelby. Do you believe that the Inspector General 
should have to seek your approval to access grand jury 
documents relevant to ongoing investigations, something that 
he's charged, statutorily, to investigate and oversee?
    Attorney General Holder. I think, as the law exists now 
with regard to grand jury material, wiretap information, there 
is an approval process that I think is an appropriate one to go 
through. But, as I said, there's never been an instance where, 
with regard to a request made by an Inspector General, I or the 
Deputy Attorney General have not said, ``You can't have access 
to that material.''
    Senator Shelby. Have you, or will you, direct the 
Department of Justice that you oversee to grant the Inspector 
General unfettered access to relevant documents to carry out 
his investigations within the Department, even though it might 
be detrimental to somebody in the Department of Justice, 
including yourself?
    Attorney General Holder. Yes. I mean, the question of 
whether or not this material is turned over or the Inspector 
General has access to it is not a function of who is under 
investigation or what harm is going to happen to the 
Department. It is really a function of making sure that we are 
following the----
    Senator Shelby. But, what if----
    Attorney General Holder [continuing]. Laws that exist.
    Senator Shelby [continuing]. He was investigating somebody 
high up in the Justice Department, and he had reason to do 
this, and he needed documents. Would you give him access to 
those documents? Would you cause him trouble?
    Attorney General Holder. They'd have access to the 
documents, as they have in the past.
    Senator Shelby. And you're not going to block the Inspector 
General from doing his work.
    Attorney General Holder. No. There is no tension between 
making sure the Inspector General has the documents that he or 
she needs and also making sure that the laws that govern the 
release of those materials are followed. And we have done so in 
the past.
    Senator Shelby. Well, if a head of the Department, even the 
Justice Department, like you or, say, Secretary of Energy or 
Secretary of State, or whatever, if you have an Inspector 
General there to do oversight and uncover wrongdoing, if they 
could say, ``You can't go there,'' it would impede their 
investigation, would it not?
    Attorney General Holder. Yes, but the Attorney General has 
a unique responsibility, in that I am the possessor of, for 
instance, grand jury material, wiretap information that the 
Secretary of State or Secretary of Energy would not have access 
to, and so, the need for the statutory requirements that we 
have to go through at the Justice Department are different than 
what would exist in other executive-branch agencies.
    Senator Shelby. But, the Inspector General at the 
Department of Justice couldn't do his job unless they had 
unfettered access to stuff he was seeking. You seem to be 
stalling on giving him access to things in the Justice 
Department. I don't understand that.
    Attorney General Holder. Well, you'll have the ability to 
talk to the Inspector General. I think he'll echo----
    Senator Shelby. Sure.
    Attorney General Holder [continuing]. What I've just said, 
which is that there has never been an instance where material 
has been sought that has not been granted to them.
    There was a question that was actually raised by Mr. 
Horowitz's predecessor about whether or not there was a legal 
basis for the position that we were taking. What we offered to 
do was to send it to the Office of Legal Counsel for a 
determination as to whether the view that the Attorney General 
or the Deputy Attorney General was taking was correct. The 
decision was made by the Inspector General not to have that OLC 
opinion done. We have copies of the letter, that I will be more 
than glad to make available to the committee, that shows that 
what we have done is consistent with the law and also 
consistent with the important responsibilities that the 
Inspector General has.
    [The information follows:]
summary of the department of justice office of the inspector general's 
 position regarding access to documents and materials gathered by the 
                    federal bureau of investigation

                              Introduction

    In November 2009, the Office of the Inspector General (OIG) 
initiated a review of the Department's use of the material witness 
statute, 18 U.S.C. Sec. 3144. Pursuant to our responsibilities under 
Section 1001 of the Patriot Act, a significant part of our review is to 
assess whether Department officials violated the civil rights and civil 
liberties of individuals detained as material witnesses in national 
security cases in the wake of the September 11 terrorist attacks. In 
addition, the review will provide an overview of the types and trends 
of the Department's uses of the statute over time; assess the 
Department's controls over the use of material witness warrants; and 
address issues such as the length and costs of detention, conditions of 
confinement, access to counsel, and the benefit to the Department's 
enforcement of criminal law derived from the use of the statute.
    In the course of our investigation, we learned that most of the 
material witnesses in the investigations related to the September 11 
attacks were detained for testimony before a grand jury. At our 
request, between February and September 2010 the Department of Justice 
National Security Division and three U.S. Attorneys' offices (Southern 
District of New York (SDNY), Northern District of Illinois (NDIL), 
Eastern District of Virginia (EDVA)) provided us with grand jury 
information concerning material witnesses pursuant to Fed. R. Crim. P. 
6(e)(3)(D), which permits disclosure of grand jury matters involving 
foreign intelligence information to any Federal law enforcement 
official to assist in the performance of that official's duties. We 
also sought a wide range of materials from other Department components, 
including the U.S. Marshals Service, the Federal Bureau of Prisons, and 
the Federal Bureau of Investigation (FBI). All of the Department's 
components provided us with full access to the material we sought, with 
the notable exception of the FBI.
    In August 2010, we requested files from the FBI relating to the 
first of 13 material witnesses. In October 2010, representatives of the 
FBI's Office of General Counsel informed us that the FBI believed grand 
jury secrecy rules prohibited the FBI from providing grand jury 
material to the OIG. The FBI took the position that it was required to 
withhold from the OIG all of the grand jury material it gathered in the 
course of these investigations. The FBI has also asserted that, in 
addition to grand jury information, it can refuse the OIG access to 
other categories of information in this and other reviews, including 
Title III materials, Federal taxpayer information; child victim, child 
witness, or Federal juvenile court information; patient medical 
information; credit reports; FISA information; foreign government or 
international organization information; information subject to non-
disclosure agreements, memoranda of understanding or court order; 
attorney client information; and human source identity information. The 
information we have requested is critical to our review. Among other 
things, we are examining the Department's controls over the use of 
material witness warrants, the benefit to the Department from the use 
of the statute, and allegations of civil rights and civil liberties 
abuses in the Department's post-9/11 use of the statute in the national 
security context. The requested grand jury information is necessary for 
our assessment of these issues.
    The FBI has also asserted that page-by-page preproduction review of 
all case files and e-mails requested by the OIG in the material witness 
review is necessary to ensure that grand jury and any other information 
the FBI asserts must legally be withheld from the OIG is redacted. 
These preproduction reviews have caused substantial delays to OIG 
reviews and have undermined the OIG's independence by giving the entity 
we are reviewing unilateral control over what information the OIG 
receives, and what it does not.
    The FBI's position with respect to production of grand jury 
material to the OIG is a change from its longstanding practice.\1\ It 
is also markedly different from the practices adopted by other 
components of the Department of Justice. The OIG routinely has been 
provided full and prompt access to grand jury and other sensitive 
materials in its reviews involving Department components in high 
profile and sensitive matters, such as our review of the President's 
Surveillance Program and the investigation into the removal of nine 
U.S. Attorneys in 2006. Those reviews would have been substantially 
delayed, if not thwarted, had the Department employed the FBI's new 
approach.
---------------------------------------------------------------------------
    \1\ Since 2001, when the OIG assumed primary oversight 
responsibility for the FBI, the OIG has undertaken numerous 
investigations which required review of the most sensitive material, 
including grand jury material and documents classified at the highest 
levels of secrecy. Through all of these reviews, the FBI never refused 
to produce documents and other material to the OIG, including the most 
sensitive human and technical source information, and it never asserted 
the right to make unilateral determinations about what requested 
documents were relevant to the OIG reviews. On the rare occasion when 
the FBI voiced concern based on some of the grounds now more broadly 
asserted in this matter, quick compromises were reached by the OIG and 
the FBI. Indeed, with only minor exceptions, the FBI's historical 
cooperation with the OIG has been exemplary, and that cooperation has 
enabled the OIG to conduct thorough and accurate reviews in a timely 
manner, consistent with its statutorily based oversight mission and its 
duty to assist in maintaining public confidence in the Department of 
Justice.
---------------------------------------------------------------------------
    In many respects, the material witness warrant review is no 
different from other recent OIG reviews conducted in connection with 
our civil rights and civil liberties oversight responsibilities under 
the Patriot Act in which Department components granted the OIG access 
to grand jury and other sensitive material. For example, in our review 
of the FBI's use of ``exigent letters'' to obtain telephone records, at 
our request the Department of Justice Criminal Division and the FBI 
provided us grand jury materials in two then ongoing sensitive media 
leak investigations involving information classified at the TS/SCI 
level. The grand jury materials were essential to our findings that FBI 
personnel had improperly sought reporters' toll records in 
contravention of the Electronic Communications Privacy Act and 
Department of Justice policy.\2\
---------------------------------------------------------------------------
    \2\ We described this issue in our report, A Review of the Federal 
Bureau of Investigation's Use of Exigent Letters and Other Informal 
Requests for Telephone Records, (January 2010).
---------------------------------------------------------------------------
    Similarly, in our review of the FBI's investigations pertaining to 
certain domestic advocacy groups, the OIG assessed allegations that the 
FBI had improperly targeted domestic advocacy groups for investigation 
based upon their exercise of First Amendment rights. In the course of 
this review, the FBI provided OIG investigators access to grand jury 
information in the investigations we examined. This information was 
necessary to the OIG's review as it informed our judgment about the 
FBI's predication for and decision to extend certain investigations. 
The lack of access to this information would have critically impaired 
our ability to reach any conclusions about the FBI's investigative 
decisions and, consequently, our ability to address concerns that the 
FBI's conduct in these criminal investigations may have violated civil 
rights and civil liberties.\3\
---------------------------------------------------------------------------
    \3\ Our findings are described in our report, A Review of the FBI's 
Investigations of Certain Domestic Advocacy Groups (September 2010).
---------------------------------------------------------------------------
    When the OIG has obtained grand jury material, the OIG has 
carefully adhered to the legal prohibitions on disclosure of such 
information. We routinely conduct extensive pre-publication reviews 
with affected components in the Department. The OIG has ensured that 
sensitive information--whether it be law enforcement sensitive, 
classified, or information that would identify the subjects or 
direction of a grand jury investigation--is removed or redacted from 
our public reports. In all of our reviews and investigations, the OIG 
has scrupulously protected sensitive information and has taken great 
pains to prevent any unauthorized disclosure of classified, grand jury, 
or otherwise sensitive information.
    For the reasons discussed below, the OIG is entitled to access to 
the material the FBI is withholding. First, the Inspector General Act 
of 1978, as amended (Inspector General Act or the Act), provides the 
OIG with the authority to obtain access to all of the documents and 
materials we seek. Second, in the same way that attorneys performing an 
oversight function in the Department's Office of Professional 
Responsibility (OPR) are ``attorneys for the government'' under the 
legal exceptions to grand jury secrecy rules, the OIG attorneys 
conducting the material witness review are attorneys for the government 
entitled to receive grand jury material because they perform the same 
oversight function. Third, the OIG also qualifies for disclosure of the 
grand jury material requested in the material witness review under 
amendments to the grand jury secrecy rules designed to enhance sharing 
of information relating to terrorism investigations.
I.  THE INSPECTOR GENERAL ACT
    The FBI's refusal to provide prompt and full access to the 
materials we requested on the basis of grand jury secrecy rules and 
other statutes and Department policies stands in direct conflict with 
the Inspector General Act. The Act provides the OIG with access to all 
documents and materials available to the Department, including the FBI. 
No other rule or statute should be interpreted, and no policy should be 
written, in a manner that impedes the Inspector General's statutory 
mandate to conduct independent oversight of Department programs. See, 
e.g., Watt v. Alaska, 451 U.S. 259, 267 (1981) (A court ``must read 
[two allegedly conflicting] statutes to give effect to each if [it] can 
do so while preserving their sense and purpose.'').
            A.  The Inspector General Act Grants the OIG Full and 
                    Prompt Access to any Documents and Materials 
                    Available to the DOJ, Including the FBI, that 
                    Relate to the OIG's Oversight Responsibilities
    The Inspector General Act is an explicit statement of Congress's 
desire to create and maintain independent and objective oversight 
organizations inside of certain Federal agencies, including the 
Department of Justice, without agency interference. Crucial to the 
Inspectors General (IGs) independent and objective oversight is having 
prompt and complete access to documents and information relating to the 
programs they oversee. Recognizing this, the Inspector General Act 
authorizes IGs ``to have access to all records, reports, audits, 
reviews, documents, papers, recommendations, or other material 
available to the applicable establishment which relate to programs and 
operations with respect to which that Inspector General has 
responsibilities under this Act.'' 5 U.S.C. App. 3 Sec. 6(a)(1). The 
Act also authorizes the IGs to ``request'' necessary ``information or 
assistance'' from ``any Federal, State, or local governmental agency or 
unit thereof,'' including the particular establishments the IGs 
oversee. Id. Sec. 6(a)(3); id. Sec. 12(5) (defining the term ``Federal 
agency'' to include the establishments overseen by the Inspectors 
General). Together, these two statutory provisions operate to ensure 
that the Inspectors General are able to access the information 
necessary to fulfill their oversight responsibilities.
    The only explicit limitation on IGs' right of access to information 
contained in the Inspector General Act concerns all agencies' 
obligation to provide ``information or assistance'' to the Inspectors 
General. However, this limitation does not apply to IGs' absolute right 
of access to documents from their particular agency. This circumscribed 
limitation provides that all Federal agencies shall furnish information 
or assistance to a requesting IG ``insofar as is practicable and not in 
contravention of any existing statutory restriction or regulation of 
the Federal agency from which the information is requested[.]'' 5 
U.S.C. Sec. 6(b)(1) (emphasis added).\4\
---------------------------------------------------------------------------
    \4\ The legislative history is silent on the reason for 
conditioning agencies' furnishing of ``information or assistance'' to 
all IGs on practicability or statutory restriction, but imposing no 
such limitation on an agency's absolute requirement to provide its 
documents to its own IG. However, there are possible explanations for 
the distinction. For example, providing access to documents and 
materials maintained in agency systems and files is simple, 
inexpensive, and an undeniable precondition to the fair, objective, and 
successful exercise of the IGs' oversight responsibilities. 
Accordingly, the Act's unconditional language authorizing IGs to have 
access to the documents and materials of the agency it oversees is 
understandable and sensible. In contrast, agencies may not always be 
able to fulfill requests for ``information or assistance'' immediately, 
even from their agency's IG. A request of one agency from another 
agency's IG may require more careful scrutiny because it would entail 
information being transmitted outside of the requested agency. In 
addition, busy agency schedules must be accommodated when fulfilling a 
request for an interview; subject matter experts may not be immediately 
available to interpret documents or may have left the agency's 
employment; responses to interrogatories often require revisions and 
approvals; and annotations, explanations, and written analyses of 
existing documents and materials can take significant amounts of time. 
Despite the OIG's historical success at reaching reasonable compromises 
with components of the DOJ responding to requests for ``information or 
assistance,'' the OIG readily acknowledges that circumstances could 
arise where a component's delay, difficulty, or even refusal in 
responding to a request for ``information or assistance'' would be 
reasonable. These considerations are not applicable, however, to IGs' 
access to documents and materials of the agency it oversees, and 
therefore, that provision of the Act authorizes access in absolute 
terms.
---------------------------------------------------------------------------
    Another provision of the Inspector General Act grants the 
Inspectors General discretion to report instances of noncooperation to 
the head of the relevant agency, whether that noncooperation impedes on 
the IGs' authority to obtain documents or ``information and 
assistance.'' Under that section, when an IG believes ``information or 
assistance'' is ``unreasonably refused or not provided, the Inspector 
General shall report the circumstances to the head of the establishment 
involved without delay.'' 5 U.S.C. App. 3 Sec. 6(b)(2). The FBI 
contends this reporting provision of the Act is a further limitation on 
the agencies' obligation to provide documents and ``information and 
assistance'' to the Inspectors General. The FBI has argued that the 
provision implicitly recognizes that requests for both documents and 
``information and assistance'' can be ``reasonably refused.''
    The OIG believes the FBI's reliance on this reporting section as 
limiting an IG's right of access to documents in the custody of the 
agency it oversees is misplaced. This provision of the Act is entirely 
consistent with the right of full and prompt access to documents and 
materials and does not create a limitation, explicit or implicit, on 
the authorities provided elsewhere in the Act. By granting the 
Inspectors General the discretion to decide that some instances of 
noncooperation by an agency do not rise to the level of a reportable 
incident, the provision accounts for the practical reality that many 
instances where Inspectors General are not granted access to documents 
or materials, or are not provided ``information or assistance'' in 
response to a request, do not merit a report to agency management.\5\
---------------------------------------------------------------------------
    \5\ For example, IG document requests can be very broad, 
particularly before IG investigators have learned the details of the 
program under review. In such instances, formal requests are often 
informally and consensually narrowed after discussions with the agency 
under review, and a report to the agency head is unnecessary. 
Similarly, an agency's failure to provide the Inspector General with 
access to a document is often inadvertent or such a minor inconvenience 
that the Inspector General could reasonably view the noncooperation as 
de minimis.
---------------------------------------------------------------------------
    To summarize, the Inspector General Act provides the Inspectors 
General a right of full and prompt access to documents and materials in 
the custody of the agency they oversee, a right to request 
``information or assistance'' from any agency that is modestly limited, 
and an obligation to report instances of agency noncooperation to the 
agency head when, in the judgment of the Inspector General, such 
noncooperation is unreasonable. Accordingly, the Act provides 
Inspectors General unconditional authority to gather documents and 
records in the custody of the agency they oversee, an authority 
necessary to obtain the basic information to conduct independent and 
objective reviews and investigations.
            B.  The Only Limitation on the OIG's Authority to Conduct 
                    Audits and Investigations within its Jurisdiction 
                    is Section 8E of the Inspector General Act, and 
                    that Limitation Must Be Invoked by the Attorney 
                    General
    In the law creating the DOJ OIG, Congress inserted an exception to 
the normal authority granted to Inspectors General. In a section 
captioned ``Special provisions concerning the Department of Justice,'' 
the IG Act provides the Attorney General the authority, under specified 
circumstances and using a specific procedure, to prohibit the OIG from 
carrying out or completing an audit or investigation, or from issuing 
any subpoena. See 5 U.S.C. App. 3 Sec. 8E. This authority may only be 
exercised by the Attorney General, 5 U.S.C. App. 3 Sec. 8E(a)(1)-(2), 
and only with respect to specific kinds of sensitive information. Id. 
Sec. 8E(a)(1). The Attorney General must specifically determine that 
the prohibition on the Inspector General's exercise of authority is 
necessary to prevent the disclosure of certain specifically described 
categories of information, or to prevent the significant impairment to 
the national interests of the United States. Id. Sec. 8E(a)(2). The 
Attorney General's decision must be conducted in writing, must state 
the reasons for the decision, and the Inspector General must report the 
decision to Congress within 30 days. Id. Sec. 8E(a)(3). These 
provisions represent an acknowledgement of the fact that the Department 
of Justice often handles highly sensitive criminal and national 
security information, the premature disclosure of which could pose a 
threat to the national interests.
    These exacting procedures confirm that the special provisions of 
Section 8E represent an extraordinary departure from the baseline rule 
that the Inspectors General shall have unconditional access to 
documents and materials, and broad authority to initiate and conduct 
independent and objective oversight investigations. These procedures 
also confirm that only the Attorney General, and not the FBI, has the 
power to prohibit the OIG's access to relevant documents and materials 
available to the Department.
II.   GRAND JURY SECRECY RULES
    The Federal Rules of Criminal Procedure provide the general rule of 
secrecy applicable to grand jury information and various exceptions to 
that general rule. One of the exceptions allows disclosure of grand 
jury information to ``an attorney for the government.'' This exception 
provides a basis, additional to and independent of the Inspector 
General Act, for disclosing the requested grand jury materials to the 
OIG.\6\ The OIG's reliance on the ``attorney for the government'' 
exception to obtain access to grand jury material is supported by an 
Office of Legal Counsel (OLC) opinion and a Federal court decision. OIG 
access to grand jury material under this exception is consistent with 
the broad authority granted to the OIG under the Inspector General Act, 
and it avoids an oversight gap so that Department employees cannot use 
grand jury secrecy rules to shield from review their adherence to 
Department policies, Attorney General Guidelines, and the Constitution. 
The ``attorney for the government'' exception allows for automatic 
disclosure of grand jury materials and is, therefore, particularly well 
suited to ensure that the OIG's ability to access documents and 
materials, and to access them promptly, is coextensive with that of the 
Department and the FBI.
---------------------------------------------------------------------------
    \6\ Rule 6(e)(3)(A)(i) provides: ``Disclosure of a grand jury 
matter--other than the grand jury's deliberations or any grand juror's 
vote--may be made to: (i) an attorney for the government for use in 
performing that attorney's duty. . . .'' Fed. R. Crim. P. 
6(e)(3)(A)(i).
---------------------------------------------------------------------------
            A.  OIG Attorneys Are ``Attorneys for the Government''
    In an unpublished opinion issued subsequent to United States v. 
Sells Engineering, Inc., 463 U.S. 418 (1983) (a Supreme Court opinion 
narrowly construing the term ``attorney for the government'' as used in 
the exception to the general rule of grand jury secrecy), the OLC 
determined that, even in light of the Court's decision, the Rule was 
broad enough to encompass Office of Professional Responsibility (OPR) 
attorneys exercising their oversight authority with regard to 
Department attorneys.
    In Sells, Civil Division attorneys pursuing a civil fraud case 
sought automatic access to grand jury materials generated in a parallel 
criminal proceeding. The Supreme Court interpreted the exception that 
provides for automatic disclosure of grand jury materials to 
``attorney[s] for the government'' for use in their official duties, as 
limited to government attorneys working on the criminal matter to which 
the material pertains. Sells, 463 U.S. at 427. The Court held that all 
other disclosures must be ``judicially supervised rather than 
automatic,'' id. at 435, because allowing disclosure other than to the 
prosecutors and their assistants would unacceptably undermine the 
effectiveness of grand jury proceedings by: (1) creating an incentive 
to use the grand jury's investigative powers improperly to elicit 
evidence for use in a civil case; (2) increasing the risk that release 
of grand jury material could potentially undermine full and candid 
witness testimony; and (3) by circumventing limits on the government's 
powers of discovery and investigation in cases otherwise outside the 
grand jury process. See id. at 432-33.
    In its unpublished opinion, OLC concluded that the three concerns 
the Supreme Court expressed in Sells were not present when OPR 
attorneys conduct their oversight function of the conduct of Department 
attorneys in grand jury proceedings. OLC concluded that as a delegee of 
the Attorney General for purposes of overseeing and advising with 
respect to the ethical conduct of department attorneys and reporting 
its findings and recommendations to the Attorney General, OPR is part 
of the prosecution team's supervisory chain. Thus, OPR attorneys may 
receive automatic access to grand jury information under the 
supervisory component inherent in the ``attorney for the government'' 
exception.
    OIG attorneys should be allowed automatic access to grand jury 
material in the performance of their oversight duties because OIG and 
OPR perform the identical functions within the scope of their 
respective jurisdictions. Like OPR attorneys conducting oversight of 
Department attorneys in their use of the grand jury to perform their 
litigating function, OIG attorneys are part of the supervisory chain 
conducting oversight of the conduct of law enforcement officials 
assisting the grand jury. Both the OIG and OPR are under the general 
supervision of the Attorney General, compare 28 C.F.R. 0.29a(a) (OIG) 
with 28 C.F.R. 0.39. Just like OPR, the Inspector General must ``report 
expeditiously to the Attorney General whenever the Inspector General 
has reasonable grounds to believe there has been a violation of Federal 
criminal law.'' 5 U.S.C. App. 3, Sec. Sec. 4(d) & 8E(b)(2). OIG 
attorneys make findings and recommendations to the Attorney General 
regarding the conduct of law enforcement officials assisting the grand 
jury, and the Attorney General then imposes any discipline or 
implements reform. Therefore, for purposes of the ``attorney of the 
government'' exception, the OIG is in the same position as OPR, both 
with respect to its oversight function and its relationship to the 
Attorney General.
    More to the point, whatever formal differences exist in the 
relative structures of the OIG and OPR, the two offices are 
functionally indistinguishable for purposes of access to grand jury 
materials for all of their oversight purposes. The risks to the secrecy 
of the underlying grand jury proceedings from disclosure to the OIG, if 
any, are no different from those created by automatic disclosure to 
OPR. OPR's oversight of the conduct of Department attorneys is an 
after-the-fact examination of what happened during the grand jury 
process, just as is OIG's oversight of law enforcement agents' conduct. 
OIG review of law enforcement conduct in such circumstances is not 
undertaken to affect the outcome of a civil proceeding related to the 
target of an underlying criminal investigation. Therefore, disclosure 
of grand jury materials to the OIG runs no risk of creating an 
incentive to misuse the grand jury process in order to improperly 
elicit evidence for use in a separate administrative or criminal 
misconduct proceeding against the target of the grand jury's 
investigation. Similarly, because our review is of law enforcement 
conduct and not of lay witnesses who are called to testify, the 
willingness of those witnesses to testify should not be implicated. OIG 
oversight also ensures that the Department's law enforcement officials 
who testify before the grand jury do so fully and candidly, and that 
Department employees do not ignore their legal obligations to the grand 
jury.
    Moreover, the OIG's inherent supervisory role with regard to 
Department employees who assist the grand jury was recognized by a 
Federal court overseeing proceedings relating to the death of Bureau of 
Prisons inmate Kenneth Michael Trentadue. The district court granted 
the government's motion for access to grand jury materials, finding 
that the OIG's investigation of alleged misconduct ``is supervisory in 
nature with respect to the ethical conduct of Department employees.'' 
The court stated that ``disclosure of grand jury materials to the OIG 
constitutes disclosure to `an attorney for the government for use in 
the performance of such attorney's duty[.]' '' In re Matters Occurring 
Before the Grand Jury Impaneled July 16, 1996, Misc. #39, W.D. Okla. 
(June 4, 1998).
    Accordingly, there is no principled basis upon which to deny OIG 
attorneys the same access as OPR is allowed to review grand jury 
materials necessary to carry out its oversight function. Both OPR and 
OIG attorneys require access to grand jury materials to fulfill a 
supervisory function directed at maintaining the highest standards of 
conduct for Department employees who assist the grand jury. As such, 
OIG attorneys should also be able to obtain automatic access to matters 
that pertain to law enforcement conduct in matters related to the grand 
jury within the jurisdiction of the OIG.
            B.  The OIG is entitled to Receive Grand Jury Materials 
                    Involving Foreign Intelligence Information
    Another exception to the general rule of grand jury secrecy allows 
an attorney for the government to disclose ``any grand-jury matter 
involving foreign intelligence, counterintelligence . . ., or foreign 
intelligence information . . . to any Federal law enforcement, 
intelligence, protective, immigration, national defense, or national 
security official to assist the official receiving the information in 
the performance of that official's duties.'' Fed. R. Crim. P. 
6(e)(3)(D). This exception was added in 2001 as part of the USA PATRIOT 
Act and was designed to enable greater sharing of information among law 
enforcement agencies and the intelligence community to enhance the 
government's effort to combat terrorism.\7\
---------------------------------------------------------------------------
    \7\ Public Law 107-56, Sec. 203(A)(1), 115 Stat. 272, 279-81 
(2001).
---------------------------------------------------------------------------
    This exception encompasses the OIG's request for the grand jury 
materials at issue in its material witness warrant review. The grand 
jury proceedings pursuant to which the materials were collected were 
all investigations of international terrorist activity conducted in the 
wake of the terrorist attacks of September 11, 2001. All of the grand 
jury information gathered in them is thus necessarily ``related to,'' 
``gathered . . . to protect against,'' or ``relates to the ability of 
the United States to protect against,'' among other things, 
``international terrorist activities.'' See 50 U.S.C. Sec. 401a and 
Rule 6(e)(3)(D). All of the grand jury material gathered in those 
investigations thus constitutes foreign intelligence, counter 
intelligence, or foreign intelligence information (collectively, 
Foreign Intelligence Information).
    In addition, OIG officials qualify as law enforcement officials 
within the meaning of the rule by virtue of the Inspector General's 
authority to conduct criminal investigations, apply for search 
warrants, make arrests, and investigate violations of civil rights and 
civil liberties. See, e.g., 5 U.S.C. App. 3 Sec. 6(e)(1); USA PATRIOT 
ACT, Public Law 107-56, Sec. 1001, 115 Stat. 272, 391 (2001). Also, the 
OIG's oversight activities constitute law enforcement duties for 
purposes of the foreign intelligence exception because they directly 
affect the design and implementation of the Department's law 
enforcement programs.
    The OIG has discussed the access issues with Department leadership 
and sought their assistance in resolving the dispute with the FBI. 
Although the Department's consideration of all these issues is ongoing, 
in July 2011, the Department concluded that, at a minimum, the foreign 
intelligence exception authorizes an ``attorney for the government'' to 
disclose grand jury information to the OIG for use in connection with 
OIG's law enforcement duties, such as the material witness warrant 
review, to the extent that the attorney for the government determines 
that the grand jury information in question involves foreign 
intelligence. Since then, an ``attorney for the government'' in the 
Department's National Security Division (a Department component under 
review in the Material Witness Warrant review), has been conducting a 
page-by-page review of the materials withheld by the FBI to determine 
whether they qualify as Foreign Intelligence Information under the 
exception before providing them to the OIG. In addition, the FBI has 
continued its own page-by-page review of some of the requested files to 
identify and redact grand jury and other categories of information, 
before the National Security Division attorney performs yet another 
review for the purpose of sending the material back to the FBI for the 
removal of grand jury foreign intelligence information redactions.
    The Department's confirmation that the foreign intelligence 
exception is one basis for authorizing the OIG to obtain access to 
grand jury information was helpful. However, the page-by-page review of 
the material being conducted by the FBI and National Security Division 
to implement that decision is unnecessary. In our view, such page-by-
page review is not necessary here because all of the grand jury 
material we have sought to date in the material witness review was 
collected in investigations of international terrorist activity 
conducted in the wake of the terrorist attacks of September 11, 2001, 
and thus necessarily falls within the very broad definitions of foreign 
intelligence, counterintelligence, or foreign intelligence information. 
See 50 U.S.C. Sec. 401a and Rule 6(e)(3)(D). Therefore, the exception 
allows the OIG to receive all of the grand jury information from those 
investigations.\8\
---------------------------------------------------------------------------
    \8\ As noted above, such page-by-page reviews are also improper 
because they are contrary to the provisions of the Inspector General 
Act granting the OIG broad access to any document or material that is 
available to the agency overseen; undermine the independence of the 
Inspector General by granting a component under review unilateral 
authority to determine what materials the Inspector General receives, 
and result in unacceptable delays in the production of materials 
necessary for the OIG to conduct its oversight.
---------------------------------------------------------------------------
    Although the Department's determination that the OIG is entitled to 
access to the requested grand jury information in the material witness 
review under the foreign intelligence exception is helpful, that 
decision does not resolve the access issue. First, it does not address 
access to grand jury material that does not involve foreign 
intelligence information. Second, the Department's preliminary decision 
under the foreign intelligence exception does not address access to 
grand jury material in other OIG reviews. And third, the decision has 
been construed by the National Security Division and the FBI to require 
page-by-page review of the information, thereby undermining the 
independence and timeliness of the OIG's review as described above. 
Accordingly, a full decision confirming the OIG's right of access to 
grand jury and other information under the Inspector General Act and 
the ``attorney for the government'' exception is still necessary to 
enable the OIG effectively to carry out its oversight mission.
III.   CONCLUSION
    The objective and independent oversight mandated by the Inspector 
General Act depends on the fundamental principle that the Inspectors 
General should have access to the same documents and materials as the 
establishments they oversee. This principle explains why the Inspector 
General Act grants the IGs access to the documents and materials that 
are available to their establishments. It explains why OIG 
investigators are routinely granted access to TS/SCI materials when 
reviewing TS/SCI programs. It explains why OIG investigators are 
routinely read into some of the government's most highly classified and 
tightly compartmented programs, such as the President's Surveillance 
Program and the programs involved in the Robert Hanssen matter. And it 
explains why any instance of unreasonable denial of access to documents 
or materials under the Inspector General Act must be reported to the 
head of the agency, and why the Attorney General's decision to preclude 
an OIG audit, investigation, or subpoena must be reported to Congress.
    The FBI's withholding of grand jury and other information is 
unsupported in law and contrary to the Inspector General Act and 
exceptions to the general rule of grand jury secrecy. The OIG is 
entitled to access under the Inspector General Act. Moreover, the OIG 
qualifies for two exceptions to the general rule of grand jury secrecy. 
See supra; see also 5 U.S.C. App. 3 Sec. 6; Fed. R. Crim. P. 
6(e)(3)(D), 6(e)(3)(A)(i). It is true, of course, that under Section 8E 
of the Inspector General Act, the Attorney General could deny the OIG 
access to the documents at issue, as many of the documents constitute 
sensitive information within the scope of that Section. See 5 U.S.C. 
App. 3 Sec. 8E. But the Attorney General has not done so, and until he 
makes the written determination required in Section 8E(a)(2) and sets 
out the reasons for his decision, the OIG is entitled to prompt and 
full access to the materials.
    Denying the OIG access to the materials it is seeking would also 
represent an unnecessary and problematic departure from a working 
relationship that has proven highly successful for years. Since its 
inception, the OIG has routinely received highly sensitive materials, 
including strictly compartmented counterterrorism and 
counterintelligence information, classified information owned by other 
agencies, and grand jury information, and it has always handled this 
information without incident. The OIG has always conducted careful 
sensitivity reviews with all concerned individuals and entities, both 
inside and outside the Department, prior to any publication of 
sensitive information, and it has been entirely reasonable and 
cooperative in its negotiations over such publications. The OIG's 
access to sensitive materials has never created a security 
vulnerability or harmed the Nation's interests; far from it, the OIG's 
access to sensitive information has markedly advanced the Nation's 
interests by enabling the independent and objective oversight mandated 
by Congress.
    Simply put, there is no reason, legal or otherwise, to depart from 
the time-tested approach of allowing the OIG full and prompt access to 
documents and using a thorough prepublication sensitivity review to 
safeguard against unauthorized disclosure of the information therein. 
Access to grand jury and other sensitive materials is essential to the 
OIG's work, perhaps never more so than when the OIG is overseeing such 
important national security matters as the Department's use of material 
witness warrants and the FBI's use of its Patriot Act authorities. But 
whatever the subject matter, the authorities and mandates of the 
Inspector General are clear, and neither grand jury secrecy rules nor 
any other statutory or internal policy restrictions should be read in a 
manner that frustrates or precludes the OIG's ability to fulfill its 
mission.

    Senator Shelby. But, we want to make sure the Inspector 
General can do his job, even in the Justice Department.
    Chairwoman Mikulski. Senator Shelby, why don't we, then, 
continue this with the Inspector General? And----
    Senator Shelby. We will.
    Chairwoman Mikulski [continuing]. Given the fact that 
there's an 11:30 vote----
    Senator Shelby. Okay.
    Chairwoman Mikulski [continuing]. We want to be sure 
members have a chance to----
    Senator Shelby. Thank you for your time.
    Chairwoman Mikulski [continuing]. Answer their questions. 
No, and not to stifle--this is really crucial----
    Senator Shelby. It is.
    Chairwoman Mikulski [continuing]. And we acknowledge the 
essential nature of this conversation. And we'll, hopefully----
    Senator Shelby. Sure.
    Chairwoman Mikulski [continuing]. Be able to squeeze in the 
Inspector General.
    Senator Collins.
    Senator Collins. Thank you.

                            GRANTING ASYLUM

    Mr. Attorney General, I mentioned, in my opening remarks, 
that the Department of Justice, along with the Department of 
Homeland Security, plays a critical role in reviewing claims 
for asylum. I believe that this system is seriously broken. It 
has allowed individuals to remain in this country under grants 
of asylum who never should have been allowed to remain here. 
And yet, it takes too long to adjudicate the legitimate cases 
of asylum-seekers, thus delaying their ability to work and 
support their families, and imposing a huge burden on 
communities' general assistance funds while these asylum-
seekers are waiting for their cases to be adjudicated.
    I'd like to give you an example of both, and then get your 
response and find out what you're doing with the Department of 
Homeland Security to improve the system.
    Later this month, as we who live in New England are 
particularly aware, it will be 1 year since the terrorist 
attacks at the Boston Marathon. The circumstances under which 
the perpetrators of the Boston Marathon bombing came to be in 
the United States underscores the need for reform of our asylum 
process. The younger of the two Tsarnaev brothers came to the 
U.S. on a tourist visa in 2002, and was granted asylum on his 
father's petition shortly thereafter. Now, asylum is supposed 
to be available only to those who can show a credible fear of 
persecution in their home country. Yet, the elder Tsarnaev came 
to the United States, leaving behind his wife and three other 
children in the country that he claimed to fear. So, it's 
difficult for me to understand how he possibly could have met 
the burden of proving a credible fear of persecution by the 
country in which he left his wife and remaining children.
    Even more troubling are the questions surrounding the grant 
of asylum to Ibragim Todashev. That is the Chechen immigrant 
who was killed while being questioned by the FBI agents and 
local law enforcement regarding his association with the 
Tsarnaevs and also a triple homicide. It turns out that he came 
to the U.S. in 2008 on a J-1 visa to participate in an exchange 
program that was sponsored by an entity in my State, the 
Council on International Education Exchange. And that is a J-1 
visa sponsor organization.
    Now, from the start, it appears that Todashev had no 
intention of complying with the J-1 visa rules. And indeed, 
shortly after he arrived, the Council withdrew their 
sponsorship of him because he failed to provide the required 
documentation with respect to employment. That very day, the 
Council in Maine instructed him to make immediate plans to 
leave the country, recorded the information on the Federal 
database that is used. And yet, despite this agency doing 
everything correct, and despite the fact that Mr. Todashev was 
out of compliance with the requirements of his visa, he was 
later granted asylum and even a green card. This shocked the 
entity in Maine that reported him from being out of compliance 
with the visa years ago.
    I find this very troubling. How is that a young man from 
Chechnya comes to the United States to participate in a 
cultural exchange program, immediately violates the conditions 
of his visa, is told to leave the country, and then is granted 
asylum? That, to me, shows there's a real problem with sharing 
of information and with the system.
    Now, on the other side, we have the problem of legitimate 
asylum-seekers, and they have been forced to rely on local 
governments for the money that they need to live on. In Maine, 
for example, the cities of Portland and Lewiston, alone, have 
contributed $10 million from their general assistance programs 
to support nearly 4,000 asylum-seekers and their families over 
the past 2 and a half years while they're awaiting the 
adjudicating of their claims to give them a work authorization.
    So, we've got problems on both ends of the spectrum, which 
suggests to me that the entire system is broken. What is the 
Department of Justice doing to work with the Department of 
Homeland Security to solve these very serious problems?
    Attorney General Holder. Well, the responsibility for the 
immigration system, I think, largely falls into the hands of 
DHS, but that is not to try to shirk the responsibility that 
the Justice Department has. We simply need more immigration 
judges. The number of cases that have been pending has 
continued to increase, an increase of 56 percent since 2009. 
Our budget request will enable EOIR, our EOIR, immigration 
component, to add 35 new immigration judge teams. That would 
increase our capacity to look at these cases, adjudicate them 
in an appropriate way, listen to the evidence, and make 
decisions that are based on the facts as they are actually 
developed. We simply don't have, at this point, the ability to 
do the job in as timely a way as I think we should have that 
ability to do.
    Senator Collins. Well, I support your request for 
additional resources, but, frankly, if those judges aren't 
looking at the databases and aren't looking at the information 
from DHS, consulting with the Department of State on whether 
there should be a credible fear of prosecution, looking at 
whether there are violations of visas, adding more judges won't 
solve the problem. I think we need to do both.
    Thank you, Madam Chairman.
    Chairwoman Mikulski. That was an eye opener. Thank you very 
much. It was very meaty. And it also shows, when we do 
immigration reform, we have to look at these practical 
implementations at the local level. What Maine is paying is 
stunning.
    Senator Shaheen.
    Senator Shaheen. Thank you, Madam Chairman.
    Mr. Attorney General----
    Attorney General Holder. Good morning.
    Senator Shaheen [continuing]. Thank you very much for being 
here.

                   HEROIN AND PRESCRIPTION DRUG ABUSE

    As I'm sure you're aware, what we've seen in New Hampshire 
and northern New England is a real epidemic spread of heroin 
and prescription drug opioid use. And we're seeing that very 
much in New Hampshire over the last 10 years. The number of 
people admitted to State treatment programs has increased 90 
percent for heroin use and 500 percent for prescription drug 
use. And, just in the last year, we've seen double the number 
of deaths from heroin abuse between 2012 and 2013.
    Now, this summer, New Hampshire plans to institute a new 
prescription drug monitoring program in the State because of a 
Department of Justice grant that we have received. And I wonder 
if you could comment on how effective these types of monitoring 
programs have been in other parts of the country, and what 
other Federal resources might be available to help us in the 
States as we try and combat this real epidemic of heroin and 
prescription drug use?
    Attorney General Holder. Well, Senator, I think you're 
correct to point out--and the term that's used, I think, is a 
correct one, there is an epidemic. It is one that we certainly 
see in your State, in that region of the country, but it's 
something that we see nationwide. And I think we have to have a 
balanced approach to dealing with this. There has to be an 
enforcement component. The DEA will lead that. We have an 
increase of more than 320 percent, between 2008 and 2013, in 
the amount of heroin that we have taken from the cartels that 
was meant for our shores.
    But, beyond that, enforcement alone is not enough. We have 
to also make sure that we identify this problem as a public 
health problem. Police officers, doctors, educators. We have to 
come up with treatment programs, prevention programs, and 
educational programs.
    I don't think that we should repeat the mistake, frankly, 
that we made when we dealt with the crack epidemic, where we 
looked at it only as an enforcement issue. There has to be an 
enforcement component, but we have to bring into play all of 
these other resources that we have, including supporting the 
programs that you have described, these monitoring programs. It 
is why I think it is so important that our capacity to aid our 
State and local partners be made whole in our budget. These are 
issues that the Federal Government clearly has an interest in, 
but, on the ground, it's our State and local partners who have 
to do these kinds of things. And I want to have the ability, 
through our grant making ability, to support these efforts.

                            DRUG MONITORING

    Senator Shaheen. Well, thank you. And obviously the Byrne 
Justice grants have been very helpful to us in New Hampshire, 
and there has been a real coordinated effort on the part of law 
enforcement. I would hope that you might consider sending 
someone up from the Justice Department to meet with our local 
law enforcement officials as we try and address this issue, 
because, as you point out, it's going to require a multilevel 
approach to really do something to make a difference as we look 
at how many people are being affected.
    Can you talk a little bit about some of the other efforts 
the Department has undertaken to better integrate these kinds 
of strategies, other than--we know the Byrne grants are very 
helpful, we know that the monitoring programs are another way 
to try and address it. What else is the Department doing that 
can be helpful to States like New Hampshire?
    Attorney General Holder. Well, we certainly have a variety 
of things. I mean, we have a great U.S. Attorney in New 
Hampshire. And so, there is----
    Senator Shaheen. Who's doing a great job, I might add.
    Attorney General Holder [continuing]. And so, there is 
certainly the help that we can give on the enforcement side 
there.
    With regard to grants, I think that's certainly something 
that we want to consider. We have the COPS program, so that we 
have the ability to put more police officers on the ground, 
again, to deal with these kinds of issues. We also want to come 
up, I think, with programs that we work with the Department of 
Health and Human Services, as the Chair had suggested. This has 
to be something that is more than simply a Justice Department 
initiative. And I think that we have the ability now to really 
potentially nip this in the bud. But, I think that we have a 
relatively small window before this potentially gets even more 
out of control than it is.
    And I think, as I said, if we take a balanced approach 
involving agencies beyond the Justice Department making sure 
that we are supportive of our State and local partners, and so 
that we educate, and especially educate young people, about the 
dangers of prescription drug use, opioid use, and the problem 
with heroin use, I think that we can really have a significant 
impact on this problem.
    Senator Shaheen. Thank you.
    Thank you, Madam Chair.
    Chairwoman Mikulski. Senator Shaheen, we thank you for 
raising the issue here. We--also, others have raised it. I hear 
it, too. We've asked the Attorney General to really take the 
lead in interagency, because we've got to go to--starting with 
the prescription drug issue up to this. So, thanks.
    And I say to my members here that, as the Attorney General 
develops a strategy, we can arrange a staff briefing to get 
updates and make sure we put this in.
    Senator Kirk, a well-known anti-gang fighter.

                                 GANGS

    Senator Kirk. I wanted to ask you, Mr. Attorney General, 
about the $18 and a half million that this subcommittee has 
approved to fight gangs of national significance to also 
highlight the work of Anita Alvarez, the State's Attorney for 
Cook County, that took down an entire gang, called the Black 
Souls, at one shot with using resources from your Department. I 
would say that's a very good model that the public can get 
behind, taking out a whole gang. I would say that this was not 
one of the vast gangs--like we have the Gangster Disciples, 
over 18,000 members. There were 23 defendants, in the case of 
the Black Souls arrest in June.

                     GANGS OF NATIONAL SIGNIFICANCE

    I would just highlight that issue as a way of attacking 
this problem. We do have about 253 factions of the GDs in 
Chicagoland. If we can execute the $18-and-a-half-million 
strategy to whack a number of those factions and totally 
eliminate them, that you will have a lot of support from this 
subcommittee.
    Attorney General Holder. Well, I certainly appreciate that, 
Senator. I think you're right to identify that as a challenge 
that we have to meet. You know, Chicago, I think, in some ways, 
gets an unfair rap. This is not a problem that is Chicago only. 
This is a problem that exists throughout the country, this 
problem of gangs. Our Marshal Service plans to hire gang and 
technical operation group investigators in seven regional 
fugitive task forces. And we've begun that process, because we 
understand this is a problem that is really nationwide in 
scope. And the effort that you described, where you take down 
significant numbers of these gang members at one time, can 
really tend to cripple them. And so, we're looking to make 
those kinds of cases.
    We want to be strategic in the way in which we use the 
resources that we have. But, the reality is, unless we get at 
this gang problem, we won't get at what I think is really the 
root of our violence problem in too many of our cities. And, 
you know, as I said, it's just not Chicago, it goes well beyond 
Chicago.
    Senator Kirk. Yes. And----
    Madam Chairwoman.
    Chairwoman Mikulski. And, Senator Kirk, we want to continue 
the effort that you so ably undertook, and keep this going. 
You're onto something big, here, and we think it's crucial.
    Senator Kirk. Thank you.
    Chairwoman Mikulski. Senator Merkley.

                            FINANCIAL FRAUD

    Senator Merkley. Thank you, Madam Chair. And thank you.
    About a year ago, you set off a bit of a firestorm when you 
noted that one of the reasons that certain companies couldn't 
be prosecuted is because of the economic impact of potential 
indictments. And later, you backed off that a little bit. But, 
the general point continues to resonate that there have been a 
host of dramatic activities. It seems like every 3 months, we 
have another major scandal, and these scandals involve 
wrongdoing; and often at the heart of it is criminal 
wrongdoing, but largely the institution ends up paying a fine 
and everyone goes back to business as usual.
    I'm just kind of stunned by the list of things that have 
happened during the time that I've been in the Senate. We have 
offshore tax evasion by international banks, we have the 
manipulation of the LIBOR interest index, we have structured 
mortgage-backed securities that were designed to fail, we have 
foreclosure fraud, including robo-signing. We have the 
laundering, of which, I think, the premier example was Hong 
Kong Shanghai Bank Corporation, of what was estimated to be 
hundreds of billions of dollars, possibly a trillion dollars, 
and there were laundering activities that involved terrorist 
activities, drug rings, they involved transactions, the 
proceeds of transactions with states where we have economic 
sanctions that are very important to our national security, 
like our relationship with Iran, and trying to prevent Iran 
from having a nuclear weapon. We have the manipulation of 
electricity prices in an Enron-style scheme. I mean, it just--
the list goes on.

                         INDICTING CORPORATIONS

    Have we reached a different point now? Have we successfully 
tackled the issue of ``too big to fail'' and its close cousin, 
which is more in your realm, of ``too big to jail''?
    Attorney General Holder. Well, what I'd say is, first, that 
there might have been some misinterpretation, misunderstanding 
about what I said. So, I wouldn't say that I necessarily pulled 
back from what I said in that initial statement. Maybe I 
clarified it. But, let me be very clear. No institution is too 
big, no person is too important, to be held accountable in a 
criminal sense, if that is appropriate.
    And if you look at what we have done, beginning in 2013, 
and look at the guilty pleas we've gotten from financial 
industries--UBS, RBS, SAC Capital, Wegland, a Swiss bank; if 
you look at individuals, we've gotten individuals from 
JPMorgan, Goldman Sachs, Morgan Stanley, Credit Suisse, UBS, 
Rabobank, ICAP, Galleon, SAC, Stanford Financial Group. So, we 
have gotten pleas, both from institutions and from individuals. 
We've also done creative and, I think, appropriate things--
appropriately aggressive things with regard to our use of the 
civil law, as well.
    I am proud of what this Department has done in holding 
accountable people who were partially responsible for the 
mortgage meltdown that led to our financial crisis, and other 
things that we have done in the financial realm. This 
Department's record, under my leadership, will, I think, stand 
the test of time. And I'll compare it to any other Justice 
Department, any other Attorney General, at any other time.
    Senator Merkley. So, you would say there is no hesitation 
to pursue criminal charges because of the potential impact on 
an institution? I mean, Arthur Andersen was the example so 
often put forward. And certainly a large bank falling would 
have big reverberations. We all understand that, and that's 
been the dilemma. But, are you saying, today, that dilemma 
doesn't exist and it's not weighed at all by the Justice 
Department?
    Attorney General Holder. There are factors that we 
considered. There was a process that was begun under a Deputy 
Attorney General named Holder, back in the Clinton 
administration, where we put out a certain number of factors 
that have to be considered before a determination is made about 
when an institution is criminally prosecuted.
    If you go after an organization, and you put that 
organization out of business as a result of the indictment, 
that is something that I think you should appropriately 
consider. There are innocent people who then get punished--
potentially, employees, shareholders. Doesn't mean that you 
shouldn't--you might have to make the determination that 
because the company is a recidivist or the harm is so great 
that that is, in fact, the price that innocent people will have 
to pay.
    But, these are the kinds of things that we have to 
consider. And I think our track record shows that, where we 
have made the determination that people and institutions should 
be held accountable, we have not hesitated in doing so.
    Senator Merkley. Well, I'll close with this. I think what 
really stuck in my mind is that, the same week that the 
settlement came out with HSBC, which, I may be wrong, but I 
don't think involved any individuals being prosecuted--that 
same week, there was a story about a woman whose boyfriend 
stashed his drug money in a coffee can in her attic. And, if I 
recall right, I think she is serving 15 years in prison. And 
so, one involved a few dollars, the other hundreds of billions 
of dollars. And it just seemed like the sort of thing that 
sticks in people's minds as to whether the justice system is 
not weighted heavily in favor of the powerful. And I just want 
to encourage you to do all you can--and I understand that often 
it makes sense when individuals are involved, to go after the 
individuals rather than the institution, for the reasons we're 
discussing. But, it's important to our system in the United 
States that the powerful don't pay a fine while the ordinary 
person goes to prison.
    Attorney General Holder. Senator, you make an excellent 
point----
    Chairwoman Mikulski. Thank you very much. Thank you.
    Attorney General Holder. I was just going to say this. One 
of the reasons why our Smart on Crime initiative has at its 
base the notion that there has to be proportionality in regard 
to how we enforce the criminal law. And so, what I'm trying to 
do is work with Congress so that we put some sense of balance 
back into the system that has gotten a little out of balance. 
But, the concerns that you raise are very legitimate ones.
    Chairwoman Mikulski. Thank you very much, Senator Merkley.
    Senator Murkowski.

                                 DRUGS

    Senator Murkowski. Thank you, Madam Chairman. Madam 
Chairman, you have raised, as well as Senator Shaheen, the 
issue of apparent heroin and what we need to do as we move 
forward. And you've used the terminology that we need to be on 
the edge of our chair when it comes to issues like heroin.
    I would suggest, also--and I present this to you, Mr. 
Attorney General--that we are seeing an increasing level of 
synthetic drugs that are coming into our communities and doing 
great damage. And, of course, the problem is that, as a State, 
you can say that, based on this formulary, this is a drug under 
this schedule, but all these individuals have to do is change 
that formulary, and they evade or avoid those laws. We're 
seeing some really devastating impact in some of our very, very 
remote communities, where the only way to get these drugs is by 
the mail. And the drugs are coming into the community through 
the mail, and----
    Chairwoman Mikulski. Through the Post Office?
    Senator Murkowski. Through the United States Post Office, 
Madam Chairman.
    Attorney General Holder. Yes.
    Senator Murkowski. And it is--it's something that we've 
been trying to work on some issues up north, but, again, we're 
seeing--I don't know whether we call it an epidemic, a crisis, 
but we are being beat on these issues and the impact to our 
communities, again, utilizing legal processes to get these 
drugs in there that are, in many cases, wiping out families. 
So----
    Attorney General Holder. Well, Senator----
    Senator Murkowski [continuing]. We need some assistance, 
here.
    Attorney General Holder. Senator, you've raised something 
that I think is a point that we really need to focus on. And I 
had the same reaction that the Chair did when I first heard 
about this. But, you're right, the Postal Service, the mail, is 
being used to facilitate drug dealing. We need to work with the 
Postal Service to come up with ways in which we get at that 
problem. It is shocking to see the amount of drugs that get 
pumped into communities all around this country through our 
mail system. And we have to deal with that. That's a major 
problem that we have to deal with.
    Senator Murkowski. It is major. We need to be talking 
further about this. I've got some ideas, but we need to get on 
it yesterday.

                     PROSECUTION OF SENATOR STEVENS

    Mr. Attorney General, as you know, I continue to seek 
further answers in the miserable prosecution that brought 
Senator Ted Stevens down. We had the FBI Director, Mr. Comey, 
before the committee last week. He indicated, at that time, to 
me that the FBI agent who had brought about this whole issue, 
that he had been severely disciplined. He--the investigation 
came under scrutiny, he was severely disciplined. He didn't 
indicate what that was. And I think we all know there may be 
varying degrees of--what might be severe discipline to one is a 
slap on the wrist to another. Can you shed any light on the 
status of that individual, whether he's still working for the 
FBI? If so, in what capacity? I have requested from Mr. Comey a 
copy of the report to be submitted here to the subcommittee so 
we can further review it. But, it is important that we 
understand what happened.
    Attorney General Holder. Yes. I'll support that effort to 
make sure that you get that information with regard to the FBI 
agent. There also were two prosecutors, two lawyers, who were 
found to have acted inappropriately. They have been sanctioned. 
They have appealed the penalties that we sought to impose. And 
their appeals are now presently pending before the Merit 
Systems Protection Board. Once that body makes its 
determination, we'd be more than glad to share with you--I 
think that's appropriate--to share with you what the Board 
decides to do with those lawyers. But, we imposed sanctions 
against those lawyers, and that is now--as I said, that has 
been appealed to the MSPB.
    Senator Murkowski. And so, they're still working with the 
FBI?
    Attorney General Holder. I'm talking about the lawyers. The 
lawyers are still at--still at----
    Senator Murkowski. Excuse me. With Department of Justice.
    Attorney General Holder. They're still at the Department, 
yes.
    Senator Murkowski. So, I--again, I would suggest, you know, 
Is this really harsh discipline?
    Let me inquire further in this area. Last year, I 
introduced the Fairness in Disclosure of Evidence Act, and what 
we're attempting to do is ensure that the obligation to 
disclose the exculpatory evidence to Federal defendants, in 
accordance with Brady rules, is uniformly applied across the 
districts. I think we saw, in the Stevens case, that this was 
part of the problem. This bill was endorsed by broad spectrum 
of folks, but, at the end of the day, apparently was 
unacceptable to the Department. And yet, there was no real 
assistance or guidance, in terms of what was not acceptable to 
the Department.
    So, what I would ask of you--I mean, I can keep trying to 
write bills on this. I'm not going to give up. I think that 
this is too important. But, if you would be willing to work 
with us to determine what might be acceptable, in terms of 
those parameters--because, again, I think, when we lack 
uniformity with regards to these--this obligation to disclose 
this evidence, you're going to get outcomes that will not only 
be upsetting, but are difficult, then, to defend from within 
your Department.
    So, if you would give me some assurance that we can be 
working with you to try to better define this, I'd appreciate 
it.
    Attorney General Holder. Well, certainly we want to work 
with you and certainly maybe make available to you, or aware 
of, the training that we do in the Department. There----
    Senator Murkowski. We've been told about the training. But, 
again, you've got--you don't have uniformity across the 
districts. And so, if you're--if you've got training going on 
over here, and you focus in one area, and the application is 
different than we have over there, it doesn't achieve the same 
end result.
    Attorney General Holder. Yes. And that's something we've 
tried to eradicate through this training so that there is one 
person in every office, every U.S. Attorneys' Office--at least 
one--who can be seen as almost an ethics guru, a person to whom 
you can go if you have a question about what materials should 
be turned over. And we also try to make sure that every 
prosecutor understands his or her obligations under what is 
clear Supreme Court law, as defined in Brady and in subsequent 
cases.
    I think that the problems that were identified in the 
Senator Stevens case, and which I think justified my decision 
to dismiss the case, are not typical of what happens with 
Federal prosecutors around this country who, in millions of 
cases, making millions of decisions, are complying with their 
Brady and other ethical obligations.
    And I think there's a danger that we paint with too broad a 
brush the really terrible experience that we had in Stevens, 
and blame other people, other prosecutors who have not done 
anything improper, inappropriately, and they are seen in the 
same light.
    So, I'd be more than glad to work with you and talk to you 
about this issue, and try to come up with a way in which we can 
satisfy you that we are doing a good job. And if there are 
suggestions that you have about ways in which we can do this 
better, I'd be more than glad to sit down and talk to you and 
work with you in that regard.
    Senator Murkowski. Thank you, Madam Chairman.
    Chairwoman Mikulski. Senator Landrieu.
    Senator, before you begin, I want to advise the committee 
that the votes at 11:30 a.m., have been postponed to late this 
afternoon, now pending at approximately 4:30. Who knows.
    Senator Landrieu.

                    SAFETY OF CORRECTIONAL OFFICERS

    Senator Landrieu. Thank you, Attorney General Holder, for 
your service. And thank you, Madam Chair, for your leadership.
    I have three questions. One of them is about the safety of 
our corrections officers in some of our high-security Federal 
prisons. As you know, one of the challenges that the Chairwoman 
of this committee has taken up, and the Nation is focused on, 
is the overcrowding of our prisons, the per-capita--you know, 
the per-capita statistics about the number of people in prison 
in the U.S. We've had discussions about this, this morning. We 
need to change our policies, we need to provide additional 
resources. But, I want to focus specifically on the safety of 
our corrections officers.
    You may be aware that in Louisiana we had one of our 
corrections officers brutally----
    Attorney General Holder. Right.
    Senator Landrieu [continuing]. Brutally beaten and stabbed. 
He, because of the rules of the Department of Justice and the 
staffing requirements, was on a floor, Madam Chair, with 100 
prisoners out of their cells, and there was one security 
officer.

                            PRISON STAFFING

    Now, in the letter that I wrote to you, and you responded, 
one of the responses--part of the response was that you all had 
provided pepper spray for some of these officers. Now, I'm not 
sure how effective pepper spray is going to be, Mr. Secretary, 
in the hands of one officer with 100 prisoners out of their 
cells.
    So, the budget request to help upgrade the security for 
these officers was $79 million. It was not submitted in your 
budget. There are other priorities, I understand. But, did 
you--did this come up to you? Did it come to a lower level of 
decision about the allocation of resources to protect these 
officers that we're asking to do pretty dangerous jobs in 
pretty dangerous situations? And would you reconsider?
    Attorney General Holder. Well, the concerns you've raised 
are very legitimate, Senator. And what we're trying to do is 
work at this from two angles:
    First, to work with the union. We have a different 
relationship with the new leadership of the union, a new 
director of the Bureau of Prisons, and I think we have made 
really substantial progress in that relationship. It is not as 
antagonistic as it once was. And, I think, through that 
relationship and through the interaction that they're going to 
have, I think we'll do better.
    We're also prioritizing the filling of staff positions. The 
fiscal year 2015 request supports the hiring of 4300 new 
officers that were included in our 2014 enacted appropriation. 
We need, simply, more bodies, and that is why we are 
prioritizing filling staff positions, so that we have more 
people there, in addition to whatever else that we're doing 
with the union.
    Senator Landrieu. Okay. Well, I would appreciate your 
continued focus on that. The prison in Pollock is this 
particular situation, but I understand there have been 
literally dozens, if not, you know, hundreds, of incidents of 
attacks against correctional officers. And, while we do want to 
focus on the safety of the prisoners, which is important, as 
well, we really want to focus on the safety of the men and 
women in uniform doing their job to keep order in the prison 
and in our country.

               TRANSITION TECHNICAL ASSISTANCE PROVIDERS

    My second question is about domestic violence. It's 
something that the Chairman and I have supported, and many 
members of this committee, literally for years and years. 
There's some kind of new provision that you all are encouraging 
in the budget called ``transition officers''--I'm sorry, 
``technical assistance providers'' to the domestic violence 
shelters around the country. I've been hearing some complaints 
about that from my network of--that I trust; in and out of 
administrations, Republican and Democrat, they've been very, 
very good to do this work. They're saying that some of these 
transition technical assistance providers come in without a lot 
of knowledge about what's actually happening on the ground in 
our regions and in our cities. I'm encouraged that your budget 
includes 423 million to reinforce efforts to combat domestic 
violence. We rank, Louisiana, one of the top States, 
unfortunately, for domestic violence in the country.
    But, can you comment about this office, this new 
contractual arrangement with technical assistance providers? 
What are they supposed to be doing, and why are they needed?
    Attorney General Holder. Well, I'll be very honest with 
you, I'm not familiar with the complaints that you have raised. 
And perhaps our staffs can get together and we can get some 
more specifics about the complaints that have been raised so 
that we can examine who these people are and what the nature of 
the problems might be.
    We have an Office on Violence Against Women budget request 
of $423 million, and this whole notion of combating domestic 
violence, sexual assaults, and violence against women 
generally, is a priority for this Justice Department, and it 
has been a priority of mine throughout my career. To the extent 
that there are issues in the way in which we are using all--
those resources, I'd----
    Senator Landrieu. Well, I would----
    Attorney General Holder [continuing]. Like to spend some 
more time with you --
    Senator Landrieu [continuing]. Appreciate that, because I 
know it's been a priority, and I want to commend you and the 
President for your emphasis on it. But, that's what worries me, 
when this came up. So, I'll follow----
    And, Ms.--Madam Chairman, I'm just going to submit this 
question to the record.
    The New Orleans Police Department entered into a consent 
decree with your office. There doesn't seem to have--they don't 
have the review that was required yet. My question, in writing, 
What is causing the delay? And what process are you using to 
review the NOPD Justice? And I'll submit that in----

    [Note: See response to Senator Landrieu's question in the 
``Additional Committee Questions'' at the end of the hearing.]

    Attorney General Holder. Okay.
    Senator Landrieu [continuing]. Writing.
    Attorney General Holder. Thank you.
    Chairwoman Mikulski. Senator, that was excellent.
    Senator Boozman, you've been very patient.
    Senator Boozman. Thank you, Madam Chair, as always.
    And thank you for being here.
    I was looking--when you look back 15 years ago, the Bureau 
of Prisons' enacted budget was $3.1 billion. I think this year 
we're asking for--fiscal year is $6.9 billion, which I'm very 
supportive of. Senator Landrieu has outlined some of the 
problems that we have. I've had the opportunity to visit some 
prisons, and see that there are really difficult situations. 
The problem is--right now, it's taking up 25 percent of your 
budget--as opposed to, not too long ago, just 16 percent. So, 
we've got to do something to bend the cost curve.

                              DRUG COURTS

    One of the things that I'm being supportive of, very 
interested in, is drug courts. And a GAO study in 2011 
confirmed that drug courts reduce crime by up to 58 percent. 
The best drug courts cut crime rates in half, return $27 to 
their communities for every $1 invested.
    The other thing is, when people go off to prison, usually 
they're working, and help to support the family----
    Attorney General Holder. Right.
    Senator Boozman [continuing]. So you leave the family 
destitute.
    So, I would really encourage us to look at that. I think 
it's something--to me, it's just a no-brainer. We don't do a 
good job of supporting at the Federal level, our States aren't 
doing a good job of it. We do need to look and make sure that--
I say the good drug courts are returning that----we do need to 
have standards and make sure that they're doing things 
appropriately. But, again, if you could look at that, and I 
know that you are interested in, it's something that we can get 
done.
    The other thing I'm really concerned about as has been 
mentioned on several occasions today, is the prescription drug 
problem. Now, we don't want to put meth on the back burner, 
which it seems to be done a little bit, because, when I talk to 
our sheriffs--though it might not be used as much, it's the 
cause of the violent crime. It's the--when you look at who's in 
prison, you've got all these people using different things, but 
the people that are actually in prison causing violent crimes 
are meth-related. So, there's just something about that drug 
that totally rewires your system.
    But, in regard to the prescription drug problem, I really 
do wish you'd get a task force together. This is something that 
the CDC needs to be involved, the NIH and research, our 
prescribers--there's no good data as to how addictive this 
stuff is. And so, it's being overprescribed. We need to educate 
the prescribers more than we need to educate the individuals 
that are doing it.
    We all have these drug take-back days. You can go into some 
little community, and they have a drug take-back, and there'll 
be pounds and pounds of this stuff that come in. These are the 
good people, that actually go to the trouble to drop it off. As 
I visit with my sheriffs, going to the rehab centers and asking 
them where they're getting it, many of the people that got 
their prescription drug pills through the mail or whatever, it 
was sold to them through senior citizens that are supplementing 
their Social Security. The VA's been terrible about this, and 
they're doing a better job. You know, we're staying after----
    So, I guess what I would really encourage, we really need 
to get all of those groups together. Prescribing is a huge 
issue. We need to get really aggressive. I think that--my 
understanding is that probably the leading cause of accidental 
death in young people now is----
    Attorney General Holder. Drugs.
    Senator Boozman [continuing]. Prescription drugs and 
alcohol. If we had the same sort of casualty rate overseas, 
with young people dying as a result of some sort of situation 
we were in, as far as a war, there would be a tremendous 
uproar.
    But--I've gone on too long, but if you would just consider 
those things, I think we can actually do some good.
    Attorney General Holder. Well, Senator, I actually think 
that you didn't go on too long, because I think what you've 
talked about is extremely important. The use of drug courts is 
extremely important. About a third of our budget now is taken 
up by expenses connected to the Bureau of Prisons. And we 
certainly have to do all that we can to keep people who work in 
our prisons safe. But, if a third of the budget, and 
increasingly more of the budget, is going to the Bureau of 
Prisons, that's fewer prosecutors that we can hire, fewer 
agents who we can put out on the streets. And drug courts are a 
way in which we can handle these kinds of problems in a way 
that's more cost-effective, reduce the prison population, and 
that has all kinds of benefits that flow from it.
    We have focused on heroin here today, but your focus on 
meth is exactly right. This continues to be a problem that is 
directly connected, for whatever reason--pharmacological, I'm 
not sure--with violence. And we cannot lose sight of that 
problem, as well.
    So, the approaches that you are talking about, I think make 
a great deal of sense and are consistent with the approaches 
that we are trying to push as part of the Smart on Crime 
initiative, where we are looking at new, innovative ways--
evidenced-based ways in which we can deal with these issues. 
Strong enforcement--we're not giving up on that at all--but 
also looking at ways in which we deal with these drug problems 
in new ways, through, for instance, as you describe, drug 
courts, which I think have a great record, if done well, of 
turning people around, getting them off their habits, and 
cutting the recidivism rates, which ultimately saves us money.
    Senator Boozman. Thank you, Madam Chair.
    Chairwoman Mikulski. I'm turning to Senator Leahy, who 
spoke to me about the heroin problem and has continued to speak 
in a very forceful way.
    And you can hear where we are here, Mr. Attorney General. 
Senator Boozman has really outlined how, in some ways, the 
Federal Government are enablers, from the Post Office to the 
VA, giving drugs to one group, et cetera. And we've got--this 
is where the Interagency Task Force needs to happen, and I 
think sooner rather than later.
    Senator Leahy, I know you've spoken on this, and, of 
course, you're the chair of our Judiciary Committee. We're 
eager to hear your questions and, again, your----
    Senator Leahy. Well, I----
    Chairwoman Mikulski [continuing]. Expertise in this area.
    Senator Leahy. Madam Chair, I appreciate what you've said 
and what Senator Shaheen said earlier about what I've been 
doing up in Vermont. The Attorney General and I have known each 
other for a long time, long before he was Attorney General. 
We've talked about this a great deal.

                                 DRUGS

    I saw the article, the other day on the front page of the 
Post, about where they've tried to--I guess this was in New 
Jersey--have a program set up so that if somebody is having an 
overdose and one of the people with the person can call for 
medical help without being arrested----
    Attorney General Holder. Right.
    Senator Leahy [continuing]. Themselves. We actually did 
this in a thing called The Place, in Burlington, Vermont, for 7 
or 8 years, back in the late '60s and early '70s, because, as 
chief law enforcement officer of that county, I could put it 
off limits. The police agreed with me on that. Somebody could 
come in, having an overdose, their friends could come in. They 
just had to empty their pockets of any drugs they had, but 
nobody would follow up the record. We had young interns and 
residents at the medical school who volunteered their time to 
be there, one of whom is now a very noted surgeon in this area.
    So, I appreciate what you said. And Senator Shaheen and 
Senator Boozman and I have talked about this before.
    Also, just my--and--well, this is not the issue here 
today--Senator Murkowski talked about the Senator Stevens case. 
Just so it doesn't appear to be partisan, I totally agree with 
her. And you and I discussed that. I applauded your decision to 
dismiss that case. It should not have been handled the way it 
was. And I agree with that.
    On a happier note, when the Justice Department arrested 
Sulaiman Abu Ghaith, Osama bin Laden's son-in-law, you received 
a huge amount of criticism because you had read him his Miranda 
rights and did not bring him straight to Guantanamo so he might 
face a military commission and instead you said that America's 
strong enough, we can use our courts, the best in the world, 
and brought him to New York. And he was convicted--in fact, I'd 
much rather be the prosecutor in that case than the defense 
attorney--and demonstrated that--I think we've had three or 
four convictions in the military tribunals, we've had several 
hundred in our Federal courts. So, thank you for doing that. It 
proved that--proved to the rest of the world, we use our 
system, it works. And you got a good conviction there. So, I 
commend you on that.
    In Burlington, Vermont, we've implemented a community 
impact team approach, law enforcement tools for targeting drug 
traffickers, but also steering addicts to treatment. I would 
urge you and the Department to continue helping local and State 
governments in these kinds of programs.
    Attorney General Holder. Well, that is certainly our 
intention. It is interesting, I'd like to hear more about The 
Place and see how that worked. Those are the kinds of locally 
based, innovative kinds of things that we want to identify. If 
the evidence shows that they are effective, we want to try to 
support it. And that's why I think the grant making function of 
the Justice Department can be so important.
    We are working, as best we can, to deal with this epidemic 
of heroin, the continuing problem of meth. Drugs continue to be 
a problem for this Nation. The connection between drugs and 
violence is inescapable. The number of people who are on drugs 
or have drug-related crimes who are in our prisons is still 
exceedingly high. And no one should take from this Smart on 
Crime initiative any sense that we are retreating from our 
enforcement responsibilities in that regard. All we're trying 
to do is to come up with ways in which we can be more effective 
and ultimately knock down the recidivism rate by dealing with 
people who have drug problems that tend to breed crime.
    Senator Leahy. Well, your excellent U.S. Attorney in 
Vermont, Tris Coffin, has worked with the local and State, and 
that's been very helpful, to have the Justice Department so 
involved.
    I--in that regard, I know the Office of Juvenile Justice 
and Delinquency Prevention, we've mentioned, has indicated an 
intention to change eligibility requirements for grantees on a 
national mentoring program by requiring they have a presence in 
just 30 States rather than the current requirement they serve 
at least 45 States. Obviously, when you're representing the 
second-smallest State in the country, I worry--are you going to 
give priority to national programs that have shown a proven 
capacity?
    Attorney General Holder. Yes, we certainly want to 
support--again, what we want to do is try different things. 
And, for those things that the evidence shows work, we want to 
support those. And, to the extent that you have a concern about 
OJJDP's perhaps pulling back, that's something I'd like to talk 
to you about, or our staffs could talk about, because I don't 
want size to be the prime determinant as to how we are 
apportioning our funds or how we're using our grant making 
capability. We want to make sure that, in large cities and in 
small towns, to the extent that we can, a positive Justice 
Department presence is there.

                           IMMIGRATION COURTS

    Senator Leahy. And lastly, if I just might note, Madam 
Chair, the Nation's immigration courts are understaffed--you've 
got 32 vacancies, nearly half of the 200 immigration judges 
eligible for retirement, pending caseload has grown by 50 
percent. You've requested $17 million to support an additional 
35 immigration judges to help process the backlog of over 
350,000 cases. Is this a priority? Because I really worry that 
we're going to reach such a tipping point that justice will 
just be totally denied.
    Attorney General Holder. Yes. It is a priority. We have 
made a specific request for those 35 immigration judge teams. 
We think that that would have the potential to reduce a 
caseload, I think, of between 20- and 35,000 cases. We have to 
get at the backlog that exists. We can do that, I think, by 
coming up with innovative procedures and processes. But, I 
think, at base, we just simply need more immigration judges, 
and that's why we have included in our fiscal year 2015 request 
those additional funds for those additional teams.
    Senator Leahy. Thank you very much.
    Thank you, Madam Chair.
    Chairwoman Mikulski. And, Senator Leahy, we're sharing with 
the Attorney General your idea on how to look at cops on the 
beat involved in heroin, as well as the interagency.
    Senator Graham.
    Senator Graham. Thank you, Madam Chairman.

                            SEX TRAFFICKING

    My Reserve unit last night got a briefing from the FBI 
about 69 task forces that are dealing with crimes of sex 
trafficking, exploitation of young women, in particular. And I 
was just really impressed with what I saw. So, I want to come 
visit and see how can we maximize that. I think the committee 
would be astonished as to what's going on out there. At least I 
was, I'll just speak for myself. And I just want to commend you 
on that program.

                        EFFECTS OF SEQUESTRATION

    So, tell us, if you could--in 2016, sequestration kicks 
back in. Could you walk through, fairly quickly, what does it 
mean to your Department, future Attorney Generals, to be able 
to protect this Nation if sequestration is fully implemented, 
going forward?
    Attorney General Holder. I can tell you that it will have a 
devastating impact, as it did over the course of the last 
couple of years. Since I put into effect a hiring freeze, I 
guess 3 years or so ago, we lost about 4,000 people, in total, 
in the Justice Department--about 1,470 attorneys and support 
staff, 900 attorneys and support staff. We lost 6 percent of 
the roughly 10,000 lawyers in the Department. The FBI lost over 
900 agents, analysts, and other staff. DEA lost 700; ATF, 500; 
United States Marshals, 300.
    Those are pretty daunting numbers, and you can't expect the 
Justice Department to do the job that the American people want 
us to do, and that we want to do, if we are faced with that 
kind of issue again.
    I would not wish this upon any of my successors.
    Senator Graham. And it gets worse over time, right?
    Attorney General Holder. Absolutely. We have in place now a 
budget for the next 2 years that will, I think, help us make up 
some of the lost ground. But, unless we have, in 2016, a 
realistic budget that deals with the need--we can't have 
another flat budget, and we certainly can't go to 
sequestration--unless we have a budget that increases the 
amount of money that goes to the Justice Department, we're 
going to find ourselves in the same place. And, at the end of 
the day, it's going to have at some point, an effect on 
performance. It simply will.
    Senator Graham. We'll be less safe as a Nation?
    Attorney General Holder. I think that's absolutely right.

                               TERRORISM

    Senator Graham. Do you agree with me that we're still 
involved in a war against radical Islam, for lack of a better 
definition?
    Attorney General Holder. For lack of a better definition, I 
would agree with that, yes.
    Senator Graham. Okay. And homegrown terrorism is a threat 
that we have to deal with now? It's probably growing.
    Attorney General Holder. Absolutely, and it's----
    Senator Graham. So, our----
    Attorney General Holder. It is growing. That is the one 
that keeps me up at night.
    Senator Graham. Yes. Rightly so.
    Cyber attacks on this country, we're going to have to get 
ahead of that. A lot of infrastructure to be built. Do you 
agree?
    Attorney General Holder. Yes.
    Senator Graham. So, the threats we face are growing, and 
our budgets are shrinking?
    Attorney General Holder. That's right.
    Senator Graham. Who would have thought of that? The 
Congress. Okay? Not you. So, I hope the Congress will rethink 
this and we can, in bipartisan fashion, give some relief to 
sequestration, where Republicans give, Democrats give, and we 
replace it with something that will make sure the country's 
safe.
    Now, back to my favorite topic, how to defend America 
that's at war. I've always told you that I agree that Article 
III courts have a very viable role in the war on terror. And 
you've told me that you believe there's a place for military 
commissions. Are we still on the same sheet of music?
    Attorney General Holder. Agreed, yes.
    Senator Graham. Okay. Do you agree with me that enemy 
combatant status being conferred on a potential terrorist 
suspect is still lawful in this country, and we can hold 
somebody as an enemy combatant if they meet the criteria?
    Attorney General Holder. If they meet the criteria, yes, 
there is a legal basis to do that.
    Senator Graham. Okay. Do you agree with me that 
intelligence-gathering is very important when it comes to 
stopping potential attacks against the country?
    Attorney General Holder. I totally agree with that, and 
we've done so in the use of our Article III system, gathered 
intelligence from people before we have prosecuted them.
    Senator Graham. Okay. Now, how long have we held people at 
Guantanamo Bay as enemy combatants? Isn't there a group being 
held for years down there?
    Attorney General Holder. Yes, I think there are people 
there for----
    Senator Graham. Yes.
    Attorney General Holder [continuing]. There 10, 11, 12 
years.
    Senator Graham. So, this idea that bin Laden--we caught him 
because of waterboarding. People say that's not true. And I'm 
in that camp. I think we were able to catch bin Laden because 
we gathered intelligence over a long period of time from people 
held at Guantanamo Bay, and we put the puzzle together. Do you 
think that's a fair statement?
    Attorney General Holder. Yes, I think there were a variety 
of things that led to the death of bin Laden. Some was 
intelligence gathered from people who were detained at 
Guantanamo.
    Senator Graham. And some was outside.
    Attorney General Holder. Some outside.
    Senator Graham. Now, here's what I want to make sure you 
understand. I will support Article III courts, but, Mr. 
Attorney General, you'll never convince me that the criminal 
justice system is the best way to gather intelligence in a war. 
I don't know of any military in the world that uses their 
criminal justice system to gather intelligence from enemy 
combatants. They have a military intelligence-gathering 
process, which is a completely different legal endeavor. Do you 
agree that gathering intelligence is different than 
prosecuting?
    Attorney General Holder. Yes, it is. And it's why the 
process that we have put together involves the use of the HIG--
--
    Senator Graham. The HIG, yes, good system.
    Attorney General Holder. We put the HIG in there, they 
talk----
    Senator Graham. Yes.
    Attorney General Holder [continuing]. To people who we 
capture. We then put in a whole different team that's 
responsible for the trial of the case.
    Senator Graham. Okay. Convictions are great. I'm more 
worried about finding, from that suspect, what the enemy's up 
to. The trial is important. The son-in-law of bin Laden, how 
long was he interrogated before his Miranda rights were read?
    Attorney General Holder. I believe about a week or so. I'm 
not sure about that.
    Senator Graham. I think it's hours, not days.
    Attorney General Holder. All right. Well, I'm not----
    Senator Graham. And here----
    Attorney General Holder [continuing]. I'd have to----
    Senator Graham. Right.
    Attorney General Holder [continuing]. Get you a more----
    Senator Graham. Here's my only point. I think the Article 
III trial was the right venue for him. Here's where we differ. 
If we keep criminalizing the war--when we capture these guys, 
if we don't hold them for a period of time to gather 
intelligence, and put them right into the criminal justice 
system, I believe we're missing great opportunities to find out 
what the enemy's up to, because I personally believe that once 
you Mirandize someone and give them a lawyer, it is much harder 
to gather intelligence than it would be if you let your 
military and CIA officers lawfully--not torture--gather 
intelligence.
    So, I just hope that you'll be sensitive to this, because I 
think we're giving up intelligence-gathering opportunities by 
putting people in court right off the bat. And it makes it more 
likely we get attacked if we go down criminalizing the war. 
That's just my two cents' worth.
    Attorney General Holder. Well, I think our experience has 
shown--and I think, in some ways, it's surprising--that once we 
come into contact with these people, and even after they're 
given their rights, there is still, for whatever reason, a 
desire on their part to talk, and they waive their rights, 
frequently, and speak with us, and we've had, I think, very 
fruitful interactions, where we have gathered usable 
intelligence in the Article III setting. People, I think, tend 
to forget that--I have sent people to the military commissions. 
I think we have to have both. But, I don't think we should shy 
away from using a system that is tried and true----
    Senator Graham. I----
    Attorney General Holder [continuing]. And that I think 
has----
    Senator Graham. I'm way over my time. I couldn't agree----
    Chairwoman Mikulski. You are.
    Senator Graham [continuing]. With you more. I just want to 
make sure that, before we put them in the military commission 
and Article III courts, that we try to gather as much 
intelligence as possible, lawfully, before we try them. That's 
all I'm saying.
    Attorney General Holder. And look--and that's what we try 
to do.
    Chairwoman Mikulski. Mr. Attorney General, we thank you for 
your testimony today. And, as you could see, this is a pretty 
smart, aggressive committee, and--but, most of all, where 
we're--we really want to work across the aisle and, really, 
protecting our people, starting first of all with the 
Constitution. So, we want to protect the Constitution, we want 
to protect the people against all enemies, foreign and 
domestic. And that means the scam and scum who prey on people 
with greed, like mortgage fraud, all the way up to these 
despicable acts of terrorism. You've got a big job, and we wish 
you had a bigger budget, but we're going to take a good look at 
it and see how we can support you.
    Yes.
    Attorney General Holder. I just--maybe I could say just one 
thing, and that is a thank you to this committee and to the 
Chair, as well as Senator Shelby. We had dark days in 2013, and 
the flexibility that you allowed us with regard to moving money 
around meant that people at the Justice Department did not have 
to be furloughed, it meant that people had the basic ability to 
pay mortgages, to keep their kids in school, to buy groceries. 
It allowed the Justice Department to do its job, under very 
trying circumstances. We would not have been able to do that 
without the flexibility that you gave us.
    So, on behalf of the 113,000 men and women of the Justice 
Department, I want to thank you--this committee generally, but 
you two specifically--for that flexibility.
    Chairwoman Mikulski. Well, really, we could not have done 
it had we not worked on a bipartisan partnership and, really, 
with our colleagues in the House, Congressmen Rogers and Lowey. 
But, this is where we're trying to say, we're here--we're all 
in it together. We all take the same oath to the Constitution 
and to protect it. And so, we thank you for that. And you're in 
the front lines, and we're going to worry about the bottom 
lines.
    So, we're going to excuse you now and say that if there are 
questions related to the Attorney General, the record will be 
open, and we----
    Senator Shelby. Madam Chair.
    Chairwoman Mikulski [continuing]. Ask them to respond in 30 
days.
    We're going to go to the Inspector General now.
    Senator Shelby.
    Senator Shelby. Madam Chair, I have several questions for 
the record for the Attorney General, but I'm sure others do, 
too.
    Chairwoman Mikulski. Yes. So, the Senator's right will be 
protected, as are others.
    We're really doing these 60 hearings in 6 weeks, so there 
are many who wanted to come, but couldn't. So, there'll be 
additional questions.
    Thank you very much, Mr.----
    Attorney General Holder. Thank you.
    Chairwoman Mikulski [continuing]. Attorney General.
    So, we now call upon the Inspector General, Michael 
Horowitz.
    Mr. Horowitz, we're glad to see you, and we're glad a 
changing in the vote schedule allows us to take your testimony 
in person. Both Senator Shelby and I are vigorous supporters of 
the Inspector General system, and we look forward to your 
testimony and your advocacy here.
    Please proceed, sir.
STATEMENT OF HON. MICHAEL E. HOROWITZ, INSPECTOR 
            GENERAL
    Mr. Horowitz. Thank you, Madam Chairwoman and Ranking 
Member Shelby, members of the subcommittee. Thank you for 
inviting me to testify today, and for your continued strong 
support of our work.
    It would be hard for me to overstate the importance of 
having an appropriated budget this fiscal year that we can plan 
around and that will enable us to rebuild our staff, which 
shrunk by nearly 10 percent over the past 2 years. Moreover, 
removing furlough and shutdown threats provides a much-deserved 
boost to the morale of our staff, which has steadfastly 
performed at an extraordinarily high level over the past 2 
years.
    Since my appearance before you last June, our office has 
issued numerous reports that have important implications for 
the Department's budget and that promote transparency and 
increased efficiency. Just last month, for example, we reported 
on the Department's efforts to address mortgage fraud, we 
examined the operations of the Organized Crime Drug Enforcement 
Task Force Fusion Center, we audited the FBI's management of 
Terrorist Watch List nominations, and we reported on the 
Federal Bureau of Prisons' efforts to improve acquisitions 
through strategic sourcing, and we continue to conduct 
extensive oversight of the Department's cyber security efforts 
and its national security initiatives.
    For example, we are reviewing the FBI's implementation of 
its next-generation cyber initiative, as well as the FBI's 
regional computer forensic laboratories. We are reviewing, with 
three other inspector generals, the U.S. Government's handling 
and sharing of intelligence information leading up to the 
Boston Marathon bombing. We also continue our efforts to ensure 
that allegations from whistleblowers are reported, 
investigated, and handled appropriately.
    I'm proud that our efforts were recently recognized with 
certification from the Office of Special Counsel. We will 
continue to foster an open and effective environment for 
whistleblowers to come forward with information about waste, 
fraud, abuse, and misconduct.
    Late last year, in our Annual Top Management Challenges 
Report, we identified six areas where the Department is facing 
major challenges: addressing the crisis in the Federal prison 
system, protecting taxpayer funds from mismanagement and 
misuse, enhancing cyber security, safeguarding national 
security consistent with civil rights and civil liberties, 
ensuring effective and efficient law enforcement, and restoring 
confidence in the integrity, fairness, and accountability of 
the Department. I'd like to highlight the first two of those 
areas today.
    The crisis in the Federal prison system continues today. 
During my testimony before this subcommittee last year, I 
discussed at length two interrelated crises in the Federal 
prison system. The first is that costs continue to consume an 
ever-larger share of the Department's budget, with no evidence 
that the cost curve has been broken. For example, the BOP's 
budget continues to increase over the last 2 years at an even 
faster rate than the Department's budget. Moreover, while the 
number of Department employees has decreased since fiscal year 
2012, the number of BOP employees has increased during that 
same time. As a result, one out of every three Department 
employees now works for the BOP. In the past year, the 
Department has announced several new initiatives to address 
this challenge, but much will depend on the success of their 
implementation, which we will, of course, monitor.
    In connection with this challenge, the Department must 
consider its growing number of elderly inmates. From fiscal 
year 2010 to fiscal year 2013, the population of BOP inmates 
over age 65 increased by 31 percent, while the population of 
inmates 30 or younger decreased by 12 percent. This demographic 
trend has significant budgetary implications, because older 
inmates have higher healthcare costs and are more expensive to 
incarcerate. The OIG is currently conducting a review in this 
important area.
    The other half of the prison crisis, which was discussed 
earlier today, is ensuring the safety and security of staff and 
inmates in overcrowded Federal prisons. Despite having a nearly 
$7 billion budget as of November 2013, the BOP was operating 
its facilities at approximately 36 percent over rated capacity. 
Moreover, the BOP's inmate-to-staff--inmate-to-correctional-
officer ratio has remained at approximately 10 to 1 for more 
than a decade. In comparison, in 2005 the five largest State 
correctional systems had no more than an inmate-to-correctional 
ratio of over 6 to 1. Thus, not only must the Department 
evaluate the BOP's cost structure, it must also find ways to 
address capacity and staffing challenges.
    Avoiding wasteful and ineffective spending is another 
fundamental responsibility of Federal agencies in any budgetary 
environment, but it's particularly important in the current 
climate. In 2013, the OIG reports identified more than $35 
million in questioned costs and more than $4 million in 
taxpayer funds that could have been put to better use. The 
Department must remain vigilant on the monies it gives to third 
parties, whether contractors or grants, and make sure that they 
demonstrate that the money--the value that's being received is 
worth the money that's being given out.
    Let me turn briefly now to two areas of our effectiveness 
that I'd like to address. Providing strong and independent 
oversight of the IG's--of the ability of the IG to oversee the 
Department is critical. For any oversight agency to be 
conducted effectively, we must have complete and timely access 
to all records in our agency's possession that we deem relevant 
to our ongoing reviews. This is the principle Congress codified 
in Section 6 of the IG Act. Most of our audits and reviews are 
conducted with full and complete cooperation from the 
Department. However, there have been occasions when our office 
has had issues arise with timely access to certain records due 
to the Department's view that access was limited by other laws. 
Ultimately, in each instance, the Attorney General or the 
Deputy Attorney General provided the OIG with permission to 
receive the materials, and they have made it clear they will 
continue to do so, as necessary, going forward.
    However, requiring an Inspector General to request and 
receive permission from Department leadership in order to 
review critical documents impairs our independence and can 
delay our work unnecessarily. Stated simply, under the 
Inspector General Act, an Inspector General should be given 
prompt access to all relevant documents within the possession 
of the agency it is overseeing.
    Let me turn briefly to an issue, finally, that was 
discussed during my testimony before you last June. Unlike 
Inspectors General throughout the Federal Government, our 
office does not have the authority to investigate alleged 
misconduct by lawyers in the Department. In those instances, 
the Inspector General Act grants exclusive investigative 
authority to the Department's Office of Professional 
Responsibility. My office has long questioned the distinction 
between the treatment of agents who engage in alleged 
misconduct and those of Department attorneys. Last month, the 
independent, nonpartisan Project on Government Oversight issued 
a report that was critical of the OPR's lack of transparency, 
and recommended that Congress empower our office to investigate 
misconduct by DOJ attorneys.

                           PREPARED STATEMENT

    Our office's statutory and operational independence from 
the Department ensures the integrity of our investigations and 
that they occur through a transparent and publicly accountable 
process. Giving the OIG the ability to exercise jurisdiction on 
all attorney misconduct cases, just as it does in matters 
involving non-attorneys, would enhance the public's confidence 
in the outcomes of these important investigations and provide 
our office with the same authority as every other Inspector 
General.
    Thank you again. I look forward to working with the 
subcommittee, and I look forward to answering your questions.
    [The statement follows:]
             Prepared Statement of Hon. Michael E. Horowitz
    Chairwoman Mikulski, Senator Shelby, and members of the 
subcommittee:
    Thank you for inviting me to testify at today's hearing on the 
Department of Justice's (Department or DOJ) fiscal year 2015 budget 
request. At the outset, I want to thank the subcommittee for its 
continued strong support of our work. Perhaps the biggest challenge I 
have had in my 2 years as Inspector General has been trying to manage 
the staffing and budget for our 400-plus person agency as we faced, 
seemingly every few months, another budget crisis, with ever-present 
threats of furloughs and shutdowns. It would be hard for me to 
overstate the importance of having an appropriated budget for this 
current fiscal year that we can now plan around. Our current budget 
will enable us to rebuild our staff, which has shrunk by nearly 10 
percent over the past 2 years, thereby enhancing our ability to conduct 
oversight of the Department. Our fiscal year 2015 budget request is 
relatively straightforward--we are seeking funding at our current base 
level of $86.4 million, plus $2.2 million in adjustments to base to 
cover, for example, rent increases and other inflationary costs.
    Having a budget, and removing the furlough and shutdown threats, 
also provides a much-deserved boost to morale among Office of the 
Inspector General (OIG) employees, who have remained admirably 
dedicated to the office's mission despite the significant budget 
uncertainty of the past few years. As we prepare later this month to 
mark the 25th anniversary of our office's creation in April 1989, I am 
confident that we are an organization capable of conducting the high 
quality, independent oversight that Congress mandated so many years 
ago.
    In my testimony today, I would like to highlight some examples of 
our recent and ongoing oversight work, discuss two significant 
challenges facing the Department that will impact its fiscal year 2015 
budget, and briefly comment on two legislative initiatives that I 
believe would materially enhance the OIG's ability to conduct timely 
and independent oversight.
        recent doj oig oversight of the department's operations
    Our office has issued numerous reports since my appearance before 
the subcommittee last June that have important implications for the 
Department's budget, and that promote transparency, increase 
efficiency, and enhance our national security. The findings from four 
reports that we issued in just the last month exemplify these results. 
First, our audit of the Department's efforts to address mortgage fraud 
identified examples of DOJ-led efforts to prioritize the investigation 
and prosecution of mortgage fraud cases, but also found that, despite 
having been appropriated significant funding for the purpose, DOJ and 
the Federal Bureau of Investigation (FBI) did not uniformly ensure that 
mortgage fraud was prioritized at a level commensurate with its public 
statements. The OIG also found significant deficiencies in DOJ's and 
the FBI's ability to report accurately on its mortgage fraud efforts. 
Second, our report examining the operations of the Organized Crime Drug 
Enforcement Task Forces (OCDETF) Fusion Center (OFC) found deficiencies 
in the OFC's operations that could limit its contribution to the OCDETF 
Program's effectiveness in dismantling significant drug trafficking and 
money laundering organizations. We also found that OFC management took 
actions during our review that created difficulties for the OIG in 
obtaining information from OFC employees, and that there were 
reasonable grounds to believe that two OFC employees who met with us to 
describe concerns they had about the OFC's operations were subsequently 
subjected to adverse retaliatory personnel actions. Third, our follow-
up report on the FBI's management of terrorist watchlist nominations 
found that the FBI's time requirements for the submission of watchlist 
actions could be strengthened and identified weaknesses in the database 
used by the FBI to submit, monitor, and track non-investigative subject 
nominations. Finally, our report on the Federal Bureau of Prisons' 
(BOP) efforts to improve acquisition through strategic sourcing found 
that while the BOP had established national contracts and blanket 
purchase agreements, it had not established a program to implement and 
oversee the General Services Administration's (GSA) Federal Strategic 
Sourcing Initiative or other Federal strategic sourcing initiatives, 
and thus may be missing an opportunity for greater cost savings.
    Reviews completed at the end of the last fiscal year were similarly 
important. In September, we issued a report on the Bureau of Alcohol, 
Tobacco, Firearms and Explosives' (ATF) income-generating undercover 
operations in which we found that ATF did not properly authorize, 
manage, or monitor these investigations, misused their proceeds, and 
failed to properly account for 2.1 million cartons of cigarettes that 
were associated with these investigations, the retail value of which 
was more than $127 million. Also in September, we issued an interim 
report on the Department's use and support of unmanned aircraft systems 
(UAS), often referred to as ``drones,'' in which we found that the 
technological capabilities of drones--such as their ability to fly for 
extended periods of time and maneuver effectively yet covertly around 
residences--and the current, uncoordinated approach of Department 
components to using UAS may merit the Department developing consistent 
UAS policies to guide their use. Notably, that report also found that 
two of the Department's grantmaking components had failed to require 
award recipients to report specific data necessary to measure the 
success of UAS testing, or to share the results of their programs with 
the Department.
    In addition, we continue to conduct extensive oversight of the 
Department's efforts to combat significant crime issues, such as cyber 
security, and its national security initiatives. For example, we have 
initiated a review of the FBI's implementation of its Next Generation 
Cyber Initiative and a review of the FBI's Regional Computer Forensic 
Laboratories, among two of the Department's most important efforts to 
respond to the serious, rapidly evolving threat posed by cyber 
criminals. On national security issues, we are reviewing, with three 
other Inspectors General, the U.S. Government's handling of 
intelligence information leading up to the Boston Marathon bombings. 
This review is examining the information available to the U.S. 
Government before the bombings and the information-sharing protocols 
and procedures followed between and among the intelligence and law 
enforcement agencies. We also are continuing our reviews of the FBI's 
use of National Security Letters (NSL), requests for business records 
under Section 215 of the Foreign Intelligence Surveillance Act (FISA), 
the Department's use of pen register and trap-and-trace devices under 
FISA, and the Department's use of the material witness warrant statute, 
18 U.S.C. Sec. 3144. We are also continuing our review of the Federal 
Witness Security Program and will evaluate the Department's progress in 
implementing corrective measures in response to the recommendations 
contained in the interim report, which we discussed during my 
appearance before the subcommittee last June.
    In addition, our Investigations Division's case load continues 
unabated: during fiscal year 2013, it received more than 12,000 
complaints, had dozens of arrests and convictions resulting from 
corruption and fraud cases, and investigated allegations that resulted 
in more than 250 administrative actions against Department employees.
    Finally, before turning to our assessment of the challenges facing 
the Department, I would like to give you a brief update on our efforts 
to ensure that allegations against whistleblowers are reported, 
investigated, and handled appropriately. Among other initiatives, last 
year we developed an education program on whistleblower rights and 
protections for our employees, posted informational posters at our 
offices, and created a section our public Web site containing 
information about whistleblower rights for employees throughout the 
Department. I am proud to report that we were recognized for our 
efforts last year with certification from the Office of Special Counsel 
under 5 USC Sec. 2302(c). Additionally, we continue to lead a working 
group of Federal Whistleblower Ombudspersons that we helped launch 
through the Council of Inspectors General on Integrity and Efficiency 
(CIGIE). I will continue to increase awareness among my staff and 
provide the training and reporting mechanisms necessary to foster an 
open and effective environment for whistleblowers to come forward with 
information about waste, fraud, abuse, and misconduct within the 
Department.
               future work and top challenges facing doj
    Let me turn now to the issues that we feel represent significant 
challenges facing the Department of Justice in 2014, and will impact 
its budget in the coming fiscal year.
    In December 2013, we identified the following six major challenges 
for the Department:

  --Addressing the Crisis in the Federal Prison System;
  --Safeguarding National Security Consistent with Civil Rights and 
        Liberties;
  --Protecting Taxpayer Funds from Mismanagement and Misuse;
  --Enhancing Cybersecurity;
  --Ensuring Effective and Efficient Law Enforcement; and
  --Restoring Confidence in the Integrity, Fairness, and Accountability 
        of the DOJ.

    I would like to highlight for the subcommittee two challenges with 
potentially significant impacts on the Department's budget, and on its 
operational efficiency and effectiveness. A detailed discussion of our 
assessment of each challenge is available on in the ``Top Challenges'' 
section of our Web site, http://www.justice.gov/oig.
The Crisis in the Federal Prison System Continues
    During my testimony before the subcommittee last year, I discussed 
at great length the two interrelated crises the Department is facing 
regarding the Federal prison system. The costs of the Federal prison 
system continue to escalate, consuming an ever-larger share of the 
Department's budget. In an era of flat budgets, the continued growth of 
the prison system budget poses a threat to the Department's other 
critical programs--including those designed to protect national 
security, enforce criminal laws, and defend civil rights. Second, 
Federal prisons are facing a number of important safety and security 
issues, including, most significantly, that they have been overcrowded 
for years. Meeting this challenge will require a coordinated, 
Department-wide approach in which all relevant Department components 
participate in helping to reduce the costs and crowding in our prison 
system.
    The Department's leadership has acknowledged that rising prison 
costs threaten the Department's ability to fulfill its mission in other 
areas. Yet the costs of the Federal prison system continue to grow, 
with no evidence that the cost curve has been broken. For example, even 
though the Department's discretionary budget increased slightly from 
fiscal year 2012 to fiscal year 2014, the BOP's budget once again 
increased at an even faster rate, resulting in the BOP's share of the 
Department's budget continuing to grow. Moreover, while the number of 
Department employees has actually decreased since fiscal year 2012, the 
number of BOP employees has increased during that same time. As a 
result, the BOP now has over 38,000 employees, or approximately one-
third (33 percent) of all the employees at the Department.
    To its credit, in the past year the Department has announced 
several new initiatives to address this issue, such as an initiative to 
limit the number of defendants charged under statutes carrying 
mandatory minimum sentences, and the Smart on Crime initiative, which 
sets out five principles designed to identify reforms to enforce 
Federal laws more fairly and efficiently. Efforts to better align the 
investigative and prosecutive policies that drive incarceration costs 
with the Department's current budget situation represent important 
steps toward addressing rising Federal prison costs, but much will 
depend on the success of their implementation.
    The Department must also ensure that it is identifying and 
addressing the growing challenges that will affect the Federal prison 
budget in coming years. One ongoing challenge is BOP's management of 
its private prison contracts, which is the subject of an ongoing OIG 
review. Another such challenge is the increasing number of elderly 
inmates. From fiscal year 2010 to fiscal year 2013, the population of 
inmates over the age of 65 in BOP-managed facilities increased by 31 
percent, from 2,708 to 3,555, while the population of inmates 30 or 
younger decreased by 12 percent, from 40,570 to 35,783. This 
demographic trend has significant budgetary implications for the 
Department because older inmates have higher medical costs. The 
National Institute of Corrections has estimated that elderly inmates 
are roughly two to three times more expensive to incarcerate than their 
younger counterparts. For example, according to BOP data, in fiscal 
year 2011, the average cost of incarcerating a prisoner in a BOP 
medical referral center was $57,962 compared with $28,893 for an inmate 
in the general population. Moreover, inmate health services costs are 
rising: BOP data shows that the cost for providing health services to 
inmates increased from $677 million in fiscal year 2006 to $947 million 
in fiscal year 2011, a 40 percent increase. The OIG is currently 
reviewing the trends in the BOP's aging inmate population, the impact 
of incarcerating a growing population of aging inmates, the effect of 
aging inmates on the BOP's incarceration costs, and the recidivism rate 
of inmates age 50 and older who were recently released.
    Managing the cost of the Federal prison system is just part of the 
Department's challenge; it must also ensure the safety of staff and 
inmates in Federal prison and detention facilities. This task has been 
made exponentially harder by the prolonged, system-wide overcrowding in 
BOP's correctional facilities: as of November 2013, the BOP was 
operating with its facilities at approximately 36 percent over rated 
capacity, with medium security facilities operating at approximately 45 
percent over rated capacity and high security facilities operating at 
approximately 51 percent over rated capacity.
    The growth of the inmate population, along with the Department's 
tightened budget situation in recent years, has prevented the BOP from 
reducing its inmate-to-correctional officer ratio, which has remained 
at approximately 10-to-1 for more than a decade. In comparison, the 
Congressional Research Service reported that among the five largest 
State correctional systems in 2005--California, Texas, New York, 
Florida, and Georgia--the highest ratio of inmates to correctional 
officers was just over 6-to-1. And importantly, overcrowding at BOP 
institutions is not just a problem for the BOP; it also has a 
significant impact on the U.S. Marshals Service (USMS), which is 
responsible for housing pre-trial detainees and is projected to detain 
an average of 62,131 individuals per day in fiscal year 2014, a 15-
percent increase since fiscal year 2004. The USMS estimates that the 
BOP will only be able to house approximately 18 percent of USMS 
detainees, meaning that the USMS must pay to house the remainder--an 
average of about 50,000 detainees per day--in approximately 1,100 
State, local, or private facilities.
    There are several other important safety and security issues at 
Federal prison and detention facilities that the OIG is monitoring 
carefully. For example, the Prison Rape Elimination Act of 2003 (PREA) 
expanded the Department's responsibility to prevent the sexual abuse of 
inmates in BOP facilities and detainees in the custody of the USMS. The 
OIG's agents have long been involved in leading investigations of staff 
on inmate sexual misconduct, resulting in numerous criminal convictions 
and administrative actions by the BOP and the USMS. PREA also required 
the Department to issue national standards for preventing, detecting, 
reducing, and punishing sexual abuse in prison, which it did in May 
2012. With national standards in place, the Department must ensure that 
those standards are being met, which will require careful oversight of 
BOP, USMS, and Federal contract facilities, including residential 
reentry centers, and an extensive program for compliance auditing. The 
OIG intends to monitor the Department's efforts to ensure that the 
national standards are met.
DOJ Must Continue its Efforts to Protect Taxpayer Funds from 
        Mismanagement and Misuse
    Avoiding wasteful and ineffective spending is a fundamental 
responsibility of Federal agencies in any budgetary environment, but in 
the current climate of budget constraints the Department needs to take 
particular care to ensure that it is operating as efficiently and 
effectively as possible. The OIG's recent oversight work has 
demonstrated the challenges facing the Department. In fiscal year 2013 
alone, the OIG's reports, including those related to audits performed 
by independent auditors pursuant to the Single Audit Act, identified 
more than $35 million in questioned costs and more than $4 million in 
taxpayer funds that could be put to better use.
    The Department must remain particularly vigilant when taxpayer 
funds are distributed to third parties, such as grantees and 
contractors. In part due to the sheer volume of money and the large 
number of recipients involved, grant funds present a particular risk 
for mismanagement and misuse: according to the USASpending.gov Web 
site, from fiscal year 2009 through fiscal year 2013 the Department 
awarded approximately $17 billion in grants to thousands of 
governmental and non-governmental recipients.
    These risks were evident in a recent OIG audit which questioned 
nearly all of the more than $23 million in grant funds awarded by the 
Department to Big Brothers Big Sisters of America (BBBSA), which 
resulted in the Department's Office of Justice Programs (OJP) deciding 
to freeze the disbursement of all grant funds to BBBSA. Even so, it is 
my understanding that BBBSA subsequently submitted an application to 
the Department of Labor for grant funds and was awarded a grant 
totaling $5 million. This situation demonstrates the importance of 
ensuring that there is appropriate information sharing between grant-
making agencies across the Federal Government.
    The Department has reported taking important steps toward improving 
its management of this vast and diverse grantmaking effort. For 
example, the Associate Attorney General's Office established a Grants 
Management Challenges Workgroup that is responsible for developing 
consistent practices and procedures in a wide variety of grant 
administration and management areas. In January 2012, the Department 
issued policy and procedures the workgroup developed to implement the 
Department-wide high risk grantee designation program, which allows the 
Department to place additional restrictions on the use of funds it 
provides to grantees who, for example, are deemed financially unstable 
or have failed to conform to the terms and conditions of previous 
awards. The Department should continue to be aggressive in identifying 
high risk grantees and placing appropriate restrictions on their 
funds--or halting their funding altogether. It should also use the 
other tools at its disposal to mitigate the risk of releasing funds to 
grantees, such as ensuring that grantees have adequate accounting 
procedures in place to track their use of Department funds and actively 
seeking suspension and debarment of grantees in appropriate cases, 
especially where doing so will help to protect grant funds administered 
by other Federal agencies.
           strengthening the independent oversight of the doj
    Providing strong and effective independent oversight over agency 
operations is at the core of any OIG's mission. The taxpayers rightly 
expect much from Inspectors General, and it is important that we have 
the necessary tools to allow us to conduct our significant oversight 
responsibilities. The Inspector General Act provides us with many of 
those tools. However, there are several areas where our ability to 
conduct effective and independent oversight can be strengthened. I 
would like to highlight for you today two such areas that directly 
affect the work of the DOJ OIG.
Access to Documents Relevant to OIG Reviews
    For any OIG to conduct effective oversight, it must have complete 
and timely access to all records in the agency's possession that the 
OIG deems relevant to its review. This is the principle codified in 
Section 6(a) of the Inspector General Act, which authorizes Inspectors 
General ``to have access to all records, reports, audits, reviews, 
documents, papers, recommendations or other material available to the 
applicable establishment which relate to programs and operations with 
respect to which that Inspector General has responsibilities under this 
Act.'' This principle is both simple and important, because refusing, 
restricting, or delaying an OIG's access to documents may lead to 
incomplete, inaccurate, or significantly delayed findings or 
recommendations, which in turn may prevent the agency from correcting 
serious problems in a timely manner.
    Most of our audits and reviews are conducted with full and complete 
cooperation from Department components and with timely production of 
material. However, there have been occasions when our office has had 
issues arise with timely access to certain records due to the 
Department's view that access was limited by other laws. For example, 
issues arose in the course of our review of Operation Fast and Furious 
regarding access to grand jury and wiretap information that was 
directly relevant to our review. Similar issues arose during our 
ongoing review of the Department's use of Material Witness Warrants. 
Ultimately, in each instance, the Attorney General or the Deputy 
Attorney General provided the OIG with permission to receive the 
materials because they concluded that the two reviews were of 
assistance to them. The Attorney General and Deputy Attorney General 
have also made it clear that they will continue to provide the OIG with 
the necessary authorizations to enable us to obtain records in future 
reviews, which we of course appreciate. However, requiring an Inspector 
General to rely on permission from Department leadership in order to 
review critical documents in the Department's possession impairs the 
Inspector General's independence and conflicts with the core principles 
of the Inspector General Act.
    We have had similar issues raised regarding our access to some 
other categories of documents. And I understand from the Inspector 
General for the Peace Corps that her office has had a similar issue 
regarding access to records within her agency. Although our office has 
not yet had an instance where materials were ultimately withheld from 
us that were necessary to complete a review, we remain concerned about 
the legal questions that have been raised and the potential impact of 
these issues on our future reviews. Moreover, issues such as these 
have, at times, significantly delayed our access to documents, thereby 
substantially impacting the time required to complete the reviews.
    My view, and I believe the view of my colleagues in the Inspector 
General community, is straightforward and follows from what is 
explicitly stated in the Inspector General Act: an Inspector General 
should be given prompt access to all relevant documents within the 
possession of the agency it is overseeing. For a review to be truly 
independent, an Inspector General should not be required to obtain the 
permission or authorization of the leadership of the agency in order to 
gain access to certain agency records, and the determination about what 
records are relevant and necessary to a review should be made by the 
Inspector General and not by the component head or agency leadership. 
Such complete access to information is a cornerstone of effective 
independent oversight.
Limitations on the DOJ OIG's Jurisdiction
    Let me briefly turn to an issue that was discussed during my 
testimony last June before this subcommittee, which is an oversight 
limitation that is unique to my office: unlike Inspectors General 
throughout the Federal Government, our office does not have authority 
to investigate all allegations of misconduct within the agency we 
oversee. While we have jurisdiction to review alleged misconduct by 
non-lawyers in the Department, under Section 8E of the Inspector 
General Act, we do not have the same jurisdiction over alleged 
misconduct committed by Department attorneys when they act in their 
capacity as lawyers--namely, when they are litigating, investigating, 
or providing legal advice. In those instances, the Inspector General 
Act grants exclusive investigative authority to the Department's Office 
of Professional Responsibility (OPR). As a result, these types of 
misconduct allegations against Department lawyers, including those that 
may be made against the most senior Department lawyers (including those 
in leadership positions) are handled differently than misconduct 
allegations made against law enforcement agents or other Department 
employees.
    My office has long questioned this distinction between the 
treatment of misconduct by attorneys acting in their legal capacity and 
misconduct by other Department employees. Such a system cannot help but 
have a detrimental effect on the public's confidence in the 
Department's ability to review misconduct by its own attorneys. In 
recent months, others have expressed a similar concern. For example, 
the independent, non-partisan Project on Government Oversight (POGO) 
issued a report last month that was critical of OPR's longstanding lack 
of transparency and recommended empowering our office to investigate 
misconduct by DOJ attorneys. And I would like to thank Senator 
Murkowski for co-sponsoring S.2127, a bipartisan bill that would amend 
the Inspector General Act to enable our office to investigate 
allegations of attorney misconduct.
    The jurisdictional limitation on our office is a vestige of the 
fact that OPR preexisted the creation by Congress in 1988 of the DOJ 
OIG, resulting in the statutory carve-out on our jurisdiction. The 
Department has consistently taken the position that because OPR has 
specialized expertise in examining professional conduct issues 
involving Department lawyers, OPR should handle professional misconduct 
allegations against Department attorneys. Whatever merit such an 
argument may have had in 1988 when the OIG was established by Congress, 
it is surely outdated.
    Over the past 25 years, our Office has shown itself to be capable 
of fair and independent oversight of the Department, including 
investigating misconduct allegations against its law enforcement 
agents. Indeed, a similar argument was made many years ago by those who 
tried to forestall our Office's oversight of alleged misconduct by FBI 
agents. This argument against Inspector General oversight of the FBI 
was rejected, and we have demonstrated through the numerous 
investigations and reviews involving Department law enforcement matters 
since then, including our Operation Fast and Furious review, that our 
office has the means and expertise to handle the most sophisticated 
legal and factual issues thoroughly, effectively, fairly, and 
independently. Moreover, Inspectors General across the Federal 
Government have the authority to handle misconduct allegations against 
lawyers acting as such within their agencies, and they have 
demonstrated that they are fully capable of dealing with such matters. 
Seen in this context, the carve-out for OPR from our Office's oversight 
jurisdiction is best understood as an unnecessary historical artifact.
    Eliminating the jurisdictional exception for OPR in the Inspector 
General Act would ensure the ability of our Office to fully review and, 
when appropriate, investigate allegations of misconduct of all 
Department employees. Moreover, even with such a jurisdiction change, 
the Department's OPR would almost certainly remain in place to handle 
``routine'' misconduct allegations that do not require independent 
outside review by an OIG, much as the internal affairs offices at the 
FBI and the Department's other law enforcement components remain in 
place today even though the OIG's jurisdiction was expanded years ago 
to include those components. The current system with the law 
enforcement components works well, particularly given the OIG's limited 
resources. Each day, the OIG reviews new allegations of misconduct 
involving law enforcement personnel and determines which ones warrant 
investigation by an independent OIG, such as those that involve high-
level personnel, those that involve potential crimes and other serious 
misconduct, and those that involve significant issues related to 
conduct by management. Those that we determine do not meet these 
standards are returned to the law enforcement component's internal 
affairs unit for handling, although the OIG frequently requires the 
internal affairs unit to report back to the OIG on the outcome of its 
investigation or review.
    Our Office's statutory and operational independence from the 
Department ensures that our investigations of alleged misconduct by 
Department employees occur through a transparent and publicly 
accountable process. Unlike the head of OPR, who is appointed by the 
Attorney General and can be removed by the Attorney General, the 
Inspector General is a Senate confirmed appointee who can only be 
removed by the President after notification to Congress, and the 
Inspector General has reporting obligations to both the Attorney 
General and Congress.
    Giving the OIG the ability to exercise jurisdiction in all attorney 
misconduct cases, just as it does in matters involving non-attorneys 
throughout the Department, would enhance the public's confidence in the 
outcomes of these important investigations and provide our office with 
the same authority as other Inspectors General.
                               conclusion
    Due in large part to the continued support of this subcommittee, 
fiscal year 2013 represented a strong and productive year for the OIG, 
which we are continuing in fiscal year 2014. I look forward to working 
closely with this subcommittee to ensure that our office can continue 
its vigorous oversight through fiscal year 2015 and beyond.
    This concludes my prepared statement. I would be pleased to answer 
any questions that you may have.

    Chairwoman Mikulski. Thank you, Mr. Horowitz. You and your 
team do such a great job.
    And, tell me, how many employees do you have?
    Mr. Horowitz. We have on board now about 405, roughly.
    Chairwoman Mikulski. And what is your budget?
    Mr. Horowitz. $86.4 million is our base, and we've asked 
for that for the next fiscal year, plus 2.2 million in 
enhancements.
    Chairwoman Mikulski. So, it would be 2.2 million more.
    Mr. Horowitz. Correct.
    Chairwoman Mikulski. Is that correct? Well, we ask you to 
do a very important job overseeing $37 billion.

                      CYBER SECURITY IMPROVEMENTS

    I know Senator Shelby will be raising questions about 
access to records. I want to welcome your insights on prison 
reform, but I'm going to go to cyber security. It's an area of 
keen interest with me----
    Mr. Horowitz. Yes.
    Chairwoman Mikulski [continuing]. And have been an 
advocate. And one of the things I fear is techno-boondoggles.
    Mr. Horowitz. Right.
    Chairwoman Mikulski. You know, we go through the FBI case 
file thing. Now, we understand the FBI--excuse me, the fiscal 
'15 budget request from Justice is 722 million. They're 
actually decreasing it, though the threat is increasing. You 
note that--you cite 130 open recommendations for improving the 
security of the Department's own IT system. Could you comment 
on what you think are--where you think appropriate in an open 
and public session, so we don't tip any bad guys, here----
    Mr. Horowitz. Right.
    Chairwoman Mikulski [continuing]. What you think they need 
to do to improve their cyber security. And do you think it's 
money, do you think it's management, or do you think it's a 
government wide problem?
    Mr. Horowitz. Our----
    Chairwoman Mikulski. I have my own views. I would like to 
hear yours, sir.
    Mr. Horowitz. Yes. Our 130 recommendations come from our 
FISMA audits, which are obviously marked sensitive, given the 
nature of the information, but generally they have involved the 
handling of configurations of systems and account management of 
those systems, as well. We've made a number of very specific 
requests, and have outlined the issues that I think need to be 
addressed. I think, generally, it is a function of both the 
needs--additional needs, potentially, for the systems, as well 
as the possibility of the requirement for additional personnel. 
We, ourselves, for example, are struggling with both of those 
issues, as well, in a tightening budget environment, making 
sure we've got the right IT people, as well as enough funding 
for the right systems. And so, that's one of the things I've 
tried to do with our budget this year, is catch up, 
essentially, from where we fell behind over the last 2 years.
    Chairwoman Mikulski. Do you feel that the Justice 
Department is prime time in implementing your recommendations?
    Mr. Horowitz. I think that, in a number of areas, the 
Department needs to do a better job in implementing the 
recommendations we make faster, and going and looking at them 
seriously and taking them seriously. We continue to push on 
that. The Attorney General and the Deputy Attorney General, 
have supported that effort, and we will continue to press on 
that.
    Chairwoman Mikulski. So, you feel you have the support. So, 
again, I'll come back, is it a resource issue? Is it a 
consistent resource issue? Senators Shelby, Graham, others, 
have raised, you know, sequester----
    Mr. Horowitz. Right.
    Chairwoman Mikulski [continuing]. Closed--you know, slam 
down and shut down, furloughs. What's the issue, here? We can't 
hire tech people?
    Mr. Horowitz. I think it's probably a combination of both 
issues that you identified, that the needs continually change, 
they're continually evolving, technology is continually 
evolving, the threats are continually evolving; and that's one 
of the reasons, frankly, we've undertaken the next cyber 
initiative review, because Congress has given a substantial 
amount of money to the Department to undertake that effort, and 
that is a very significant part of the Department's budget and 
a critical part of dealing with threats, going forward.
    Chairwoman Mikulski. Well, thank you.
    We could ask more, but I'm going to turn to Senator Shelby, 
here.
    Senator Shelby. Thank you.
    Thank you, Mr. Inspector General. We appreciate the work 
you're doing, your dedication. And, as the Chairman said, we 
want to make sure you have the tools to do your job, because 
the Inspector General, whether it's in the Justice Department, 
whether it's in the Pentagon, or whether the--we created that 
position for a reason----
    Mr. Horowitz. Right.
    Senator Shelby [continuing]. And so forth. You know this 
well.

                        INSPECTOR GENERAL ACCESS

    Do you believe that you, the Inspector General of the 
Department of Justice, should have to seek approval of the 
Attorney General to access grand jury documents, or any 
documents, relevant to ongoing investigations?
    Mr. Horowitz. I don't, Senator. It's inconsistent, in my 
view, with the----
    Senator Shelby. With your mandate, is it?
    Mr. Horowitz. Correct. And the--with the Inspector 
General----
    Senator Shelby. Because, even though it's the Justice 
Department, but it could be any Department----
    Mr. Horowitz. Right.
    Senator Shelby [continuing]. If you have to go to the head 
of the Department, the Secretary----
    Mr. Horowitz. Right.
    Senator Shelby [continuing]. For example, a Cabinet-level 
position, to approve what you're seeking, it seems that could 
be, under dire circumstances, an impediment to doing your job.
    Mr. Horowitz. Well, and ultimately--that's correct--and 
ultimately, the letters that we've gotten from the Attorney 
General or the Deputy Attorney General----
    Senator Shelby. Yes.
    Mr. Horowitz [continuing]. Giving us access have focused on 
a finding that the review was important to their oversight of 
the Department. The Act sets it up such a way that the 
oversight decisions, I think, should be made by Inspectors 
General, not by the Secretaries or Cabinet hats.
    Senator Shelby. Have you been, basically--have you had 
unfettered access to relevant documents?
    Mr. Horowitz. In--with regard to certain records, we have 
only gotten them after the Attorney General----
    Senator Shelby. Right.
    Mr. Horowitz [continuing]. Or the Deputy General have made 
a determination----
    Senator Shelby. After you had to jump through a lot of 
hoops, right?
    Mr. Horowitz. After we had to get a letter from them to the 
component, informing them that they had the permission to give 
us the documents.
    Senator Shelby. Do you know if your fellow Inspector 
Generals, say, at the Department of State or Pentagon or 
Agriculture or, you name it--Commerce--do they have to jump 
through these hoops to do that?
    Mr. Horowitz. Well, I understand that there's one Inspector 
General at the Peace Corps, for example, who has tried to get 
records to do the oversight I think Congress expected in 
connection with sexual attacks on volunteers oversees, that has 
an opinion from her general counsel indicating that the IG Act 
does not give her authority to look at those records.

                           AUTONOMY OF OFFICE

    Senator Shelby. Have you thought about whether or not 
perhaps we need to address this legislatively, to be direct on 
this to Secretaries and--Attorney General, whoever--that they 
must furnish unfettered access to documents? Otherwise, you 
can't do your job.
    Mr. Horowitz. I think it's critical that Inspectors General 
have that ability to make the decision for themselves, and 
legislation obviously would clear it up entirely, and it's a 
relatively small fix, understanding legislation is always 
difficult to get enacted.
    Senator Shelby. Well, it might not be that hard to get 
enacted, when the Chair of an Appropriations Committee--who 
knows. But, I think that we need to make sure, under all 
circumstances, that you and your fellow Inspector Generals have 
unfettered access to documents that could root out wrongdoing 
in any Department.
    Mr. Horowitz. I couldn't agree more, Senator. And, I think, 
ultimately, that what's set up now is--Who should make that 
decision? Should it be the Inspector General who decides what's 
relevant----
    Senator Shelby. No.
    Mr. Horowitz [continuing]. And what's needed?
    Senator Shelby. I think you're put there to do that job, in 
your sworn oath to do that job.
    Thank you, Madam Chair.
    Chairwoman Mikulski. We believe the Inspector Generals--
this is a bipartisan----
    Mr. Horowitz. Right.
    Chairwoman Mikulski [continuing]. Approach that--should 
have access to the information, compliant with existing law. 
There are certain rules and so on. I'm not a lawyer. But, you 
know, there's legal compliance and there's access. So, that's 
one thing.
    Second thing, I am familiar with this--or becoming familiar 
with this Peace Corps situation. A young lady, who was a Peace 
Corps volunteer, saw another Peace Corps volunteer allegedly 
sexually assault, reported it, and then the Peace Corps server 
who reported it was murdered. Well--this is big.
    So, we want to maintain the integrity of the Inspector 
General process. We believe in the Inspector General process. 
Government should be never so big or so insulated or so 
isolated that it does not have an independent Senate-confirmed 
institution to red-team their work for waste, fraud, or other 
forms of mismanagement. So, we look forward to working with you 
on this.
    And, Mr. Inspector General, you come with an extensive 
background in sentencing, incarceration, and so on. You 
actually were head of the Sentencing Commission.
    Mr. Horowitz. I was a member of the Sentencing----
    Chairwoman Mikulski. Yes, sir. So, you come with, actually, 
hands-on experience. And you've seen the good and bad and ugly.
    Mr. Horowitz. Yes.
    Chairwoman Mikulski. So, we really welcome your insight on 
how we can reduce the prison population without increasing the 
risk to our communities. And also, the thoughts on how we can 
look out for the safety of our prison guard population, where 
they, themselves, don't feel that they're captive by the 
prisoners.
    You bring up a compassionate situation, the over 65. We 
welcome your insights. I think evidence shows that, if you 
committed murder, you're not likely to commit murder after 65. 
But, if you're a sexual predator, you'll be--you could be out 
in that playground once again.
    Mr. Horowitz. Right.
    Chairwoman Mikulski. So, we welcome your insights on how we 
can work constructively, evidence-based conceptual thinking, 
and your own experience, because you--you bring the experience 
of longitude from, really, enforcement to sentencing, and now 
the Inspector General. We're--we really appreciate your 
service.
    So, I'm going to ask the staff, on both sides of the aisle, 
because this has been raised----
    Mr. Horowitz. Yes.
    Chairwoman Mikulski [continuing]. By other members, so this 
is not a party thing----
    Mr. Horowitz. Right.
    Chairwoman Mikulski [continuing]. This is a committee 
thing--to meet with our staff on how we can implement, working 
with the Attorney General, prison reform. We also want to work 
with you--Senator Shelby and I--for you to get the access to 
the information that you need.
    Mr. Horowitz. Thank you.
    Chairwoman Mikulski. So, we're going to possibly be having 
votes soon, so--we could talk with you all day, but we're going 
to thank you for your service, look forward to these reports, 
ask staff to work hands-on----
    Mr. Horowitz. Absolutely.
    Chairwoman Mikulski [continuing]. With you, and look 
forward to bringing about some much needed reform.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairwoman Mikulski. If there's no further questions--
Senators may submit additional questions--this committee stands 
in recess to the call of the Chair.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted to Hon. Eric H. Holder, Jr.
           Questions Submitted by Senator Barbara A. Mikulski
                        stopping child predators
    Question. What was the level of funding for each component agency 
handling Adam Walsh Act efforts at the Department in fiscal year 2013 
and what is the level in fiscal year 2014? How does the Department 
coordinate efforts?
    Lead-in information from original document.--
          The National Center for Missing and Exploited Children 
        (NCMEC) estimates there are over 100,000 non-compliant sex 
        offenders at-large in the United States. The Adam Walsh Child 
        Protection and Safety Act of 2006 (Public Law 109-248) gave the 
        U.S. Marshals Service the authority to treat convicted sex 
        offenders as fugitives if they fail to register, as well as to 
        assist jurisdictions to locate and apprehend these individuals.

    Answer. The Department received a total of $186.5 million in fiscal 
year 2013 and $200.2 million in fiscal year 2014 for Adam Walsh Act 
(AWA) programs. The funding levels in thousands of dollars by component 
are as follows:

------------------------------------------------------------------------
                                                Fiscal year  Fiscal year
                   Component                        2013         2014
                                                  funding      funding
------------------------------------------------------------------------
Bureau of Prisons.............................        9,741        9,838
Criminal Division.............................        4,389        4,639
INTERPOL, Washington..........................        1,490        1,924
Office of Justice Programs....................       54,386       57,730
Office on Violence Against Women..............       22,281       27,000
United States Attorneys.......................       40,757       43,660
United States Marshals Service................       52,429       55,425
                                               -------------------------
      Total, Adam Walsh Act Resources.........      186,473      200,226
------------------------------------------------------------------------

    The primary vehicle for coordination of the AWA enforcement is the 
Sex Offender Sentencing, Monitoring, Apprehending, Registering, and 
Tracking (SMART) Office, which is part of the Office of Justice 
Programs and was authorized by the Adam Walsh Child Protection and 
Safety Act of 2006. The United States Marshals Service (USMS) Sex 
Offender Investigations Branch (SOIB) and National Sex Offender 
Targeting Center (NSOTC) work in conjunction with SMART to assist at 
all levels of domestic, international, military, and tribal law 
enforcement to identify, locate, and prosecute non-compliant sex 
offenders. In addition, USMS Sex Offender Investigations Coordinators 
(SOIC) coordinate sex offender enforcement with all necessary law 
enforcement partners in their districts, including Assistant U.S. 
Attorneys, registering agencies, local law enforcement, U.S. Probation, 
and local prosecutors.
    Personnel from the USMS and the National Center for Missing and 
Exploited Children (NCMEC) are assigned to the NSOTC, along with an 
agent from the Department of State's Diplomatic Security Service (DSS) 
and two members of the United States Army. The NSOTC has also assigned 
an intelligence analyst to the Customs and Border Protection Targeting 
Center, a Senior Inspector to USNCB-INTERPOL's Human Trafficking and 
Child Protection Division, and a contractor to serve as a liaison with 
the SMART Office. These employees work to track and verify information 
on sex offenders who travel abroad. The NSOTC also meets with the 
Office of Tribal Justice (OTJ) to discuss and coordinate DOJ programs 
and training related to Native American sex offenders.
    In addition, the Bureau of Justice Assistance administers the 
reallocation of funds derived from penalties against Byrne Justice 
Assistance Grant (JAG) awards to States that have not yet substantially 
implemented the requirements of the Sex Offender Registration and 
Notification Act (SORNA). The SMART Office assists interested 
jurisdictions in developing and/or enhancing programs designed to meet 
SORNA implementation requirements.
    Question. In fiscal year 2012, the Marshals Service estimated it 
needed a dedicated force of 500 deputies to fully implement the Adam 
Walsh Act. Have they reached this level yet? If not, why not and when 
will they reach this level?
    Answer. The USMS has an estimated 211 positions (160 operational 
and 51 administrative) and approximately $56 million available to 
support the AWA. With these resources, and with the growing 
partnerships with State, local, and tribal authorities, in fiscal year 
2013, the USMS opened 2,191 criminal investigations for violations of 
18 U.S.C. Sec. 2250. From those investigations, 316 Federal warrants 
were issued and 279 convictions were obtained. Additionally, the USMS 
planned and participated in over 390 sex offender related enforcement 
operations with 1,368 law enforcement agencies, resulting in 39,854 
compliance checks of known registered sex offenders.
    USMS continues to vigorously pursue violators of the AWA to stem 
the violence against children by targeting apprehension of sex 
offenders who prey on children; augment staffing in areas of the 
country with large numbers of non-compliant sex offenders; expand the 
staff at the NSOTC; and provide broader support to States in enforcing 
sex offender registration laws and in prosecuting non-compliant sex 
offenders.
    Question. In December 2012, the Marshals Service received 
administrative subpoena authority for these investigations in the Child 
Protection Act (Public Law 112-206). When were deputies first able to 
start using this authority? How many fugitive sex offenders have been 
arrested due to this authority?
    Answer. Following enactment of this legislation, the USMS formed a 
working group to ensure appropriate implementation of the 
administrative subpoena authority. The USMS realized the critical 
importance of developing clear policy and protocols with sufficient 
controls, oversight, and accountability to address privacy concerns 
with the information collected. The USMS analyzed risks involving 
privacy information and met with stakeholders to craft a policy that 
addressed and resolved several concerns. During this time, the USMS 
reviewed other systems and devised an implementation strategy that 
safeguarded the privacy of information. Because the administrative 
subpoena language limits and restricts its use, the USMS also addressed 
changes to its law enforcement database system to restrict access to 
the collected information.
    As of August 2014, all USMS Sex Offender Investigations Branch 
(SOIB) personnel and full-time Sex Offender Investigations Coordinators 
have been trained on the policy, standard operating procedures and 
updates to the Criminal Case Module in the Justice Detainee Information 
System (JDIS) including administrative subpoena enhancements. The 
enhancements allow the administrative subpoena process to be managed 
entirely within JDIS and allow access to documents and information to 
be restricted to only those with a vested interest in the case. 
Training sessions for district management were provided last October 
2014. This training provided a brief overview of the USMS 
Administrative Subpoena program and a detailed presentation on the 
request and approval process. The USMS/SOIB will continue to provide 
training on administrative subpoenas including programmatic and legal 
updates to USMS investigators during the SOIC Basic Training courses, 
and to district senior management during regional management trainings.
    The widespread use of administrative subpoenas did not begin until 
September 1, 2014. To date, 34 administrative subpoena requests have 
been submitted, of which 31 were approved and served, two were denied, 
and one is currently going through the approval process.
                           human trafficking
    Question. With multiple Justice Department agencies involved in 
fighting human trafficking, how are you coordinating efforts and 
tracking results?
    Lead-in information from original document.--
          Human trafficking crimes involve the act of compelling or 
        coercing a person's labor, services, or commercial sex acts. 
        The coercion can be subtle or overt, or physical or 
        psychological. Trafficking doesn't just mean smuggling people 
        in or out the country as traffickers have demonstrated their 
        ability to exploit other vulnerable populations like runaway 
        children and documented guest workers.
          The Justice Department has multiple agencies working on 
        issues related to human trafficking and in fiscal year 2013, 
        made 161 forced labor and sex trafficking prosecutions, a 25 
        percent increase, and the highest number of human trafficking 
        cases on record. Prosecutions are handled by the U.S. Attorneys 
        Office and Civil Rights Division, grant funding is provided 
        through the Office of Justice Programs and the FBI is the lead 
        investigative agency. For fiscal year 2015, the Department 
        requests $45 million to combat human trafficking across the 
        Department, a decrease of $3 million below fiscal year 2014.

    Answer. As the Department's anti-trafficking enforcement efforts 
continue to grow in scope, complexity, and impact, we are continuing to 
strengthen coordination among the many DOJ components participating in 
these efforts. The Department's Human Trafficking Working Group 
coordinates between and among DOJ components involved in victim 
assistance programs, State and local law enforcement grants and 
technical assistance programs, and Federal law enforcement. The Federal 
Enforcement Working Group coordinates among the Civil Rights Division's 
specialized Human Trafficking Prosecution Unit (HTPU), the Executive 
Office for United States Attorneys (EOUSA), the U.S. Attorneys' Offices 
(USAOs), FBI, and other Federal law enforcement agencies. HTPU and the 
Child Exploitation and Obscenity Section of the Department's Criminal 
Division (CEOS) coordinate extensively on cases and issues that affect 
child sexual exploitation, including sex trafficking of minors, which 
is within the subject matter expertise of CEOS, and international sex 
trafficking, sex trafficking of adults by force, fraud, and coercion, 
and forced labor which is within the subject matter expertise of HTPU. 
The Office of the Deputy Attorney General coordinates among DOJ 
agencies on policy issues, performance data, and interagency matters 
affecting multiple DOJ components.
    Question. How does the Justice Department collaborate with other 
Federal agencies like the Department of Homeland Security and 
Department of Labor? Do agencies regularly share information?
    Lead-in information from original document.--
          Human trafficking crimes involve the act of compelling or 
        coercing a person's labor, services, or commercial sex acts. 
        The coercion can be subtle or overt, or physical or 
        psychological. Trafficking doesn't just mean smuggling people 
        in or out the country as traffickers have demonstrated their 
        ability to exploit other vulnerable populations like runaway 
        children and documented guest workers.
          The Justice Department has multiple agencies working on 
        issues related to human trafficking and in fiscal year 2013, 
        made 161 forced labor and sex trafficking prosecutions, a 25 
        percent increase, and the highest number of human trafficking 
        cases on record. Prosecutions are handled by the U.S. Attorneys 
        Office and Civil Rights Division, grant funding is provided 
        through the Office of Justice Programs and the FBI is the lead 
        investigative agency. For fiscal year 2015, the Department 
        requests $45 million to combat human trafficking across the 
        Department, a decrease of $3 million below fiscal year 2014.

    Answer. Coordination among the Department of Justice (DOJ), 
Department of Homeland Security (DHS) and Department of Labor (DOL) has 
never been stronger. All of these agencies participate in the Federal 
Enforcement Working Group (FEWG), which brings together the National 
Program Managers and subject matter experts from HTPU, EOUSA, FBI Civil 
Rights Unit, DHS--Homeland Security Investigations--Human Smuggling and 
Trafficking Unit, DOL--Wage and Hour Division and DOL-OIG to streamline 
coordination among Federal investigators and Federal prosecutors both 
at the HQ level and at the regional level. Through the efforts of this 
interagency FEWG, in 2011 the Attorney General and Secretaries of 
Homeland Security and Labor jointly developed the Anti-Trafficking 
Coordination Team (ACTeam) Initiative. During Phase I of this 
Initiative, the FEWG conducted a nationwide rigorous, competitive, 
interagency selection process culminating in the launch of six Phase I 
Pilot ACTeams charged with implementing a coordinated interagency 
strategy to advance Federal human trafficking investigations and 
prosecutions. Based on the results of Phase I, the interagency FEWG 
unanimously agreed to initiate Phase II during 2014. In connection with 
this initiative, DOJ, DHS, and DOL jointly developed and delivered an 
intensive week-long Advanced Human Trafficking Training Program for 
interagency teams of Federal investigators and Federal prosecutors.
    In addition, DOJ and DHS collaborate extensively on their U.S.-
Mexico Bilateral Enforcement Initiative which has established 
coordination structures to exchange leads and evidence with Mexican law 
enforcement counterparts to more effectively apprehend traffickers, 
rescue victims, recover victims' children, and dismantle trafficking 
networks operating across the U.S.-Mexico border. DOJ and DOL meet 
regularly to collaborate on cross-training and cross-referral protocols 
to enhance victim identification capacity.
    To strengthen victim services, DOJ, HHS, and DHS co-chaired an 
interagency effort to develop the Federal Strategic Action Plan on 
Services for Victims of Human Trafficking in the United States 2013-
2017. The plan outlines Federal governmentwide goals for short- and 
long-term improvements in identifying and serving victims of human 
trafficking. A draft plan was circulated for informal public comment in 
April 2013 and a series of weekly interagency meetings was held to 
review the comments and improve the plan. The final plan was released 
at a survivor forum in January 2014 and is available at http://
www.ovc.gov/pubs/FederalHuman
TraffickingStrategicPlan.pdf.
    Question. How is the Department addressing sex trafficking on the 
Internet?
    Lead-in information from original document.--
          Human trafficking crimes involve the act of compelling or 
        coercing a person's labor, services, or commercial sex acts. 
        The coercion can be subtle or overt, or physical or 
        psychological. Trafficking doesn't just mean smuggling people 
        in or out the country as traffickers have demonstrated their 
        ability to exploit other vulnerable populations like runaway 
        children and documented guest workers.
          The Justice Department has multiple agencies working on 
        issues related to human trafficking and in fiscal year 2013, 
        made 161 forced labor and sex trafficking prosecutions, a 25 
        percent increase, and the highest number of human trafficking 
        cases on record. Prosecutions are handled by the U.S. Attorneys 
        Office and Civil Rights Division, grant funding is provided 
        through the Office of Justice Programs and the FBI is the lead 
        investigative agency. For fiscal year 2015, the Department 
        requests $45 million to combat human trafficking across the 
        Department, a decrease of $3 million below fiscal year 2014.

    Answer. The Department of Justice shares Congress's concerns about 
sex trafficking on the Internet. The Department has attacked this 
problem with a robust investigative and prosecutorial response, as well 
as through training and outreach. The Criminal Section of the Civil 
Rights Division (CRT) and CRT's Human Trafficking Prosecution Unit 
(HTPU), in collaboration with United States Attorneys' Offices (USAOs) 
nationwide, have principal responsibility for prosecuting human 
trafficking crimes, except for cases involving sex trafficking of 
minors. The Child Exploitation and Obscenity Section of the 
Department's Criminal Division (CEOS) shares responsibility and 
collaborates closely with USAOs nationwide in the investigation and 
prosecution of Federal cases involving child sexual exploitation, 
including the prostitution of children and the extraterritorial sexual 
abuse of children.
    In 2011, the Department expanded Project Safe Childhood (PSC). 
Founded in 2006, PSC had initially focused on the effective prevention, 
investigation, and prosecution of technology-facilitated child sexual 
exploitation crimes. In 2011, the Department broadened the program to 
cover all Federal child sexual exploitation crimes, including the sex 
trafficking of children and child sex tourism. As a result of the 
expansion of PSC, U.S. Attorneys conducted threat assessments of the 
harm posed in their districts by crimes involving the commercial sexual 
exploitation of children, resulting in enhanced ability to develop and 
share expertise on the prevention and prosecution of these crimes. In 
the Department's Strategic Plan for fiscal year 2014-2018, one of the 
four priority goals is to protect vulnerable populations by increasing 
the number of investigations and prosecutions concerning child 
exploitation, human trafficking, and non-compliant sex offenders, and 
by improving programs to prevent victimization, identify victims, and 
provide services. The Department co-led an interagency effort to 
develop the Federal Strategic Action Plan on Services for Victims of 
Human Trafficking in the United States, which is available at http://
www.ovc.gov/pubs/FederalHumanTraffickingStrategicPlan.pdf. This plan is 
intended to improve the response to all victims of trafficking, 
including those whose trafficking was facilitated by the Internet.
    The sections below provide examples of the Department's successful 
prosecutions, ongoing initiatives and partnerships with law enforcement 
agencies, and training and outreach efforts involving sex trafficking 
on the Internet.
1. A. Prosecutions
    United States v. Daniel Burton (D. Md.): In January 2014, Daniel 
Burton, a/k/a Snoop, age 30, of Capitol Heights, Maryland was sentenced 
to 262 months in prison followed by a lifetime term of supervised 
release following his guilty plea to the sex trafficking of a minor. 
According to his plea agreement, in March 2008, Burton recruited a 13-
year-old girl to engage in prostitution for him. Burton drove her to 
hotels, photographed her in lingerie, and advertised her on Craigslist 
for sexual services. The girl had sex with many clients that responded 
to the ads, and Burton kept all the money she earned. Burton provided 
the girl with alcohol, marijuana, and ecstasy. On April 8, 2008, law 
enforcement saw a Craigslist ad for the girl's sexual services and 
arranged a ``date.'' Law enforcement arrived at the hotel and arrested 
Burton, who was sitting outside.
    The case was investigated by the FBI-led Maryland Child 
Exploitation Task Force (MCETF), created to combat child prostitution, 
with members from 10 State and Federal law enforcement agencies. MCETF 
also partners with the Maryland Human Trafficking Task Force, formed in 
2007 to discover and rescue victims of human trafficking while 
identifying and prosecuting offenders.
    United States v. Weylin Rodriguez, et al. (M.D. Fla.): In March 
2013, Weylin Rodriguez received a sentence of life imprisonment 
following his conviction in November 2012 by a Federal jury for sex 
trafficking of three minors and two adults through the use of force, 
fraud, and coercion, as well as firearms offenses. Co-conspirators 
Tatjuana Joye and Pria Gunn pled guilty to one count of conspiracy to 
engage in sex trafficking of minors and by force, fraud and coercion. 
In December 2012, Gunn was sentenced to 46 months incarceration and in 
February 2013, Joye, who cooperated with the Government's 
investigation, was sentenced to time served. Rodriguez ran a 
prostitution ring called ``GMB'' (aka ``Get Money Bitch'') and lured 
several minors and young adults into his ring through a variety of 
means, including promising them jobs as models. Rodriguez advertised 
the victims on backpage.com and also forced the victims to walk the 
streets to pick up ``dates.'' The victims were required to follow 
numerous rules and give all the money from their ``dates'' to 
Rodriguez. To prevent the victims from leaving his ring, Rodriguez 
inflicted severe beatings on them and threatened them with guns.
    The FBI's Tampa, Florida Office, the Orlando Metropolitan Bureau of 
Investigation, and the Orange County (Florida) Sheriff's Office 
investigated the case, with additional investigation conducted by the 
Osceola County (Florida) Sheriff's Office and the Charlotte-Mecklenburg 
Police Department (North Carolina).
1. B. Investigations and Initiatives
    In 2003, the FBI established the Innocence Lost National Initiative 
(ILNI) as a means to combat the increasing frequency of commercial 
sexual exploitation of children through prostitution, much of which is 
initiated online via advertisements. The ILNI is victim centered, and 
is primarily designed to identify and recover children. Over the past 
11 years, the FBI and its partners have developed specific operations 
to target both the supply side (individuals responsible for the 
facilitation of this crime problem) and the demand side (those who pay 
to engage in sex with children).
    Over 2,100 investigations opened since the inception of the ILNI 
have resulted in over 1,450 convictions on Federal, State, and local 
charges, and over 3,100 children recovered and/or identified. The 
youngest victim was 9 years old. Substantial sentences of convicted 
pimps have been obtained, including 13 life sentences and many 
sentences ranging from 25 to 50 years in prison.
    The FBI has partnered with nearly 400 State, local, and Federal 
agencies to form 69 Child Exploitation Task Forces (CETF) throughout 
the United States. FBI field offices focus their resources on criminal 
enterprises engaged in the transportation of juveniles for the purpose 
of prostitution, using intelligence driven investigations and employing 
sophisticated investigative techniques. The FBI uses the Internet as an 
investigative tool to identify online advertisements for prostitution 
involving children located on over 100 Web sites.
    In addition, the FBI has coordinated seven iterations of Operation 
Cross Country (OCC) since June 2008. OCC is a national enforcement 
operation, conducted over 3-to-5-day periods, to combat commercial 
sexual exploitation of children through prostitution in the United 
States. FBI field offices, working with their law enforcement partners, 
participated in the operation by targeting venues such as truck stops, 
motels, and casinos where children are exploited, as well as the 
Internet. Law enforcement officers from over 450 local, State, and 
Federal law enforcement agencies joined together to recover victims and 
apprehend those who have victimized them. As a result of these 
operations, 434 child victims have been safely recovered and 581 pimps 
engaged in the commercial sexual exploitation of children have been 
arrested.
1. C. Training
    The Department has led and participated in numerous training events 
in recent years. CEOS provides advice and training to prosecutors, law 
enforcement personnel and government officials both worldwide and in 
the United States. The FBI also provides training and promotes 
interagency sharing of skills in investigating sexual exploitation 
offenses to develop a nationwide capacity to provide a rapid, 
effective, and measured investigative response to crimes against 
children.
    CEOS attorneys travel all over the world to conduct trainings for 
investigators, law enforcement and others involved in investigations 
and prosecutions of child exploitation offenses, including sex 
trafficking over the Internet. For example, CEOS attorneys participated 
in three separate training conferences in Mexico in 2013, including 
presenting at the Homeland Security Investigations Immigration and 
Customs Enforcement (HSI ICE) Human Trafficking Seminar in August 2013. 
CEOS also consults with numerous foreign delegations in the United 
States to discuss efforts to enhance worldwide efforts against child 
sexual exploitation crimes, including commercial sexual exploitation of 
children.
    Furthermore, in the United States, CEOS conducts trainings and 
participates in coordination meetings with law enforcement and 
prosecutors' offices. The FBI provides training on child exploitation 
investigations as well. Since 2003, the FBI has partnered with NCMEC to 
host Protecting Victims of Child Prostitution training courses. To 
date, over 1,300 law enforcement officers and prosecutors have received 
this training on the comprehensive identification, intervention, and 
investigation of the commercial sexual exploitation of children.
    Question. What is being done to address human trafficking on tribal 
land?
    Lead-in information from original document.--
          Human trafficking crimes involve the act of compelling or 
        coercing a person's labor, services, or commercial sex acts. 
        The coercion can be subtle or overt, or physical or 
        psychological. Trafficking doesn't just mean smuggling people 
        in or out the country as traffickers have demonstrated their 
        ability to exploit other vulnerable populations like runaway 
        children and documented guest workers.
          The Justice Department has multiple agencies working on 
        issues related to human trafficking and in fiscal year 2013, 
        made 161 forced labor and sex trafficking prosecutions, a 25 
        percent increase, and the highest number of human trafficking 
        cases on record. Prosecutions are handled by the U.S. Attorneys 
        Office and Civil Rights Division, grant funding is provided 
        through the Office of Justice Programs and the FBI is the lead 
        investigative agency. For fiscal year 2015, the Department 
        requests $45 million to combat human trafficking across the 
        Department, a decrease of $3 million below fiscal year 2014.

    Answer. The Department of Justice's strong commitment against human 
trafficking is represented in every United States Attorney's Office in 
each district. All USAOs participate in a human trafficking taskforce, 
where Indian country cases are discussed. In particular to Indian 
country, the Executive Office for United States Attorneys recently 
conducted a forensic interviewing class wherein DOJ employees were 
trained to better interview victims of human trafficking (including 
Native victims).
    Additionally, the FBI investigates human trafficking and other 
crimes that occur in Indian country. The FBI is also making a concerted 
effort to increase awareness through training of Federal and tribal law 
enforcement and victim specialists as well as supporting investigations 
as they are identified. The FBI is working to also provide training 
opportunities that highlight victim identification, investigative 
techniques, and available resources.
    From July 8, 2013 through July 12, 2013, the Department's Office on 
Violence Against Women (OVW) conducted a site visit to western North 
Dakota meeting with local law enforcement, tribal leaders, victim 
advocates, the U.S. Attorney for North Dakota, State and tribal 
coalition leaders, and service providers from both North Dakota and 
Montana. OVW is exploring providing funds to law enforcement and victim 
service providers in western North Dakota and eastern Montana to 
address domestic violence, sexual assault, stalking, and trafficking. 
In fiscal year 2012, the Bureau of Justice Assistance (BJA) solicited 
proposals to address the issue of human trafficking in Native American 
communities by developing and providing training to build awareness of 
the existence of human trafficking in Indian Country, and providing law 
enforcement and community stakeholders with the tools necessary to 
begin the process of victim identification, rescue and restoration, 
while providing appropriate consequences for perpetrators in a 
consistently applied manner. BJA received four applications through a 
competitive process and awarded $305,000 to the Upper Midwest Community 
Policing Institute (UMCPI) to develop and pilot the training.
    Since the award to UMCPI was made in September 2013, UMCPI, working 
with BJA, developed curriculums and delivered human trafficking 
trainings to tribal law enforcement. A summary of the curriculums and 
the training sessions is provided below.
Curriculum Development
    The Human Trafficking in Native American Communities curriculum was 
developed by UMCPI, based on recommendations from a focus group of 
subject matter experts that included State, tribal and municipal law 
enforcement personnel, some with expertise in human trafficking; 
Federal officials from the U. S. Attorney's Office--Western Washington 
and Department of Homeland Security; and State Social and Health Indian 
Child services unit. The curriculum provides training for tribal law 
enforcement, tribal leaders and community stakeholders that includes 
components covering: (1) basic understanding of human trafficking; (2) 
outreach to the community, tribal leaders and service providers; (3) 
the development of protocols and policies to increase the community's 
capacity to address human trafficking; and (4) specialized 
investigative and case coordination training for law enforcement.
    Tribal Youth Peer-to-Peer Human Trafficking in Indian Country 
Prevention Curriculum is an interactive, culturally responsive 
curriculum that is to be delivered by persons who currently work with 
Native American youth and who have completed the required train-the-
trainer program, offered by UMCPI. The curriculum is designed to 
provide Native American youth with an understanding of the types of 
human trafficking that can occur; how human trafficking can occur in 
their community and provide them with information to help them identify 
internal and external resources that can serve as protective factors 
against human trafficking crimes.
    UMCPI is also reviewing its other existing human trafficking 
training, to explore how such training may be customized for the Native 
American Community.
Trainings
  --Representatives from law enforcement, tribal council, social 
        services, casino security, wildlife law enforcement, courts, 
        and a gaming regulatory commission attended the Human 
        Trafficking in Native American Communities pilot training.
  --Representatives from education, recreation, tribal wellness 
        organizations and tribal council and a research organization 
        attended two Tribal Youth Peer-to-Peer Human Trafficking in 
        Indian Country Prevention pilot trainings.
Future Trainings
  --Two additional Human Trafficking in Native American Communities 
        pilot trainings are scheduled to be held between August and 
        December 2014.
    BJA is currently working with UMCPI to determine available funding 
for future training classes. Additional information about UMCPI's human 
trafficking training is available at its Web site, http://
www.umcpi.org/Services/NationalInitiatives/HumanTrafficking.aspx.
                              task forces
    Question. How does the Department ensure there is not duplication 
of effort across task forces? How is task force effectiveness measured? 
Which component agencies have the largest number of task forces?
    Lead-in information from original document.--
          The Justice Department has 570 task forces covering areas 
        from terrorism and fugitive apprehension to intellectual 
        property and child recovery. These task forces are comprised of 
        teams of not only Federal law enforcement but State and local 
        police and intelligence agencies working together to identify 
        and respond to crime at the local level.

    Answer. While several DOJ components operate task forces with 
similar missions, each component brings a unique set of experience and 
skills to its investigations. Further, DOJ has several deconfliction 
mechanisms, such as DEA's Special Operations Division (SOD) and the 
Organized Crime Drug Enforcement Task Forces (OCDETF) Fusion Center, to 
ensure that task forces are not conducting investigations of the same 
target. In fiscal year 2012 and fiscal year 2013, the Department 
consolidated or eliminated more than 40 task forces to reduce intra-
agency overlap and ensure efficient task force management. The 
Department recently adopted a mandatory policy regarding the use of 
deconfliction systems in the course of all current and future 
investigative activity, which took effect on May 30, 2014. 
Implementation of this policy will address investigative, target, and 
event data; improve effective coordination and collaboration of 
investigative activity; maximize departmental performance; and most 
importantly ensure officer safety. Regarding effectiveness, each of the 
agencies' task forces have a unique mission, defined goals, and 
individualized performance metrics incorporated into their overall 
agency leadership and culture. DEA operates 250 task forces, including 
its regional task forces, its Tactical Diversion Squads, and High 
Intensity Drug Trafficking Area (HIDTA) task forces. FBI operates 217 
Safe Streets and Safe Trails task forces focused on violent gangs, 
violent crime, and major theft, and the USMS operates 67 fugitive task 
forces, including its 7 Regional Fugitive Task Forces.
    Question. How have cuts by State and local governments to their law 
enforcement agencies impacted these operations? Have there been demands 
for additional task force help in communities or States that have had 
to downsize their public safety budgets? Or has participation in task 
forces declined because States and localities can't spare the personnel 
to participate?
    Answer. DOJ's investigative agencies have seen mixed impacts on 
State and local task force participation. For example, DEA's Tactical 
Diversion Squads have seen a significant increase in participation 
while participation on ATF's task forces and FBI's Joint Terrorism Task 
Forces has remained stable. In some localities, participation is down 
on FBI's criminal task forces while requests for operational assistance 
have increased.
                           assets forfeiture
    Question. What has been shared with State and local partner 
agencies via equitable sharing programs or as part of asset forfeiture 
in fiscal year 2012 and 2013 and what is expected to be shared in 
fiscal year 2014?
    Answer. The Department's Asset Forfeiture Program (AFP) made 
payments of $447.3 million in fiscal year 2012 and $657.2 million in 
fiscal year 2013 to State and local partner agencies through the 
equitable sharing program. In fiscal year 2014, the AFP made equitable 
sharing payments of $425.1 million to State and local partner agencies.
    Additionally, the Department's AFP made available $140.5 million in 
fiscal year 2012 and $154.7 million in fiscal year 2013 and fiscal year 
2014 for expenses incurred by State and local law enforcement officers 
participating in joint law enforcement operations with Federal 
agencies.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                           immigration courts
    Question. What will be the real impact, of an additional 35 
immigration judge teams, to the existing backlog when the staffing 
needs appear to be so dire?
    Lead-in information from original document.--
          I am concerned about the large and expanding docket of our 
        Nation's immigration court system. Between 2009 and 2013, the 
        pending caseload grew 50 percent. The Executive Office for 
        Immigration Review has stated the court system has 32 
        vacancies. To make matters worse, nearly half of the 200 
        immigration judges are eligible for retirement. However, I was 
        encouraged the Department of Justice requested a $17 million to 
        support an additional 35 Immigration Judge teams to help 
        process the backlog of over 350,000 cases.

    Answer. The addition of 35 Immigration Judge Teams will allow 
EOIR's immigration courts to process a greater number of pending cases. 
The number of pending cases over time depends on the volume of existing 
cases, new charging documents filed by DHS, and case completions. EOIRs 
current pending caseload volume in fiscal year 2014 is approximately 
389,000 proceedings. The number of annual completions by an Immigration 
Judge varies according to a number of factors, including the type of 
docket to which the judge is assigned. Taking into account variable 
completion rates among judges, EOIR estimates that 35 additional IJ 
teams will likely complete between 21,000 and 28,000 proceedings 
annually. The effect of this added productivity upon the pending 
caseload or backlog will depend on the number of additional charging 
documents filed by DHS during the same period. Finally, any gains in 
staffing and productivity may be lowered slightly due to normal staff 
attrition.
    Question. What other steps is EOIR taking to promote efficiencies 
to address the immigration court backlog?
    Answer. EOIR continues to work closely with DHS, other government 
agencies, and non-profit organizations to explore ways to promote 
efficiencies to address the immigration courts pending caseload. In 
conjunction with these groups, EOIR has conducted test pilots across 
the country in the areas of non-contested dockets, alternatives-to-
detention, pre-trial conferences, and unaccompanied alien children 
scheduling adjustments to try to streamline immigration proceedings.
    To improve the effective and efficient adjudication of immigration 
removal proceedings for vulnerable populations, such as unaccompanied 
alien children and detained aliens who are deemed mentally incompetent 
to represent themselves in immigration proceedings, EOIR dedicated over 
$3 million in fiscal year 2014 resources to provide legal aid services 
to these populations.
    Additionally, in fiscal year 2014, EOIR dedicated approximately 
$6.6 million for the Legal Orientation Program (LOP), which improves 
efficiencies in immigration court proceedings for detained aliens by 
increasing their awareness of their rights and the overall process. As 
a result of the increased funding provided in fiscal year 2014, EOIR 
expanded the program to provide these services at five additional adult 
facilities and four family detention facilities. Today, the LOP is 
available at 32 sites across the country. Evaluation reports have shown 
that LOP participants complete their immigration court cases in 
detention an average of 12 days faster than detainees who do not 
participate in an LOP, which saves the Government approximately $12.3 
million annually. EOIR has requested another $2.8 million in fiscal 
year 2015 to respond to elevated demand at existing LOP sites and to 
add 12 more sites.
                            forensics reform
    Question. Would you agree that there must be national leadership in 
the area of forensic science, and that the Department of Justice, 
working with the FBI and other elements of the executive branch, can 
play a central role in the development of this important part of our 
criminal justice system?
    Lead-in information from original document.--
          Last month, I introduced a comprehensive bill aimed at 
        strengthening and improving the forensic sciences used in the 
        criminal justice system. I am pleased that Senator Cornyn has 
        joined as a cosponsor of this bill, and hope that we can 
        continue to build support for this bipartisan, commonsense 
        bill. I know that the Department of Justice has been a leader 
        in the forensic sciences, particularly with regard to DNA 
        analysis in their FBI crime labs. But I think you will also 
        agree with me that more work needs to be done.

    Answer. Yes, the Department of Justice (DOJ) agrees that there must 
be national leadership in the area of forensic science. To that end, 
DOJ, in collaboration with the National Institute of Standards and 
Technology, established the National Commission on Forensic Science to 
provide Federal leadership in forensic science while also encouraging 
strong State and local participation. The Commission will have an 
important role in strengthening the validity and reliability of the 
forensic sciences and enhancing quality assurance and quality control. 
Scientifically valid and accurate forensic analysis supports all 
aspects of our justice system.
    Question. Will you commit to working with me on the forensics 
reform bill that I introduced last month?
    Answer. The Department is committed to working closely with you and 
others in Congress to strengthen forensic science. We are grateful for 
your interest in this important issue and will be glad to work with 
Congress on efforts to enhance the validity and reliability of forensic 
sciences.
                              budget cuts
    Question. Can you describe what DOJ programs have faced shrinking 
budgets in recent years and what impact, if any, this threatens to have 
on public safety?
    Lead-in information from original document.--
          In recent years the Bureau of Prisons' budget has expanded at 
        unprecedented levels despite overall funding for the Justice 
        Department remaining relatively stagnant.

    Answer. Since fiscal year 1994, the Federal prison population more 
than doubled, and the detention population more than tripled. As a 
result, the budget for prisons and detention has constituted an 
increasing portion of the Department's total budget. Prisons and 
detention costs increased from 27 percent of DOJ's discretionary budget 
in fiscal year 2000 to 31 percent in fiscal year 2013, leaving less 
funding for other DOJ functions even before sequester. During this same 
period, including grants for State and local law enforcement, funding 
for grants decreased from 26 percent of DOJ's fiscal year 2000 budget 
($4.0 billion) to 8 percent ($2.0 billion) in fiscal year 2013.
    If this trend continues unabated while DOJ's total authority 
remains flat, the discretionary funding available for other DOJ 
activities that protect public safety--including resources for 
investigation, prosecution, prevention, intervention, and assistance to 
State and local law enforcement--will decrease.
    This reality has only served to intensify the need for smarter 
investments to protect public safety. For this reason, on August 12, 
2013, the Attorney General announced his ``Smart on Crime'' initiative, 
which prioritizes prosecutions of the most serious cases, reforms 
sentencing policies to help control Federal prison spending and ensure 
that people convicted of low-level, non-violent drug offenses receive 
appropriate sentences, invests in alternatives to incarceration for 
low-level, non-violent offenders, and improves reentry to curb repeat 
offenses and re-victimization.
                            prisoner reentry
    Question. In furthering its goal of ensuring public safety, what 
has the Department of Justice found to be the most effective tools or 
methods to reducing recidivism rates?
    Lead-in information from original document.--
          Last year, Senator Portman and I introduced the Second Chance 
        Reauthorization Act, which is aimed at improving prisoner 
        reentry.

    Answer. The Department of Justice (DOJ) is committed to fulfilling 
the objectives outlined in the Second Chance Act (SCA). Reentry 
programming provides a major opportunity to reduce recidivism, save 
taxpayer dollars and make our communities safer. One of the primary 
goals of the SCA has been to reduce recidivism by using risk and needs 
assessments to identify returning offenders with moderate- to high-risk 
of returning to prison or jail. Focusing on these moderate- to high-
risk offenders allows agencies to concentrate their resources on those 
offenders with the most significant needs. The Department's Bureau of 
Justice Assistance (BJA) manages the SCA grant programs and believes 
that the most effective tools to prevent recidivism are a set of 
``comprehensive wrap-around services'' based on evidence-based programs 
that meet the identified needs of individual offenders. For example, it 
does little good to find an offender a job if his or her substance 
abuse or mental health problems are barriers to keeping the job. 
Likewise, simply having a place to live may not stabilize an offender 
unless he or she has access to supportive case management services 
designed to help him or her adjust to independent living situations. 
There are no ``silver bullets'' that will magically eradicate 
recidivism; rather, it takes a complete tool box of services to apply 
to each unique situation based on the specific needs of the returning 
offender.
    Bureau of Prisons (BOP) also offers a variety of programs to help 
inmates return to their communities as law-abiding citizens, including 
work, education, vocational training, substance abuse treatment, 
observance of faith and religion, psychological services and 
counseling, and other programs that impart essential life skills.
    To strengthen the focus on its reentry mission, BOP created the 
Reentry Services Division (RSD) in fiscal year 2013. RSD will enhance 
reentry programming and community resource transition, thereby 
decreasing the recidivism rate of released offenders and increasing 
public safety. RSD is comprised of five branches that were previously 
part of the Correctional Programs Division: National Reentry Affairs, 
Chaplaincy Services, Residential Reentry Management, Female Offenders, 
and Psychology Services.

Some of BOP's most successful programs include:

  --Federal Prison Industries (FPI or trade name UNICOR) is one of the 
        BOP's most important correctional programs. Approximately 
        13,000 inmates work in FPI. It has been proven to substantially 
        reduce recidivism. Research has demonstrated that inmates who 
        participate in the FPI are 24 percent less likely to reenter 
        the Federal system than similar non-participating inmates. FPI 
        gives inmates the opportunity to develop marketable work skills 
        and a general work ethic--both of which can lead to viable, 
        sustained employment upon release. This is particularly 
        noteworthy for reentry given the barriers to post-release 
        employment many offenders face. FPI also keeps inmates 
        productively occupied; inmates who participate are 
        substantially less likely to engage in misconduct.
    --FPI inmate employment has significantly decreased in recent 
            years. This decrease is a result of the downturn in the 
            economy, a decrease in supplies needed to support the war 
            effort, as well as legislative changes. Legislation enacted 
            over the past few years (including various provisions in 
            Department of Defense authorization bills and 
            appropriations bills) also have weakened FPI's standing in 
            the Federal procurement process by requiring FPI to compete 
            for the work of Federal agencies in many instances where it 
            was previously treated as a mandatory source of supply.
    --More recently, Congress has enacted legislation to assist in 
            enhancing inmate work opportunities. Staff in BOP's New 
            Business Development Group are dedicated to developing 
            repatriation and Prison Industries Enhancement 
            Certification Program (PIECP) opportunities, and are 
            enthusiastically pursuing many different products and 
            working with a number of different potential partners.
  --Educational programming provides inmates with an opportunity to 
        learn the functional skills that support their reintegration 
        into the community. Inmate education programs include literacy, 
        English-as-a-Second Language (ESL), occupational education, 
        advanced occupational education (AOE), parenting, release 
        preparation courses, and a wide-range of adult continuing, 
        wellness, and structured and unstructured leisure time 
        activities. At the end of fiscal year 2013, 34 percent of the 
        designated inmate population was enrolled in one of more 
        education/recreation program. Empirical research has found that 
        participation in educational programs leads to a 16 percent 
        reduction in recidivism by inmates who participate in these 
        programs.
  --The BOP's substance abuse strategy includes a required drug 
        education course, non-residential drug abuse treatment, 
        residential drug abuse treatment, and community transition 
        treatment. Because certain non-violent offenders who 
        successfully complete all components of this recidivism-
        reducing program are eligible for an incentive of up to 1 year 
        off their sentence, inmates are strongly motivated to 
        participate. Empirical research has shown that inmates who 
        complete the residential drug abuse treatment program are 16 
        percent less likely to recidivate and 15 percent less likely to 
        have a relapse in their substance use disorder use within 3 
        years after release (male inmates).
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
               prosecuting gitmo detainees in u.s. courts
    Question. Now that we have seen that conviction rates have been 
higher in Federal criminal courts than in Military Commissions, aren't 
there some GTMO detainees who we would be better off prosecuting in 
Federal criminal court, especially for conspiracy and material support?
    Answer. The Department has never doubted the ability of the Article 
III court system to administer justice swiftly and effectively in 
terrorism-related prosecutions. Hundreds of terrorism-related cases 
have demonstrated the effectiveness of this approach, including the 
March 2014 conviction by a Federal jury in Manhattan of Sulaiman Abu 
Ghayth, the son-in-law of Usama bin Laden and a senior member of al 
Qaeda, and the May 2014 conviction by a Federal jury in Manhattan of 
Mustafa Kamel Mustafa a/k/a ``Abu Hamza al Masri'', another al Qaeda-
linked figure who, among other things, conspired to establish a 
terrorist training camp here in the United States. The decision of 
whether to prosecute terrorism cases in Article III courts or in 
military commissions must be based on the facts and circumstances and 
our national security interests on a case-by-case basis. As you know, 
however, Section 1034 of the National Defense Authorization Act for 
fiscal year 2014 continues the ban against using Department of Defense 
funds to transfer Guantanamo detainees into the United States for any 
type of trial or any other purpose.
    Question. If GTMO detainees can be held safely and securely before, 
during, and after their trial in Federal criminal courts, when will we 
start bringing GTMO detainees into the United States for prosecution 
again?
    Lead-in information from original document.--
          Like you, I was pleased to see that, last month, a senior al-
        Qaeda figure named Sulaiman Abu Ghayth was convicted in Federal 
        criminal court of all three counts against him, which could 
        bring a sentence of life in prison.
          With the high rate of convictions we have seen in the Federal 
        courts since 9/11, I'd like to get your thoughts on 
        transferring detainees from Guantanamo for prosecution in the 
        U.S. Although Abu Ghayth was not transferred from Guantanamo, 
        he was a senior al-Qaeda figure. And there is the precedent of 
        Guantanamo detainee Ahmed Ghailani being transferred to New 
        York City where he was sentenced to life in prison in Federal 
        court for conspiracy to kill Americans even though he was 
        acquitted of most of the other charges against him.

    Answer. There is ample evidence that terrorism defendants can be 
held safely and securely before, during, and after trial in the United 
States. As you know, however, the National Defense Authorization Act 
for fiscal year 2014 continues the ban against using Department of 
Defense funds to transfer Guantanamo detainees into the United States 
for trial or any other purpose.
    Question. Will you please work with this Committee to oppose any 
restrictions on these transfers to the U.S. that would make it harder 
to bring these terrorists in Guantanamo to justice?
    Answer. The Administration remains committed to closing the 
detention facility at Guantanamo Bay, as continued operation of the 
facility weakens our national security. We welcomed the loosening of 
some of the restrictions related to the transfer of detainees to 
foreign countries in the National Defense Authorization Act for fiscal 
year 2014. However, the continuing restrictions on transfer of 
Guantanamo detainees to the United States and the remaining 
restrictions on transfer of detainees to third countries unnecessarily 
curtails the flexibility and options available to the executive branch. 
The Justice Department will continue to work with Congress to remove 
these transfer restrictions.
                            terrorist asylum
    Question. Mr. Attorney General, as you know, one of the arguments 
critics use to justify their position that more terrorists should be 
sent to Guantanamo is that they can be granted asylum if they are 
prosecuted on U.S. soil. What is your response to that claim?
    Answer. As explained more fully in the recently submitted 
congressional report requested by Section 1039 of the National Defense 
Authorization Act for fiscal year 2014, no Guantanamo detainee 
relocated to the United States would have a right to receive a grant of 
asylum in the United States. Asylum is a discretionary form of relief 
generally available to an alien who demonstrates, inter alia, that he 
was persecuted or has a well-founded fear of persecution in his country 
of nationality on account of his actual or imputed race, religion, 
nationality, membership in a particular social group, or political 
opinion. Although an alien who is physically present in the United 
States may, with limited exceptions, file an application for asylum, 
that application may be denied as a matter of discretion even if the 
alien were able to satisfy the eligibility requirements. Moreover, in 
many cases involving Guantanamo detainees, one or more of a number of 
statutory bars to eligibility could also apply. For example, an alien 
who has engaged in terrorist activity as described in INA 
Sec. 212(a)(3)(B), 8 U.S.C. Sec. 1182(a)(3)(B), is ineligible for 
asylum. An alien is also barred from obtaining asylum where he has 
ordered, incited, assisted, or otherwise participated in persecution on 
account of a protected ground or where there are reasonable grounds for 
regarding the alien as a danger to the security of the United States. 
Additionally, where an alien, having been convicted of a particularly 
serious crime, poses a danger to the community or where there are 
``serious reasons for believing that the alien has committed a serious 
nonpolitical crime'' outside the United States, the alien is also 
barred from receiving asylum.
  funding for the bureau of alcohol, tobacco, firearms and explosives 
                            (atf) attrition
    Question. How will the loss of special agents affect ATF's ability 
to conduct criminal investigations, train new agents, and carry out the 
Bureau's work?
    Answer. ATF's ability to effectively address violent crime in our 
communities and neighborhoods is directly tied to the number of special 
agents and industry operations investigators in our workforce. ATF 
faces several challenges including the anticipated retirement and 
attrition of hundreds of special agents in the next few years. While 
ATF has traditionally worked in partnership with State and local law 
enforcement agencies to leverage its capabilities and impact on violent 
crime, these approaches alone are not sufficient to overcome 
significant losses within its agent cadre. The loss of hundreds of 
special agents jeopardizes ATF's mission capacity; however, the fiscal 
year 2014 Appropriation began to address this challenge and ATF was 
able to hire approximately 217 special agents in fiscal year 2014. With 
the funding requested in the fiscal year 2015 President's budget, ATF 
will be able to sustain the hiring effort started this year.
    Question. What steps is ATF taking to address this attrition?
    Answer. ATF hired approximately 217 special agents in fiscal year 
2014 in an effort to offset the impact of recent attrition as well as 
projected future attrition and retirements. ATF anticipates that a 
sustained hiring effort will be required over the next several years in 
order to maintain the special agent cadre and ensure that there is no 
degradation of ATF's mission capability as a result of personnel loss.
    ATF is also revitalizing and expanding its advanced agent training 
programs and leadership development programs. For example, ATF has 
undertaken course redesign/review efforts related to its advanced 
investigations training program, the advanced firearms training 
program, and the Industry Operations Investigator (IOI) training 
programs. The goal for these efforts is to create updated curricula 
that can be broken out into individual modules and delivered by 
instructors already in the field. ATF is also accelerating its 
leadership development efforts. For example, ATF has completed 
development and implementation of the ATF Leadership Philosophy, which 
provides a consistent contextual basis for developing and emphasizing 
leadership principles throughout the organization. ATF has also 
initiated development of a new Leadership and Command course for agents 
in the supervisory and managerial ranks, addressing a critical need 
within those cadres. Further, ATF is investing in additional training 
opportunities for managers through the Center for Creative Leadership 
(CCL) and is increasing its support for its Aspiring Leaders and 
Leadership Enhancement programs.
    While hiring new agents serves as a numerical offset to attrition, 
many years of training and experience are required before a new agent 
is fully capable of replacing a senior agent. ATF is working to 
accelerate that development process, taking advantage of the existing 
experience of senior agents within the workforce to prepare new agents 
for the technical and leadership challenges that lie ahead.
    Question. How does the President's budget request for ATF address 
this attrition?
    Answer. ATF anticipates that a sustained hiring and training effort 
will be required over the next several years in order to maintain ATF's 
special agent cadre and ensure that ATF's mission capability is not 
degraded due to retirements and attrition. ATF hired approximately 217 
special agents in fiscal year 2014 in an effort to offset the impact of 
recent attrition as well as projected future retirements and the fiscal 
year 2015 President's budget sustains these hiring efforts.
    Question. How imperative is it that Congress fully fund ATF in line 
with the President's budget request?
    Answer. The fiscal year 2015 President's budget request includes 
$22 million in adjustments to base that sustains the momentum and 
positive steps the Bureau is made in fiscal year 2014 to address areas 
of concern and vulnerability. In particular, ATF anticipates that a 
sustained hiring and training effort will be required over the next 
several years in order to maintain ATF's special agent cadre and ensure 
that ATF's mission capability is not degraded due to retirements and 
attrition.
                      unaccompanied alien children
    Question. Have you considered developing dockets in immigration 
courts dedicated to children, so that non-profit organizations and pro 
bono attorneys can better coordinate legal representation and child 
advocates for children? If so, what steps have you taken thus far?
    Lead-in information from original document.--
          A recent surge in widespread organized crime and violence in 
        Central America has led to an unprecedented increase in the 
        number of unaccompanied alien children (UAC) crossing the U.S.-
        Mexico border. Many of these children wind up in the custody of 
        the Office of Refugee Resettlement. I applaud the work done for 
        these children by the Legal Orientation Program. However, the 
        Program doesn't serve children who have been released from 
        custody. Considering the increased numbers of these children, 
        and the fact that many of those already released from custody 
        still have pending immigration cases, more has to be done to 
        ensure these children have Child Advocates and attorneys to 
        represent them navigate immigration court.
          Congress allocated $315 million for the Executive Office for 
        Immigration Review (EOIR) and the Office of the Pardon Attorney 
        in the 2014 Consolidated Appropriations Act (Public Law 113-
        76), instructing DOJ to ``better serve vulnerable populations 
        such as children,'' and ``improve court efficiency through 
        pilot efforts aimed at improving legal representation.''

    Answer. EOIR has established ``juvenile dockets'' throughout the 
country to facilitate consistency, encourage child-friendly courtroom 
practices, and promote pro bono representation for unaccompanied alien 
children (UAC). Currently, there are juvenile dockets in 26 immigration 
court locations. In addition, DOJ has appointed an Assistant Chief 
Immigration Judge (ACIJ) for vulnerable populations, who has the 
responsibility for continuing the development and implementation of 
EOIR policy concerning vulnerable populations. The ACIJ is focusing on 
the UAC population in particular, and is working with EOIR's Office of 
Legal Access Programs and the various immigration courts to further 
improve training for court staff, as well as examine and implement 
improved procedures for handling UAC cases.
    Question. Will the DOJ take steps to allocate funds to provide 
legal representation for unaccompanied children?
    Answer. The Department of Justice, through EOIR, entered into a 
strategic partnership with the Corporation for National and Community 
Service (CNCS), which operates the AmeriCorps national service program, 
to provide legal aid to certain unaccompanied minors and to improve the 
effective and efficient adjudication of immigration removal proceedings 
involving those children. The Justice Department and CNCS partnership, 
known as Justice AmeriCorps, responds to Congress' direction to EOIR in 
its fiscal year 2014 appropriation ``to better serve vulnerable 
populations such as children [and to] improve court efficiency through 
pilot efforts aimed at improving legal representation.'' On September 
12, 2014, CNCS awarded $1.8 million in grants to organizations and 
coalitions providing services at approximately 17 sites. It is 
anticipated that the organizations and coalitions will begin providing 
legal representation services in January 2015.
    In addition, EOIR allocated $200,000 in funding to the Vera 
Institute of Justice to provide direct legal representation for 
unaccompanied children appearing before the Baltimore Immigration 
Court. The Baltimore Representation Initiative for Unaccompanied 
Children will be operational January 2015.
    Question. Will the DOJ commit to looking at how to expand access to 
legal counsel for immigrant children?
    Answer. The Department of Justice is committed to looking at how to 
expand access to legal counsel for immigrant children. In addition to 
launching the Justice AmeriCorps program and the Baltimore Initiative 
to provide legal aid to unaccompanied children, the Department 
continues to work closely with other government agencies and non-profit 
organizations to explore ways to increase access to legal services for 
unaccompanied children in removal proceedings, as well as other 
vulnerable populations. Over the past several years, EOIR, together 
with its government and non-governmental partners, has made great 
strides to improve the adjudication process for children. These 
include:
  --Issuing guidance to immigration court staff to implement more 
        child-friendly court practices and improve access to pro bono 
        legal services.
  --Creating special children's dockets at the majority of immigration 
        courts to better accommodate pro bono legal services and 
        implement more child-friendly court practices.
  --Expanding Immigration Judge training for hearing cases involving 
        children.
  --Facilitating Legal Access Programs funded by the Office of Refugee 
        Resettlement (ORR), which provides ``know your rights'' 
        presentations and pro bono legal services at all ORR shelter 
        care locations.
  --Creating the Legal Orientation Program for Custodians of UAC 
        (LOPC), which funds non-governmental organizations to provide 
        legal orientation presentations and pro bono referral services 
        to the custodians (adult caregivers) of UACs. The purpose of 
        this program is to inform UAC custodians of their 
        responsibilities in ensuring the child's appearance at all 
        immigration proceedings, as well as protecting the child from 
        mistreatment, exploitation and trafficking. In fiscal year 
        2014, EOIR allocated $2.5 million in funding to this program.
  --Engaging public stakeholders to improve access to pro bono legal 
        services, especially for children and family groups. These 
        ongoing efforts have included large stakeholder meetings with 
        EOIR's Director, Deputy Director, and Assistant Chief 
        Immigration Judges in cities with the largest unaccompanied 
        child populations.
                       immigration court backlog
    Question. Assuming that the 35 new immigration judge teams were to 
be filled, would that suffice for EOIR's needs?
    Answer. Hiring 35 Immigration Judge teams will assist EOIR with 
managing the incoming caseload. As of November 2014, EOIR's Immigration 
Judge Corps consists of 241 Immigration Judges, which is below an 
optimal staffing level to appropriately address the incoming and 
pending caseload. In light of the ongoing surge in immigration, 
especially along the Southwest Border, EOIR initiated the hiring of 
more than 30 Immigration Judges in fiscal year 2014 to address a 
longstanding shortfall exacerbated by a 5 percent to 10 percent 
attrition rate per year. EOIR anticipates the above-mentioned 35 
Immigration Judge teams in 2015 will allow EOIR to better address the 
incoming caseload and begin to reduce the pending caseload.
    Question. What impact will an additional 35 immigration judge teams 
have on the existing backlog?
    Answer. The addition of 35 Immigration Judge Teams will allow 
EOIR's immigration courts to process a greater number of pending cases. 
The number of pending cases over time depends on the volume of existing 
cases, new charging documents filed by the Department of Homeland 
Security (DHS), and case completions. EOIRs current pending caseload 
volume in fiscal year 2014 is approximately 389,000 proceedings. The 
number of annual completions by an Immigration Judge varies according 
to a number of factors, including the type of docket to which the judge 
is assigned. Taking into account variable completion rates among 
judges, EOIR estimates that 35 additional Immigration Judge (IJ) teams 
will likely complete between 21,000 and 28,000 proceedings annually. 
The effect of this added productivity upon the pending caseload or 
backlog will depend on the number of additional charging documents 
filed by DHS during the same period. Finally, any gains in staffing and 
productivity may be lowered slightly due to normal staff attrition.
    Question. What other steps is EOIR taking to promote efficiencies 
to address the immigration court backlog?
    Answer. EOIR continues to work closely with DHS, other government 
agencies, and non-profit organizations to explore ways to promote 
efficiencies to address the immigration courts pending caseload. In 
conjunction with these groups, EOIR has conducted test pilots across 
the country in the areas of non-contested dockets, alternatives-to-
detention, pre-trial conferences, and unaccompanied alien children 
scheduling adjustments to try to streamline immigration proceedings.
    To improve the effective and efficient adjudication of immigration 
removal proceedings for vulnerable populations, such as unaccompanied 
alien children and detained aliens who are deemed mentally incompetent 
to represent themselves in immigration proceedings, EOIR dedicated over 
$3 million in fiscal year 2014 resources to provide legal aid services 
to these populations.
    Additionally, in fiscal year 2014, EOIR dedicated approximately 
$6.6 million for the Legal Orientation Program (LOP), which improves 
efficiencies in immigration court proceedings for detained aliens by 
increasing their awareness of their rights and the overall process. As 
a result of the increased funding provided in fiscal year 2014, EOIR 
expanded the program to provide these services at five additional adult 
facilities and four family detention facilities. Today, the LOP is 
available at 32 sites across the country. Evaluation reports have shown 
that LOP participants complete their immigration court cases in 
detention an average of 12 days faster than detainees who do not 
participate in an LOP, which saves the Government approximately $16.6 
million annually. EOIR has requested another $2.8 million in fiscal 
year 2015 to respond to elevated demand at existing LOP sites and to 
add 12 more sites.
    Question. Since many people in immigration court lack attorneys and 
a basic understanding of the immigration court process, what steps is 
EOIR employing, or considering, to give these people better access to 
information so they can move through court proceedings more 
expeditiously without sacrificing due process?
    Answer. EOIR has established an Office of Legal Access Program to 
administer several programs and initiatives to provide people with 
better access to legal information and counsel. The programs and 
initiatives include: the Legal Orientation Program (LOP), the Legal 
Orientation Program for Custodians of Unaccompanied Alien Children 
(LOPC), Self Help Legal Centers, Self Help Guides, Model Hearing 
Program, and Pro Bono Liaison Judge meetings.
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu
                       new orleans consent decree
    Question. What is causing the delay in Department of Justice's 
review of the New Orleans Police Department's policies?
    Lead-in information from original document.--
          As you know the New Orleans Police Department entered into a 
        consent decree with the Department of Justice in 2012. A 
        Federal court imposed an October deadline for the review of 
        important policies and those policies have not been fully 
        reviewed.

    Answer. A comprehensive Consent Decree designed to bring the New 
Orleans Police Department (NOPD) into compliance with the Constitution 
is in place, and in July 2013 the court appointed an experienced 
monitoring team to oversee implementation of the Decree.
    The Department and the city of New Orleans, with the Court's 
approval and oversight, have worked cooperatively to devise a policy 
review process that will allow the NOPD to adopt and implement policies 
that are consistent with the law as quickly and efficiently as 
possible.
    NOPD has provided a limited number of policies to DOJ and the 
Consent Decree Monitor (``Monitor''), and both DOJ and the Monitor have 
provided comments and suggestions regarding those policies in a timely 
manner. NOPD, DOJ, and the Monitor have worked together to revise those 
policies to ensure that they comply with the Consent Decree and 
applicable law, and to ensure that they will be effective for NOPD's 
particular needs. In some instances, that process is ongoing. In 
others, that process has been completed and DOJ and the Monitor have 
provided final approval for NOPD to adopt and implement those policies.
    The Department continues to work closely with the city and police 
department, as well as the Monitor, to facilitate transformative change 
and ensure reform of the New Orleans Police Department. The Department 
has reviewed, and will continue to review, all policies submitted to it 
in a timely fashion and in compliance with the Decree and all Court 
Orders.
    Question. What process is the Department of Justice utilizing to 
review NOPD's policies? Are there subject matter experts within the DOJ 
who are actively engaged in the review of the policies? If not, are the 
DOJ lawyers qualified to adequately and efficiently review the 
policies?
    Answer. Once NOPD submits policies to DOJ and the Monitor, DOJ 
lawyers review those policies to ensure that they comply with the law 
and the Consent Decree, are internally consistent, and provide NOPD 
officers with effective guidance. In performing that review, DOJ 
lawyers consult the Monitoring team, subject matter experts, and any 
other necessary sources in order to ensure that the review is thorough 
and effective.
    Question. Did the Department of Justice analyze the effects of 
creating the office of police secondary employment in New Orleans? Has 
the Department of Justice ever included provisions related to secondary 
employment in any other consent decree? If so, in which municipalities?
    Answer. The Department's investigation of NOPD revealed that NOPD's 
unregulated system of secondary employment was a significant 
contributor to unconstitutional policing in New Orleans. As detailed in 
the Department's findings letter, unregulated secondary employment both 
undermines the accountability structure within NOPD and encourages 
corruption, favoritism, and unprofessional and unconstitutional 
policing more broadly. For these reasons, which were specific to NOPD, 
for the first time, provisions related to secondary employment were 
included in the Consent Decree, which the city has agreed, and the 
Federal courts have found, is fair, adequate, and reasonable. In 
crafting the Consent Decree, DOJ worked with the city to create a 
system that would allow officers to continue to work secondary 
employment, but that would also address the ways in which secondary 
employment has contributed to a pattern or practice of unconstitutional 
conduct. DOJ remains committed to working with the city to ensure that 
its secondary employment system is fair and accountable.
    Question. Has the Department of Justice undertaken any efforts to 
regulate the Orleans Parish Sheriff's Office's paid detail system? Does 
the Department of Justice have a position on whether OPSO's staffing 
levels in the jail are affected by deputies performing paid details? 
Has the Department of Justice undertaken that analysis in light of its 
stated position that staffing is a major issue at the jail?
    Answer. The Department of Justice is enforcing compliance with the 
consent judgment it achieved in Jones v. Gusman, 12cv859, a pattern or 
practice civil rights case addressing conditions in the Orleans Parish 
Prison. Secondary employment by Sheriff Deputies is beyond the scope of 
that agreement. As required by the Prison Litigation Reform Act (PLRA), 
the terms of the consent judgment are narrowly tailored to address the 
constitutional violations in the jail. Among other terms, the consent 
judgment requires correctional staffing and supervision that is 
sufficient to adequately supervise prisoners, fulfill the terms of the 
consent judgment, and allow for the safe operation of the jail, 
consistent with constitutional standards. In February 2014, as required 
by the consent judgment, the Orleans Parish Sheriff's Office provided a 
staffing analysis and plan to all parties to the consent judgment and 
to the city of New Orleans. Staffing remains a very serious problem at 
the jail and the United States is attempting to determine the causes of 
the problem in the context of the litigation. The United States is 
aware of a substantial increase in the hiring of Deputies for paid 
details and assessing whether that increase has an impact on the 
implementation of the consent decree or raises justiciable issues. The 
Department of Justice is committed to vigorously enforcing the consent 
judgment, including all PLRA-compliant measures to achieve adequate 
staffing and supervision to address the ongoing unconstitutional 
conditions and unacceptable levels of violence in the jail.
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
                     white collar crime prosecution
    Question. How many criminal prosecutions and convictions has the 
DOJ secured related to the 2008 crisis? If there is a stark difference, 
why is that so? To what degree have inadequate resources constrained 
DOJ's efforts? How many DOJ prosecutors work full time on white collar 
crime? Can you give me specific numbers on the following types of 
crimes (differentiate between full time and as a percentage of 
individual portfolios, please also differentiate from those who have 
been detailed to other assignments):
  --mortgage and securities fraud;
  --market manipulation in derivatives, oil or other commodities, 
        financial indices, or currencies;
  --offshore tax evasion;
  --money laundering and sanctions; and
  --payment system and other financial fraud.
    Lead-in information from original document.--
          In the Savings and Loan Crisis in the 1980's pervasive fraud 
        led to economic disaster. The DOJ during those years 
        aggressively stepped up its white collar task forces and over 
        150 people from DOJ and Treasury worked on Savings and Loan 
        fraud full time. By 1992, there had been over 1,100 criminal 
        prosecutions with over 839 convictions.
          By contrast, the DOJ's response to the recent crisis appears 
        much more muted.

    Answer. With regard to your first question on the number of 
criminal prosecutions and convictions that the Department has secured 
related to the 2008 crisis, it must be stated at the outset that the 
Department's position is, and always has been, that no person, and no 
corporation, is above the law. The Department is committed to 
aggressively investigating allegations of wrongdoing at financial 
institutions and, along with our law enforcement and regulatory 
partners, holding individuals and corporations responsible for their 
conduct through the criminal, civil, and administrative enforcement 
tools available to us. That being said, it is difficult to pinpoint 
precisely which cases are and are not directly related to the 
catastrophic economic events that began unfolding in 2008. What we can 
report is that the Department has prosecuted an incredible number of 
financial fraud cases since the inception of the financial crisis. 
Specifically, from fiscal year 2008 through the second quarter of 
fiscal year 2014, the United States Attorneys' Offices filed 21,544 
financial fraud cases against 31,349 defendants.\1\ During that same 
time period, 28,496 defendants were convicted of financial fraud 
crimes, and 18,063 were sentenced to prison for such crimes. Some of 
the more notable individuals in the financial industry prosecuted in 
the aftermath of the financial crisis are:
---------------------------------------------------------------------------
    \1\ Financial fraud encompasses the following program categories: 
Federal procurement fraud; Federal program fraud; financial institution 
fraud; bankruptcy fraud; advance fee schemes; other fraud against 
businesses; consumer fraud; securities fraud; commodities fraud; other 
investment fraud: mortgage fraud; or corporate fraud.
---------------------------------------------------------------------------
  --JP Morgan (London Whale individuals)
  --Goldman Sachs (Rajat Gupta; Matthew Taylor)
  --Morgan Stanley (Garth Peterson)
  --Credit Suisse (Kareem Serageldin and several others)
  --UBS (2 London Interbank Offered Rate (LIBOR) individuals and 
        individuals in antitrust cases)
  --Rabobank (3 LIBOR individuals)
  --ICAP (3 LIBOR individuals)
  --Galleon (Rajaratnam and several others)
  --SAC Capital (many)
  --Stanford Financial Group (Allen Stanford and others)
    Further, with respect to prosecutions of institutions, beginning in 
2013, the Department has obtained guilty pleas from the following 
financial industry institutions:
  --UBS Subsidiary (LIBOR) (plus $100 million fine)
  --RBS Subsidiary (LIBOR) (RBS parent paid $100 million penalty)
  --SAC Capital (plus $1.8 billion in fines and forfeiture)
  --Wegelin (Swiss Bank)
    Moreover, in November 2013, the Department announced the largest 
settlement with a single entity in American history: a $13 billion 
settlement with JPMorgan, to resolve Federal and State civil claims 
arising out of the packaging, marketing, sale and issuance of 
residential mortgage-backed securities by JPMorgan, Bear Stearns and 
Washington Mutual.
    With regard to your second question on the differences between the 
1980s savings and loan (S&L) crisis and the 2008 financial crisis, the 
circumstances of the two situations and the types of criminal conduct 
found in those two events were vastly different. In the S&L crisis, in 
part because of pervasive speculative lending practices by financial 
institutions, financial institution examiners and Federal investigators 
were confronted with hundreds of failed financial institutions across 
the country. The FBI's investigations of failed financial institutions 
reached its peak at 758 in July 1992. Financial Institution Fraud Unit, 
Financial Crimes Section, FBI, Financial Institution Fraud and Failure 
Report--Fiscal Year 2002 at 2-3 (2002), http://www.fbi.gov/stats-
services/publications/fiff-2002. Moreover, during the period of the 
late 1980s to the early 1990s, approximately 60 percent of the fraud 
reported by financial institutions related to bank insider abuse. Id. 
at 1. Those financial practices, which often involved collusion between 
bank insiders and outsiders as well as falsification of records by bank 
insiders regarding particular loans and borrowers, were vastly 
different in types from those associated with the 2008 crisis.
    With regard to your third question, concerning the degree to which 
inadequate resources have constrained the Department's efforts, the 
Department has sought appropriate resources to pursue all types of 
white-collar crime. The Department's efforts to combat financial fraud 
will continue to play a key role not only in ensuring that those who 
have engaged in fraudulent activities will be held accountable for 
their illegal conduct, but in deterring future fraudulent conduct and 
in recovering funds for fraud victims.
    With regard to your fourth and fifth questions, regarding the 
number of Department of Justice prosecutors who ``work full time on 
white collar crime,'' the Department does not maintain the precise type 
of statistical data you are seeking. While Assistant United States 
Attorneys often specialize in certain areas of criminal law and are 
assigned to specific sections within their offices' criminal divisions, 
they are generally not required to work full-time in any one area. This 
allows the United States Attorneys' offices flexibility in assigning 
cases and managing workload. Prosecutors track their time using 
category codes that describe the types of cases on which they have 
worked (e.g., white collar crime, violent crime, immigration). In 
fiscal year 2008, the United States Attorneys' offices devoted more 
than 831 full-time equivalent (FTE) workyears to white collar crime.\2\ 
That number has increased every fiscal year since then. The largest 
increase was between fiscal year 2008 and fiscal year 2009, when the 
number of FTE devoted to white collar crime rose by more than 100 FTE. 
The table below shows the FTE workyears for white collar crime over the 
last six fiscal years, including overtime hours (hours in excess of 40 
hours per week) that average more than 200 additional FTE per fiscal 
year.
---------------------------------------------------------------------------
    \2\ One FTE equals 2080 hours.
---------------------------------------------------------------------------
    [See Table below]
    Although there are white collar crime subcategories to which 
prosecutors can assign time, they are limited to financial institution 
fraud and healthcare fraud. Consequently, the Department cannot break 
down white collar crime FTE workyears according to the specific 
categories you identified. There are, however, specific components of 
the Department that are dedicated exclusively to prosecuting one or 
more types of white collar crime. With regards to the types of white-
collar crime mentioned in your questions, relevant components would 
include the Fraud Section of the Criminal Division, the Criminal 
Enforcement Sections of the Tax Division, and the Criminal Sections of 
the Antitrust Division. The Fraud Section of the Criminal Division has 
approximately 100 trial attorneys and supervisors, the Criminal 
Enforcement Sections of the Tax Division also have approximately 100 
trial attorneys and supervisors, and the Criminal Sections of the 
Antitrust Division have approximately 101 trial attorneys and 
supervisors.

                                             WHITE COLLAR CRIME FTE
----------------------------------------------------------------------------------------------------------------
                                                       Fiscal    Fiscal    Fiscal    Fiscal    Fiscal    Fiscal
                      Workyears                         year      year      year      year      year      year
                                                        2008      2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Attorney Workyears..................................    831.66    944.80    982.71   1028.79   1029.76   1067.29
Attorney 40+ Workyears..............................    180.65    194.32    226.29    227.75    226.07    225.75
Attorney and 40+ Workyears..........................   1012.31   1139.12   1209.00   1256.54   1255.83   1293.04
----------------------------------------------------------------------------------------------------------------

                             payment fraud
    Question. I'm very concerned about financial institutions and 
payments providers engaging in payments fraud or providing services to 
those engaged in illegal activities, such as lending into States in 
violation of State payday lending laws. Are you committed to continuing 
to investigate and pursue payment fraud and crack down on institutions 
that clear payments for illegal lenders?
    Answer. The Department of Justice (DOJ) is committed to protecting 
the American people from fraudulent practices in all industries. The 
Financial Institutions Reform, Recovery and Enforcement Act 
(``FIRREA'') allows for civil penalties in a variety of situations in 
which frauds are perpetrated affecting federally insured financial 
institutions. Those situations include instances where a financial 
institution knowingly participates in a fraud or processes transactions 
deliberately ignoring evidence that they are fraudulent. One key DOJ 
mission is to investigate violations of Federal law, especially those 
involving fraudulent conduct that threatens to harm the American 
public. We are working diligently to protect the public from this fraud 
by holding accountable those banks and payment processors that violate 
Federal law.
                                 ______
                                 
          Questions Submitted by Senator Christopher A. Coons
                       victims of child abuse act
    Question. Last year, Congress demonstrated its commitment to 
helping victims of child abuse by appropriating $19 million under the 
Victims of Child Abuse Act. I welcome DOJ's fiscal year 2015 request of 
$11 million for these programs, especially compared to levels in past 
budgets. Does DOJ plan to embrace an increased role in helping victims 
of child abuse in 2015 and beyond?
    Answer. The fiscal year 2015 President's budget request for the 
Office of Justice Programs (OJP) reflects the administration's strong 
support for addressing the needs of young people within the justice 
system and its commitment to promoting evidence-based programs and 
practices throughout the criminal and juvenile justice systems. The 
fiscal year 2015 President's budget request supports programs to serve 
victims of child abuse, to prevent and address youth violence, to 
improve outcomes of young people involved in the juvenile justice 
system, and ensure that all kids, particularly at-risk kids, are not 
swept up into the juvenile justice system. The request includes 
increased or continued funding for programs such as the Defending 
Childhood/Children Exposed to Violence Program ($23 million), Missing 
and Exploited Children's Programs ($67 million), and Title V Prevention 
Programs ($42 million)--a combined $34 million increase in fiscal year 
2015 over the fiscal year 2014 enacted levels for these programs.
    DOJ remains committed to utilizing existing resources to address 
the most urgent national priorities and to ensure the most efficient 
possible use of the juvenile justice funding appropriated under OJP. 
OJP will continue to respond to the changing needs of the juvenile 
justice community by providing greater flexibility in the use of 
funding (where allowed by statute) and improving coordination of these 
programs with other juvenile justice programs. The Office of Juvenile 
Justice and Delinquency Prevention (OJJDP) also will look at how other 
resources can be leveraged to help the Child Advocacy Centers (CACs) 
and Multi-Disciplinary Teams (MDTs) operate more efficiently and cost 
effectively.
                        bulletproof vest program
    Question. In your proposed fiscal year 2015 budget, you requested 
$22.5 million for the Bulletproof Vest Partnership Program. As you may 
know, I have joined several other Senators in advocating for a $30 
million appropriation for this program. What impact would this 
additional $ 7.5 million have on DOJ's ability to help State and local 
law enforcement acquire this life-saving equipment?
    Answer. The Bulletproof Vest Partnership (BVP) Program fills a 
critical need for State, local, and tribal law enforcement and public 
safety agencies by reimbursing them for up to half of the cost for 
qualifying, life-saving body armor for their officers. The fiscal year 
2015 funding request of $22.5 million is equal to the fiscal year 2014 
enacted level and will allow this program's activities to continue at 
their current level of effort. An additional $7.5 million would allow 
jurisdictions to purchase an estimated 8,700 additional vests.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby
                      fiscal year 2015 budget cuts
    Question. Why does the budget include undefined reductions to 
programs instead of providing an accurate funding picture for the 
Department? More importantly, why must these difficult decisions be 
made after the appropriations bills have passed?
    Lead-in information from original document.--
          The 2015 budget includes more than $500 million in 
        programmatic cuts. I am curious why the Department failed to 
        identify these cuts in advance of the budget submission. 
        Moreover, I question whether law enforcement components can 
        actually deliver the level of cuts required.

    Answer. The fiscal year 2015 budget provides an accurate funding 
picture of the Department by estimating the actual fiscal year 2015 
current services need, or the cost to maintain current operations and 
staffing levels planned through fiscal year 2015. In addition, the 
fiscal year 2015 budget is fiscally responsible in terms of spending 
because it meets the caps set by Congress in the Bipartisan Budget Act 
of 2013. In order to adhere to the congressionally directed caps, the 
DOJ Federal programs must absorb $503 million in unspecified program 
and administrative offsets. These offsets support anticipated 
inflationary increases, such as the costs for base pay, benefits and 
rent. These offsets are unspecified because of the limited time 
available between the enactment of the Bipartisan Budget Act and the 
conclusion of the fiscal year 2015 budget process. The $503 million in 
proposed offsets represents a fraction of the $1.6 billion in sequester 
cuts that the Department absorbed during the last 9 months of fiscal 
year 2013. DOJ program managers will have this fiscal year to identify 
opportunities for savings and prepare for the offsets.
    Question. Do you really believe that the FBI can cut $168 million, 
the U.S. Marshals Service can find $33 million, or that the U.S. 
Attorneys can eliminate $30 million from their budget--without cutting 
core mission requirements or essential personnel? And if so, why didn't 
you require them to do so before the budget was released?
    Answer. The Department proposed programmatic reductions in order to 
adhere to the fiscal year 2015 caps set by Congress with the Bipartisan 
Budget Act of 2013. The fiscal year 2013 sequester cut the salaries and 
expenses (S&E) appropriations of the Federal Bureau of Investigation 
(FBI) by $541.7 million, U.S. Marshals Services (USMS) by $59.1 million 
and U.S. Attorneys (USA) by $98.6 million. These cuts were much deeper 
than the programmatic offsets the fiscal year 2015 budget proposes and 
components will have more time to consider how to identify savings. 
Core mission requirements are not threatened because even with the 
proposed fiscal year 2015 offsets, S&E funding will essentially remain 
flat from the fiscal year 2014 appropriated levels for the FBI, USMS 
and USA.
                                doj cuts
    Question. According to your own statements, sequestration was 
devastating to the Department and its ability to perform core mission 
activities--why then will this version of sequestration be less 
devastating? Is there really that much fat to trim inside the 
Department of Justice?
    Lead-in information from original document.--
          In a 2013 Washington Post Op Ed on the impact of 
        sequestration you said, ``This shameful state of affairs is 
        unworthy of our great Nation, its proud history and our finest 
        legal traditions. In purely fiscal terms, the cuts imposed by 
        sequestration defy common sense . . .'' By eliminating the 
        discretionary sequester for 2014 and 2015 Congress has done its 
        part to ensure that the Department can be properly funded. 
        However, the Department's decision to include its own version 
        of a sequester in the 2015 budget request defies logic.

    Answer. The fiscal year 2015 request demonstrates the Department's 
continued commitment to fiscal prudence and adheres to the spending 
caps directed by Congress in the Bipartisan Budget Act of 2013. The 
fiscal year 2014 Appropriations Act restored the fiscal year 2013 
sequester funding cuts to the Department and provides sufficient 
resources to lift the hiring restrictions put in place on January 21, 
2011. Even with the proposed program offsets, law enforcement funding 
essentially remains flat from fiscal year 2014 to fiscal year 2015. 
However, these levels are significantly higher than the fiscal year 
2013 sequestered funding levels that hindered the Department's capacity 
to perform its mission. For example, funding for the Federal Bureau of 
Investigation increases by nearly 11 percent from fiscal year 2013 and 
funding for the U.S. Marshals Service and U.S. Attorneys increases by 
nearly 7 percent from fiscal year 2013.
                         smart crime initiative
    Question. First, what authority do you currently have to alter 
incarceration rates? Can you reduce sentences for incarcerated 
criminals, can you change the minimum sentence required for a drug 
crime--what action can you take?
    Lead-in information from original document.--
          The budget advances the Smart on Crime Initiative which seeks 
        to reform the criminal justice system by improving public 
        safety and saving money. Reducing the number of ``low-level'' 
        Federal crimes prosecuted and pursuing alternatives to 
        incarceration are listed as two of the initiative's core 
        principals. While reform of our criminal justice system is a 
        laudable goal, I am concerned that the principals of the 
        proposal may be contradictory and in fact, lead to higher crime 
        rates and an increase in the number of serious crimes 
        committed.

    Answer. Once a Federal offender is sentenced by a Federal judge, 
the Department of Justice generally cannot reduce the sentence imposed. 
But before sentencing, Federal prosecutors have always exercised 
discretion in the cases they bring and offenses they charge. Most 
criminal prosecutions are brought at the State level. Within that 
context, Federal prosecutors maximize the Federal enforcement 
contribution to improving public safety efforts by prosecuting the 
right criminal cases consistent with our mission. Our U.S. Attorneys 
set quality, evidence-based priorities for the types of cases we bring 
with an eye toward promoting public safety, deterrence, and fairness. 
This necessarily means focusing our resources on the most significant 
cases.
    Question. You have stated that the Department will shift to a focus 
solely on the most serious cases. First, I wonder how such a shift is 
not negligent. Second, how can you be sure that a focus on only the 
most serious cases will not result in an increase in crime rates or an 
escalation in the number of serious crimes committed?
    Answer. As stated above, most criminal prosecutions are brought at 
the State level. Federal prosecutions contribute to public safety 
efforts by prosecuting cases consistent with our particular mission. 
Our U.S. Attorneys collaborate with their State and local partners and 
set quality, evidence-based priorities for the types of cases we bring 
so that all of the public safety resources--local, State and Federal--
working together, will maximize public safety, deterrence, and 
fairness. This means in most districts focusing our Federal resources 
on the most significant cases. It does not mean that lower level 
offenders are not held accountable for their crimes. It does mean that 
Federal resources will be focused--as they must be given limits on 
those resources--on the more serious cases.
    Question. What happens to the criminals we decline to prosecute?
    Answer. Many lower level offenders will be prosecuted at the State 
level. However, some will be subject to diversion or other alternatives 
to imprisonment. These alternatives have a long history and allow non-
violent, less serious offenders who are in need of drug treatment, for 
example, to receive such treatment in lieu of imprisonment. If crafted 
properly, these alternatives can have the twin effects of reducing the 
burden on the Federal prisons and reducing crime rates.
    Question. Is this proposal the best path forward or is it simply a 
means to reduce the overall prison population in hopes of decreasing 
Federal spending on incarceration?
    Answer. The Smart on Crime Initiative is modeled after many State 
criminal justice reforms, which have reduced prison spending while 
improving public safety in States across the country. We continue to 
monitor and work with the States to determine the best approaches to 
achieving improved public safety while also achieving cost 
efficiencies.
    Question. Will this initiative simply shift more of the burden to 
the States?
    Answer. No. As stated previously, while many lower level offenders 
will indeed be prosecuted at the State level, some will be subject to 
diversion or other alternatives to imprisonment within the Federal 
criminal justice system.
                       tedac/hds/ncetr facilities
    Question. Could you speak to the importance of the facilities 
individually and collectively? Would you also explain how these 
facilities fit into the larger national security framework?
    Lead-in information from original document.--
          After many years of working with the Department and the FBI, 
        I was pleased to see that the 2015 budget included $15 million 
        for the FBI's new TEDAC Facility. The budget also includes 
        funding for the FBI's Hazardous Devices School and the ATF's 
        National Center for Explosives Training and Research. These 
        facilities are unique and serve important functions in the 
        overall national security framework.

    Answer. The FBI's Terrorist Explosive Device Analytical Center 
(TEDAC) and Hazardous Devices School (HDS) and ATF's National Center 
for Explosives Training and Research (NCETR) serve extremely important 
functions in protecting public safety and national security. While 
these three facilities are focused on combating explosives and their 
threat to the Nation, they each perform discrete missions in the phases 
of the forensic, intelligence and training cycle.

    TEDAC: Improvised Explosive Devices (IEDs) are one of the most 
readily available weapons utilized by terrorists and criminals to 
damage critical infrastructure and inflict casualties. The U.S. 
Government relies on TEDAC to conduct forensic and technical 
exploitation of IEDs and related materials collected around the globe 
in order to gather and share intelligence with domestic and foreign 
partners to identify bomb makers, to develop techniques to disarm and 
disrupt IEDs, and most importantly, to prevent future attacks. TEDAC 
also shares device design information with HDS to inform the training 
provided to bomb technicians responsible to render IEDs safe and 
protect our citizens.
    In February 2013, the President updated the national strategy 
focused on countering the IED threat. The implementation plan resulting 
from the updated policy statement calls for a ``single U.S. Government 
strategic-level IED exploitation center and repository of IEDs.'' TEDAC 
fulfills this mission and is the only U.S. Government entity that meets 
the requirement outlined in the 2013 Counter IED Implementation Plan. 
TEDAC operations will transition over the next few years from Quantico, 
Virginia to new facilities in Huntsville, Alabama, as a multi-phased 
construction effort concludes. These new facilities will enable TEDAC 
to continue supporting the national security framework through 
operations, such as nominating individuals to the Terrorist Screening 
Database and the Department of Defense Biometric Enabled Watchlist 
(BEWL), which biometrically matches IEDs examined by TEDAC to those 
included in DOD's Automated Biometrics Identification System (ABIS). In 
addition to continuing current operations, the facilities will house 
the TEDAC Improvised Explosives Detection and Synthesis (TIEDS) Center, 
which is a research and development partnership with the Department of 
Homeland Security (DHS). The TIEDS Center will conduct research and 
experimentation focused on improvised explosives synthesis and 
characterization, improvised explosives detection technologies, and 
testing and evaluation of Render Safe Procedures and tools in order to 
deliver real time information on IED threats to the intelligence, law 
enforcement, and homeland security communities. TEDAC's vast research 
experience with IEDs and visibility into the threat will allow for the 
development of appropriate countermeasures for TSA and other members of 
the homeland security community to stay ahead of the IED threat.
    The intelligence gleaned from TEDAC exploitation and analysis also 
feeds directly into curriculum development for training conducted by 
HDS. This enables bomb technicians and law enforcement partners to 
receive training on real threats that are being encountered worldwide 
and what countermeasures are needed for defeat.

    HDS: The HDS operates through a joint partnership between the FBI 
and the United States Army. The FBI administers HDS and maintains the 
sole authority to certify and accredit all of the approximately 3,100 
public safety bomb technicians assigned to 468 public safety bomb 
squads in the United States. The success of the public safety bomb 
technician community in the United States is, in large part, the result 
of standardized certification and render-safe procedure training. The 
standardized training at HDS enables bomb technicians assigned to 
different bomb squads to work effectively together in complex, multi-
jurisdiction operations, such as the Boston Marathon bombing response 
or the dozens of special events held each year, including the Super 
Bowl.
    HDS also provides advanced training in evolving threats such as 
radio-controlled IEDs, large vehicle-borne IEDs, suicide bombers, and 
improvised or homemade explosives. HDS develops and provides this 
training to address the threats posed by devices used by terrorists and 
criminal enterprises around the world. The intelligence that TEDAC 
provides through device exploitation is critical to defining and 
implementing advanced render safe training.
    Finally, standard certification and training is critical to 
national security as public safety bomb technicians trained at HDS are 
the first line of defense against the full spectrum of IED threats, 
including weapons of mass destruction (WMD). HDS trains bomb 
technicians to identify a potential WMD, to notify the FBI, and to 
integrate seamlessly with FBI Special Agent Bomb Technicians and 
national assets, should such resources be required. Without the 
standardized training that HDS provides, there is a real risk that 
Federal WMD response assets would not be notified about a potential WMD 
in time to take emergency action.
    In addition to TEDAC's identified role in the national Counter-IED 
strategy, the FBI, on behalf of the Department of Justice, leads the 
Joint Program Office for Countering IEDs, which coordinates the efforts 
of the Department and oversees the implementation of the U.S. policy to 
Counter IEDs.

    NCETR: The ATF's NCETR serves an integration function for ATF by 
bringing together NCETR resources with the United States Bomb Data 
Center, ATF's international bomb and arson training, ATF criminal 
investigations, ATF industry operations, TEDAC and HDS. NCETR also 
consolidates key ATF explosives, fire, canine, and response operations 
in Huntsville, Alabama. NCETR consists of the Explosives Enforcement 
and Training Division, the Explosives Research and Development 
Division, and the Fire Investigation and Arson Enforcement Division, 
all located at Redstone Arsenal, along with the National Canine 
Division in Front Royal, Virginia and ATF's partnership in the National 
Explosives Task Force in Washington, DC. ATF provides training 
facilities and the expertise of its training staff in the delivery of 
life-saving advanced explosives and arson training for our Nation's 
explosives handlers, bomb technicians, criminal investigators, State 
and local law enforcement personnel, and our military's EOD operators 
at NCETR.
    NCETR provides advanced explosives training and research that 
leverages lessons learned and best practices to provide focused support 
to ATF's core mission of investigating the criminal misuse of 
explosives and regulation of the industry, and to align this support 
with the whole-of-Government counter-IED effort.
    NCETR employs a layered approach to explosives training in support 
of the Whole of Government approach to the C-IED effort, and to meet 
the goals and tasks of the JPO Training and Operations working group. 
As an example, ATF's Advanced Explosives Disposal Techniques (AEDT) was 
developed by ATF and its State and local partners in the 1990's to 
address the high incidence of injuries and deaths to bomb technicians 
during explosives disposal operations. AEDT provides a ``cradle to 
grave'' approach to the identification, handling and disposal of 
commercial, military and homemade or improvised explosives materials. 
Everything from production methods, storage, explosives range 
management, environmental concerns, personal protective equipment and 
clothing, and the latest disposal tools and techniques are covered in 
AEDT. This includes a ground-breaking disposal tool and related 
techniques developed by an ATF agent, for which the U.S. Patent Office 
issued a patent. The tool and instruction on its application to 
disposal operations is given to every bomb technician attending the 
course.
    A follow up course entitled HME-Identification, Process and 
Disposal, furthers the bomb technicians' knowledge and confidence in 
the identification, processing, handling and disposal of some of the 
most dangerous explosives materials they will come in contact with, 
Homemade Explosives (HME). The HME course is attended by public safety 
bomb technicians as well as military Explosives Ordnance Disposal (EOD) 
personnel, stressing interoperability of personnel from both groups at 
scenes such as the Boston Marathon bombings.
    These are but two of the courses at NCETR that naturally complement 
the training delivered at the FBI's Hazardous Devices School, the 
school house for bomb technician certification and other advanced 
training.
    NCETR also provides training to military partners on a frequent 
basis. Through a long partnership and a full time liaison position with 
the Department of Defense (DOD), ATF delivers the HME-IPD course to a 
mixed class of public safety and military bomb technicians. NCETR 
program personnel have also developed HME-related and advanced Post-
Blast investigation courses in support of requests by U.S. military 
command staff to support the NATO Centers of Excellence in Spain and 
Slovakia.
    ATF is the only U.S. Government (USG) agency with fire and arson 
investigation as part of its core mission, and the sole USG agency with 
Special Agents qualified to testify as expert witnesses as to fire 
origin and cause, through the Certified Fire Investigator training 
program managed by NCETR. The programs that support that mission are 
now located at NCETR, including integrating ATF's fire investigation 
and arson enforcement operational and training programs, and support to 
the field through the National Response Teams, Certified Fire 
Investigators, and bomber and arsonist Profilers.
    Operationally, NCETR oversees the National Response Team, which 
responds to major bombings and explosions, IED incidents, as well as 
fire and arson incidents that require resources beyond the capabilities 
of State and local partner agencies. NCETR also oversees the combined 
Certified Explosives Specialist and Explosive Enforcement Officer 
program, ATF's subject matter experts for criminal investigations of 
matters related to explosions, bombings, explosives, IEDs and related 
activity. Not only does NCETR manage the training of these personnel, 
but it also coordinates the operational responses of personnel from 
across the country to large incidents anywhere in the U.S., and to 
locations outside the U.S. on request from foreign partners through the 
U.S. State Department. Well over 90 percent of the criminal acts 
involving explosions, explosives and bombings are non-terrorism related 
and ATF has responsibility for investigation of these incidents, as 
well as the origin and cause investigation of accidental explosions.
    The Explosives Research and Development Division (ERDD) at NCETR 
also supports ATF's role in the national security framework through a 
number of projects and ongoing and developing partnerships. ERDD is 
near completion in development of a $2.2 million project to develop a 
homemade explosive synthesis capability/laboratory on Corkern Range. 
These range modifications include two portable explosives synthesis 
buildings, an extensive instrumentation capability, an explosive 
storage magazine, and hazardous materials storage. The research and 
testing that will be carried out on ATF's Corkern Range will support a 
wide range of government projects in support of the Nation's C-IED 
strategy, as well as ATF's explosives enforcement and regulatory 
missions.
    ATF also has the sole responsibility for the regulation of the 
explosives industry, which is supported by NCETR training efforts. ATF 
Industry Operations Investigators (IOIs) attend Advanced Explosives 
Training for Investigators (AETI) at NCETR, focusing on the procedures 
required for completing the safe execution of inspections of Federal 
explosives licensee premises, as required by the Safe Explosives Act of 
2002.
                       ig access to doj documents
    Question. Do you believe that the Inspector General should have to 
seek your approval to access grand jury documents relevant to ongoing 
investigations?
    Lead-in information from original document.--
          I am very concerned about the issues that have been raised by 
        the Inspector General. Congress has been clear, as has this 
        Committee, that the Inspector General must have unfettered 
        access to any and all documents necessary to carry out his 
        duties.

    Answer. The Department's leadership appreciates the importance of 
access to information, including information subject to statutory 
disclosure restrictions, to the Office of the Inspector General's 
(``OIG'') ability to perform its oversight function and complete its 
investigations and reviews effectively. However, where there are legal 
restrictions on what the Department can do with certain sensitive 
information, the Department is obligated to ensure that any 
distribution of the information is consistent with those congressional 
directives. The Department takes its obligation to abide by these legal 
requirements very seriously.
    Section 6(a)(1) of the Inspector General Act of 1978 appropriately 
provides the Inspector General with broad access to the records in the 
Department. See 5 U.S.C. App. 3, Sec. 6(a)(1). However, Congress also 
has enacted strict limits on the disclosure and dissemination of 
certain categories of sensitive information. For instance, in Federal 
Rule of Criminal Procedure 6(e), Congress codified the venerable 
tradition of grand jury secrecy by barring an ``attorney for the 
Government'' and other enumerated persons from disclosing ``a matter 
occurring before the grand jury.'' Fed. R. Crim. P. 6(e)(2)(B). 
Similarly, in the Federal Wiretap Act, Congress expressly made it a 
crime to disclose information intercepted on a wiretap ``[e]xcept as 
otherwise specifically provided in this chapter,'' and delineated the 
narrow conditions under which investigative and law enforcement 
officers might intercept, use, or disclose wiretap information. See 18 
U.S.C. Sec. Sec. 2511(1); 2516; 2517 (Title III).
    The interaction between the general access provision in the 
Inspector General Act and Congress's specific statutory directives 
regarding the handling of sensitive information, such as Rule 6(e) and 
Title III, presents an unsettled and potentially complex legal 
question. As such, when questions regarding OIG's access to such 
materials arose in 2011 in connection with two OIG reviews, the 
Department sought to identify avenues within the relevant statutes that 
would permit disclosure of the requested materials to the Inspector 
General.
    First, in connection with the material witness review, the 
Department concluded that Rule 6(e)(3)(D) authorized an attorney for 
the Government to disclose responsive grand jury information involving 
foreign intelligence to the OIG. The Department determined that the 
Inspector General was a Federal law enforcement official authorized to 
receive access to grand jury information involving foreign intelligence 
under this provision, and the disclosure would assist her in connection 
with the performance of her law enforcement duties, given that the 
material witness review involved allegations of misconduct by law 
enforcement agents that potentially reflected a violation of criminal 
law. Likewise, the Department concluded that section 2517(1) permitted 
the Federal Bureau of Investigation to disclose Title III wiretap 
information to the OIG in connection with the material witness review 
because OIG agents are ``investigative officers'' entitled to receive 
wiretap information in connection with their law enforcement duties. 
Again, since the material witness review involved allegations of 
misconduct by law enforcement agents that potentially reflected a 
violation of criminal law, this OIG review fulfilled the statutory 
requirement that disclosure be in connection with law enforcement 
duties.
    With respect to the review of Operation Fast & Furious and related 
investigations, the Department concluded that Federal Rule of Criminal 
Procedure Rule 6(e)(3)(A)(ii) authorized the Attorney General, an 
``attorney for the Government,'' to disclose grand jury information to 
Government personnel in the OIG as necessary to the performance of the 
Attorney General's duty to enforce Federal criminal law, including his 
supervisory responsibilities over the Department's programs, policies, 
and practices related to the enforcement of Federal criminal law.
    The Department is unaware of any specific materials that the OIG 
believed necessary to its reviews, but to which the OIG was not granted 
access. However, in light of the Inspector General's continued interest 
of in addressing the legal issues implicated by the competing 
congressional directives in section 6(a)(1) of the Inspector General 
Act and other statutes limiting the disclosure and dissemination of 
particular categories of sensitive information, the Department has 
requested formal Office of Legal Counsel (OLC) guidance. As we have 
informed the Department's OIG, if the outcome of the OLC's legal review 
does not assure the OIG of the access it needs to carry out its 
mission, the Department intends to work with that office to develop 
appropriate legislative remedies.
    Question. What law or laws, in your view, prohibit the Inspector 
General from obtaining access to documents directly relevant to ongoing 
audits or investigations?
    Answer. It is not the case that statutes restricting the disclosure 
of sensitive information necessarily ``prohibit'' the OIG from 
obtaining access to documents. As we explained in response to the 
previous question, the Department has found ways to disclose the 
requested information to the OIG pursuant to exceptions to the 
statutory prohibitions. Examples of statutes that we have had occasion 
to consider in the context of OIG requests include the restrictions 
contained in Federal Rule of Criminal Procedure 6(e) (grand jury 
information); the Federal Wiretap Act, Title III of the Omnibus Crime 
Control and Safe Streets Act of 1968 (information obtained by wiretap); 
and section 1681u(f) of the Fair Credit Reporting Act (financial 
information obtained from credit agencies by FBI national security 
letters). The Department has not conducted a comprehensive survey of 
all statutes that might potentially restrict the disclosure of 
sensitive information in a manner that would raise a significant legal 
question about whether those statutory provisions limit the Inspector 
General's access to the covered information.
    Question. If it is your view that there are specific laws that 
prohibit the Inspector General from having access to documents directly 
relevant to ongoing audits or investigations, what are the relevant 
sections within those laws granting you, the Attorney General, the 
authority to preempt those prohibitions?
    Answer. As just described, statutory provisions restricting the 
disclosure of certain categories of information generally contain 
exceptions that might allow the OIG access to protected information in 
connection with investigations and audits. Some of these exceptions are 
premised on a determination by the Attorney General or another attorney 
responsible for conducting or supervising the prosecution of violations 
of Federal criminal law. Where the statute provides an exception to the 
general bar on disclosure that is premised on a determination by the 
Attorney General or another attorney for the Government, such a 
determination would be a prerequisite to the Inspector General gaining 
access to statutorily protected information under that provision. A 
determination by the Attorney General or another qualifying attorney 
authorizing the OIG to access the information, however, does not 
``preempt'' a statutory bar on disclosure; rather, the determination 
that disclosure to the OIG is appropriate is simply an application of 
the terms of an exception Congress set out in the relevant statute. The 
Department is unaware of any specific materials that the OIG believed 
necessary to its reviews, but to which the OIG was not granted access.
    Question. You mentioned that you have never denied the Inspector 
General's request to access documents. However, if that situation were 
to arise, what recourse would the Inspector General have, in your view, 
to appeal or challenge that decision?
    Answer. As stated above, the Department is committed to continuing 
to ensure that, consistent with applicable legal requirements, the OIG 
has access to all of the information it believes necessary to complete 
its reviews. Indeed, the Department is unaware of any specific 
materials that the OIG believed necessary to its reviews, but to which 
the OIG was not granted access. The Department has requested a formal 
opinion from OLC to address the legal issues implicated by the 
competing congressional directives in section 6(a)(1) of the Inspector 
General Act and other statutes limiting the disclosure and 
dissemination of particular categories of sensitive information. This 
request is pending. If the outcome of the OLC's legal review does not 
assure the OIG of the access it needs to carry out its mission, the 
Department intends to work with that office to develop legislative 
remedies. In the meantime, if the Inspector General were dissatisfied 
with the access to statutorily protected information the Department 
afforded him, he could ask the Attorney General to reconsider any 
determination made regarding the application of a statutory exception.
    Question. Since there has never been an official ruling by the 
Office of General Counsel at the Department of Justice regarding access 
to documents by the Inspector General, would you be willing to see an 
official ruling from the General Counsel on these matters? If so, when 
could we expect you to do so?
    Answer. As stated above, the Department has requested a formal 
opinion from OLC to address the legal issues implicated by the 
competing congressional directives in section 6(a)(1) of the Inspector 
General Act and other statutes limiting the disclosure and 
dissemination of particular categories of sensitive information. This 
request is pending.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
                           meth in tennessee
    Question. Given that the methamphetamine epidemic is one of the 
most urgent drug problems facing our Nation, especially in rural 
communities with limited resources, why isn't the Department doing more 
to expand the Clandestine Drug Laboratory Cleanup Program?
    Answer. Tennessee has been participating in the Drug Enforcement 
Administration's (DEA's) Authorized Central Storage (ACS or 
``Container'') Program since July 2011. DEA receives funding for the 
Clandestine Drug Laboratory Cleanup Program from the Community Oriented 
Policing Services (COPS) program to assist State and local law 
enforcement with clandestine methamphetamine lab cleanups and training. 
After a shutdown of the cleanup program in February 2011 due to lack of 
funding, COPS funding was restored to restart the program in fiscal 
year 2012. Since that time DEA aggressively worked to expand the 
Container Program. There are currently 18 States with signed Letters of 
Agreement (LOA) with DEA for Container Programs with two more expected 
to be added by fiscal year 2016:
  --At the end of fiscal year 2011, there were six States with 
        operational container programs (Illinois, Indiana, Alabama, 
        Kentucky, Oklahoma, and Tennessee).
  --In fiscal year 2012, seven additional States (Arkansas, Michigan, 
        Virginia, Ohio, North Carolina, Mississippi, and Florida) were 
        operational.
  --In fiscal year 2013, Kansas, New York, and Pennsylvania signed 
        Letters of Agreement, which are expected to become operational 
        in fiscal year 2014.
  --In 2014, two States (Georgia and Iowa) were added and became 
        operational.
    Because of the expansion of the Container Program, DEA has been 
able to keep program costs down. This has allowed DEA to fulfill meth 
lab cleanup and training requests from the States participating in the 
Container Program, as well as fund on-site cleanups in the lower volume 
States that do not have high enough demand to sustain a Container 
Program economically. The Container Program has resulted in significant 
cost savings in States that have operational Container Programs (a 
contractor cleanup averages $2,730, while a container cleanup averages 
$306). In fiscal year 2013, DEA funded a total of 7,891 lab cleanups. 
Included in the total are the pickup and disposal of 7,099 labs through 
220 Container Program pickups from the 10 States participating in the 
program, and 792 State and local cleanups DEA administered during the 
same time period. In fiscal year 2014, DEA funded a total of 8,213 lab 
cleanups. Included in the total are the pickup and disposal of 7,880 
labs through 248 Container Program pickups from the 16 States 
participating in the program, and 333 State and local cleanups DEA 
administered during the same time period. While Kansas, New York and 
Pennsylvania have signed LOA's, they are not yet operational.
    At the clandestine lab training facility, DEA trains Federal, 
State, local, and foreign law enforcement officials on the latest 
techniques in clandestine laboratory detection, enforcement, and 
safety. In fiscal year 2013, DEA provided clan lab training to 1,696 
State and local law enforcement officers. In fiscal year 2014, DEA has 
provided clan lab training to 1,484 State and local law enforcement 
officers. Overall, DEA trained 39,932 law enforcement officers in 
fiscal year 2014. In addition to State and Local Clandestine Laboratory 
Certification Training, DEA also provided Site Safety Training, 
Tactical Training, and the FBI's National Improvised Explosive 
Familiarization Training course, which was also attended by the 
National Guard.
    Question. Last year Congress provided $7.5 million for a 
competitive grant program for State Anti-Methamphetamine Task Forces. 
When will the Department allow States to apply for these funds? What 
criteria will the Department use to evaluate proposals from States?
    Answer. The fiscal year 2014 COPS Anti-Methamphetamine Program 
(CAMP) was designed to advance public safety through providing funds to 
investigate illicit activities related to the manufacture and 
distribution of methamphetamine. Funds awarded in this program shall be 
used for investigative purposes to locate or investigate illicit 
activities, including precursor diversion, laboratories, or 
methamphetamine traffickers through State and local collaboration. The 
COPS Office received 19 eligible applications and made 10 awards 
totaling approximately $6 million.

Funding Provisions:

  --Fiscal year 2014 CAMP grants provided funding for 24 months to 
        State law enforcement agencies for equipment, overtime and 
        other approved personnel costs for law enforcement officers 
        assigned to the investigation of methamphetamine production and 
        trafficking.
  --Funding awarded to State law enforcement agencies may be used to 
        support law enforcement personnel costs for allied agencies' 
        officers participating in a State anti-methamphetamine task 
        force.
  --The COPS Office has identified an ``up to $1 million'' cap on award 
        amounts.

Eligibility:

  --The fiscal year 2014 COPS Anti-Methamphetamine Program was a 
        targeted competitive solicitation which will focus on funding 
        State law enforcement agencies (note: this does not include DC, 
        tribal agencies or the territories) with identified meth 
        problems, as indicated through the following sources:
    --Meth lab seizures data
    --Precursor chemicals seizures data
    --Meth-related arrests data
    --Drug arrests for Meth
  --State law enforcement agencies eligible to apply include, but are 
        not limited to the following:
    --State AG's Offices
    --State Bureaus of Investigation
    --State Park Police
    --State Police Agencies
                 doj efforts to fight counterfeit drugs
    Question. What steps have you taken to meet that requirement? What 
challenges does the Department face prosecuting these cases, and does 
the Department need increased resources or authorities to improve law 
enforcement efforts against counterfeit drugs?
    Lead-in information from original document.--
          Drug counterfeiting is a serious public health threat. Nearly 
        40 percent of the drugs Americans take are made abroad, and 
        about 80 percent of the active pharmaceutical ingredients used 
        in our drugs are manufactured overseas. The Department and U.S. 
        Attorney offices across the country play a critical role in 
        fighting counterfeit drugs by investigating and prosecuting 
        illegal counterfeiting activity. For example, last year three 
        individuals were indicted in the Middle District of Tennessee 
        for obtaining prescription drugs from ``street collectors'' in 
        New York and Miami and selling them as if they had been 
        obtained from the wholesale distribution market. Also last 
        year, 11 people were indicted for illegal importation and 
        distribution of counterfeit drugs from Turkey, India, and 
        Switzerland. Law enforcement agencies face substantial 
        challenges investigating and prosecuting these often complex, 
        global crime operations. The operations are often located 
        abroad and scattered in several countries. Law enforcement 
        needs assistance from foreign regulators and foreign law 
        enforcement officials to obtain information and gather 
        evidence, which those countries are often unable or unwilling 
        to provide.
          The 2012 Food and Drug Administration Safety and Innovation 
        Act (FDASIA) directed the Attorney General to give a higher 
        priority to the prosecution of cases involving counterfeit 
        drugs.

    Answer. The Department has taken a number of steps to meet the 
requirement of the 2012 Food and Drug Administration Safety and 
Innovation Act (FDASIA).
    In combatting counterfeit drugs, the Department of Justice holds 
the primary responsibility for the enforcement of intellectual property 
rights. The enforcement of such rights is vital in ensuring the safety 
and efficacy of the drugs that Americans take every day. Formed in 
2010, the Department of Justice Task Force on Intellectual Property 
monitors and coordinates overall intellectual property enforcement 
efforts at the Department and ensures that it continues to remain a 
priority. It is chaired by the Deputy Attorney General. Under the 
leadership of the Intellectual Property Task Force, the FBI, and 
Justice Department components including the Criminal, Civil and 
Antitrust Divisions and the Bureau of Justice Affairs have worked to 
improve the protection of intellectual property, both in the U.S. and 
abroad. Upon the release of the administration's 2013 Joint Strategic 
Plan on Intellectual Property Enforcement (JSP), the Attorney General, 
in a posting on the Department of Justice Web site, stated, ``the 
Department and its partners stand poised to take these critical efforts 
to a new level.'' The posting is available at, http://
blogs.justice.gov/main/archives/3017. The Department's core role within 
the JSP includes forging law enforcement partnerships, dedicating grant 
funding to these partners, and increased enforcement against 
counterfeit drug trafficking organizations.
    Through the Office of Justice Programs' Intellectual Property 
Enforcement Program, the Bureau of Justice Assistance (BJA) funds State 
and local projects that emphasize collaboration and coordination with 
all relevant enforcement organizations, including prosecutors, 
multijurisdictional task forces, and appropriate Federal agencies 
(e.g., local Federal Bureau of Investigation offices and U.S. 
Attorneys' Offices) in the enforcement of Intellectual Property (IP) 
laws. Specifically in the area of counterfeit drugs, the Bureau of 
Justice Assistance administered a grant in fiscal year 2014, for 
Protecting Public Health, Safety, and the Economy from Counterfeit 
Goods and Product Piracy. This funding provided national support for 
and to improve the capacity of State, local, and tribal criminal 
justice systems to address intellectual property criminal enforcement. 
BJA also offered funding for National Training and Technical Assistance 
for the Intellectual Property Enforcement Program. Additionally, the 
National Crime Prevention Council (NCPC), supported by BJA, developed a 
research-based public outreach campaign to educate the public on IP 
crimes in general, particularly about the health and safety risks that 
result from IP crime.
    The Department, through the U.S. Attorneys' Offices (USAOs), the 
Computer Crime & Intellectual Property Section (CCIPS) in the Criminal 
Division and the Consumer Protection Branch (CPB) in the Civil 
Division, has continued to prioritize and pursue investigations and 
prosecutions in every priority area identified by the Department of 
Justice Task Force on Intellectual Property (``IP Task Force'' or 
``IPTF''), including cases involving health and safety, trade secret 
theft and economic espionage, large-scale online piracy and 
counterfeiting, and links to organized criminal enterprises. The JSP 
details ongoing enforcement initiatives, including the Federal Bureau 
of Investigation Intellectual Property Program, and is located at, 
http://www.whitehouse.gov/sites/default/files/omb/IPEC/2013-us-ipec-
joint-strategic-plan.pdf.
    The passage of the 2012 Food and Drug Administration Safety and 
Innovation Act provided the Department with enhanced penalties under 
Title 18 for trafficking in counterfeit drugs. The cases below 
illustrate recent action taken by the Department to hold those 
accountable for distributing misbranded, unapproved, adulterated, or 
counterfeit drugs.
  --On February 20, 2014, Ricky Lee Campbell, of Sacramento, 
        California, pleaded guilty to conspiracy to traffic in 
        counterfeit pharmaceuticals. The U.S. Attorney's Office for the 
        Eastern District of California successfully prosecuted Campbell 
        and his co-defendant, Susan Yvonne Eversoll. The defendants 
        offered Viagra and Cialis for sale using CraigsList, 
        Pennysaver, and via text message blasts. Searches of Campbell 
        and Eversoll's residences produced more than 6,000 counterfeit 
        tablets of Viagra and Cialis. Eversoll pleaded guilty to the 
        conspiracy in December 2013, and was sentenced on March 6, 
        2014, to 18 months in prison. Campbell was sentenced on May 8, 
        2014 to a term of 41 months imprisonment, to be followed by 16 
        months of supervised release.
  --The United States Attorney's Office for the Eastern District of 
        Missouri announced on January 16, 2014, that two Turkish 
        nationals were charged with obtaining unapproved, misbranded, 
        adulterated and counterfeit cancer treatment prescription drugs 
        from Turkey and other foreign countries and smuggling the drugs 
        into the United States, including three shipments sent from 
        Turkey to Chesterfield, Missouri. According to court filings, 
        the defendants were employees of a Turkish prescription drug 
        wholesaler. They used shipping labels that concealed the 
        illegal nature of the prescription drug shipments, including 
        customs declarations falsely describing the contents as 
        ``gifts'' or ``documents'' or ``product sample'' with no or low 
        declared monetary values.
  --In January, 2014, the Southern District of Texas and the Criminal 
        Division successfully prosecuted a defendant for conspiracy to 
        import counterfeit and misbranded drugs. A total of 3,200 
        counterfeit Viagra and 4,000 counterfeit Cialis pills were sent 
        from China to the defendant's home. Although the pills looked 
        authentic, when tested, law enforcement determined that the 
        counterfeit Viagra had less active pharmaceutical ingredient 
        than was stated on the packaging, and the counterfeit Cialis 
        did not contain any of the brand's active pharmaceutical 
        ingredients.
  --The Criminal Division successfully prosecuted defendant Grisel 
        Azcuy in the Eastern District of New York on December 10, 2013, 
        for conspiracy to traffic in counterfeit goods and distribute 
        misbranded drugs in violation of 18 U.S.C. Section 371 and 
        conspiracy to distribute and possess with intent to distribute 
        pharmaceutical drugs that included oxycodone, hydrocodone, 
        alprazolam and diazepam in violation of 21 U.S.C Sections 846 
        and 841.
  --The U.S. Attorney's Office for the Southern District of California 
        announced on September 12, 2013, that defendant Martin Paul 
        Bean III was sentenced to serve 24 months in custody for his 
        role in a scheme to sell unapproved foreign oncology drugs to 
        doctors in the United States. Bean had pleaded guilty to 
        conspiracy to commit a number of Federal offenses, including 
        wire fraud, mail fraud, selling unapproved drugs, selling 
        misbranded drugs, and importing merchandise contrary to law. In 
        pleading guilty, Bean admitted that between February 24, 2005 
        and October 30, 2011, he operated a business (GlobalRx Store) 
        from his residence in Florida and unlawfully sold over $7 
        million of prescription oncology drugs to doctors throughout 
        the United States. Bean ordered unapproved drugs from foreign 
        sources, including sources in Turkey, India, and Pakistan, and 
        sold them to doctors within the United States at substantially 
        discounted prices.
  --The U.S. Attorney's Office for the Eastern District of Pennsylvania 
        announced, on September 11, 2013, that Naman Bader of 
        Philadelphia received a 12-month prison sentenced for smuggling 
        and illegally distributing more than 2 million prescription 
        pills, such as Xanax, Valium, phentermine, Ativan, Klonopin, 
        Ambien, and their generic equivalents, valued at approximately 
        $10,310,406. Additionally, approximately 25,000 counterfeit 
        Viagra and Cialis pills were seized in international mail 
        parcels during the course of the investigation. Bader's co-
        conspirator, Rehan Shah, was sentenced on December 5, 2012, to 
        15 months in prison.
  --The U.S Attorney's Office for the Southern District of Texas and 
        the Criminal Division announced on August 6, 2013 the arrests 
        of two individuals, Jamal Khattab, of Katy, Texas, and Fayez 
        Al-Jabri, of Chicago, for allegedly conspiring to traffic in 
        counterfeit and misbranded medicine, specifically Viagra. The 
        indictment charged Khattab with one count of conspiracy, one 
        count of smuggling goods into the United States, two counts of 
        trafficking in counterfeit goods, two counts of trafficking in 
        misbranded drugs and two counts of trafficking in counterfeit 
        drugs. Al-Jabri was charged with one count of trafficking in 
        counterfeit goods, one count of trafficking in misbranded drugs 
        and one count of trafficking in counterfeit drugs. Jamal 
        Khattab was sentenced on August 15, 2014 to a term of 21 months 
        incarceration, 1 year of supervised release, and payment of 
        $7,000 in restitution, plus a $300 special assessment. Fayez 
        Al-Jabri was sentenced on July 17, 2014 to a term of 41 months 
        incarceration, 3 years of supervised release, and payment of 
        $15,066.92 in restitution.
  --On June 27, 2013, the U.S. Attorney's Office for the District of 
        Colorado obtained, and the U.S. Food and Drug Administration 
        (FDA), executed seizure warrants for 1,677 Web sites that were 
        illegally selling counterfeit or misbranded drugs that 
        purported to be brand name pharmaceuticals. This enforcement 
        action was coordinated as part of as part of International 
        Internet Week of Action, and in conjunction with Interpol's 
        Operation Pangea VI. Many of the sites falsely claimed to be 
        hosted in Canada, while others falsely claimed to be affiliated 
        with major U.S. pharmacy retailers by using the names of those 
        retailers in the domain names. Drugs purchased from the sites 
        provided did not have FDA approval and did not have Canadian 
        origins. The Web sites offered medications to treat, among 
        other things, conditions related to diabetes, schizophrenia, 
        pain and inflammation.
  --On April 18, 2013, the U.S. Attorney's Office for the Northern 
        District of Illinois announced the indictment of a pharmacist 
        on 15 counts of violating the FD&C Act and FDASIA for obtaining 
        counterfeit Viagra and Cialis from China and illegally 
        dispensing the bogus medications at his pharmacy.
  --The U.S. Attorney's Office for the Central District of California 
        successfully prosecuted Edward Alarcon for a plot in which he 
        possessed, and had the intent to distribute for profit, more 
        than 2,000 Chinese-made counterfeit and misbranded Viagra 
        pills. After a 3-day jury trial in January 2013, Alarcon was 
        convicted on two counts of trafficking in counterfeit OxyContin 
        and Cialis. The evidence presented at trial showed that Alarcon 
        had purchased the bogus OxyContin from Bo Jiang, a Chinese 
        national and the alleged head of a counterfeit drug ring. 
        Alarcon had offered to sell counterfeit Cialis, Viagra and 
        Levitra on Craigslist. The district court judge sentenced the 
        defendant to 15 months in Federal prison on April 4, 2013. In a 
        related case, Francis Ortiz Gonzalez, who worked as a 
        ``dropshipper'' for Jiang in the United States, was sentenced 
        in January 2014 to 2 years in Federal prison and ordered to pay 
        $324,530 in restitution for trafficking counterfeit 
        pharmaceuticals.
    You have asked about challenges the Department faces in prosecuting 
these cases involving counterfeit drugs, including resource challenges.
    In March 2011, the U.S. Intellectual Property Enforcement 
Coordinator publically released a White Paper on Intellectual Property 
Enforcement Legislative Recommendations and it is accessible at, http:/
/www.whitehouse.gov/sites/default/files/ip_white_paper.pdf. In this 
White Paper, the administration recommended six legislative changes to 
improve U.S. enforcement efforts involving pharmaceuticals, including 
counterfeit drugs:
    1.  Require importers and manufacturers to notify the FDA and other 
relevant agencies when they discover counterfeit drugs or medical 
devices, including the known potential health risks associated with 
those products;
    2.  Extend the Ryan Haight Act's definition of ``valid 
prescription'' (and its telemedicine exemption) under the Federal Food, 
Drug, and Cosmetic Act (FFDCA) to drugs that do not contain controlled 
substances;
    3.  Adopt a track-and-trace system for pharmaceuticals and related 
products;
    4.  Provide for civil and criminal forfeiture under the FFDCA, 
particularly for counterfeit drug offenses;
    5.  Increase the statutory maximums for drug offenses under the 
FFDCA, particularly for counterfeit drug offenses; and
    6.  Recommend that the U.S. Sentencing Commission increase the U.S. 
Sentencing Guideline range for intellectual property offenses that risk 
death and serious bodily injury, and for those offenses involving 
counterfeit drugs (even when those offenses do not present that risk).
    The Department recognizes recent congressional action, but also 
reiterates the need for implementation of the other recommendations 
noted in this White Paper. For example, many online pharmacies sell 
prescription drugs that are not controlled substances under Federal 
law. Non-controlled prescription drugs are regulated under the FFDCA 
and require a valid prescription, but the FFDCA does not define what 
constitutes a valid prescription. Currently, States have different 
definitions of what constitutes a valid prescription. Internet 
pharmacies typically operate across State lines. The pharmacy may be in 
one State (or overseas), the doctor who issues the prescription may be 
in another State, and the customer may be located in a third State. In 
such cases, it is not clear which State law applies. Extending the Ryan 
Haight Act's definition of ``valid prescription'' to non-controlled 
prescription drugs would help standardize what constitutes a valid 
prescription. A Federal definition of what constitutes a ``valid 
prescription'' for non-controlled prescription drugs would also provide 
clarity in Internet pharmacy investigations where there is a question 
as to whether the drugs are being dispensed pursuant to a valid 
prescription.
    Prosecuting foreign Internet pharmacies for dispensing controlled 
and non-controlled prescription drugs under FFDCA presents some unique 
challenges for the Department of Justice. The Government Accountability 
Office (GAO) noted in a report released in July 2013 the substantial 
challenges in the criminal investigation of rogue Internet pharmacy 
operators, include the increasingly complex nature of the criminal 
organizations and the difficulties in pursuing investigations and 
prosecutions of conduct that occur mainly overseas and often span 
several foreign countries. For example, the Department may have 
difficulties prosecuting an offender because of the lack of an 
extradition treaty between the foreign country and the United States. 
The report is available at http://www.gao.gov/assets/660/655751.pdf and 
further details these challenges.
    Question. What has the Department and its current intellectual 
property law enforcement coordinators done to help stop the tide of 
counterfeit and unsafe pharmaceuticals from hitting our shores? Are 
there any recent joint operations with our partners in Asia that have 
been successful? What are the greatest challenges that you see in 
countries like China and India?
    Lead-in information from original document.--
          The Department of Justice currently funds 22 positions 
        focusing on intellectual property crime and has requested 
        funding for an additional 11 positions, including two 
        International Computer Hacking and Intellectual Property 
        Coordinators (ICHIPs).

    Answer. As detailed in the Department's Prioritizing Resources and 
Organization for Intellectual Property (PRO IP) Act Annual Report for 
fiscal year 2013, the Department has prioritized cases involving public 
health and safety, including prosecuting the importers and distributors 
of counterfeit and sub-standard medicines. These cases may fall under 
the prohibition against trafficking in counterfeit goods (18 U.S.C. 
Sec. 2320) or the Federal Food, Drug and Cosmetic Act (21 U.S.C. 
Sec. Sec. 351, 352).
    By working closely with investigative agencies and the National IPR 
Coordination Center, the Department has successfully prosecuted 
numerous cases involving counterfeit pharmaceuticals imported from 
overseas. Some recent examples include:
  --In January 2014, two Turkish nationals were charged in the Eastern 
        District of Missouri with obtaining unapproved, misbranded, 
        adulterated, and counterfeit cancer treatment and prescription 
        drugs from Turkey and other foreign countries and smuggling the 
        drugs into the United States.
  --In January 2014, a Texas resident pleaded guilty to conspiring to 
        import and attempting to traffic counterfeit drugs. The 
        counterfeit pharmaceuticals, which either did not contain any 
        active ingredient or contained an insufficient amount of the 
        active ingredient, were sent to the defendant's home in Texas 
        from China in open foil blister packs without packaging or 
        labels.
  --In December 2013, a Chicago resident pleaded guilty to conspiring 
        to traffic and trafficking in counterfeit and misbranded 
        pharmaceuticals. The defendant smuggled the counterfeit drugs 
        from China into the United States in bulk for later 
        distribution in smaller quantities. As part of the 
        investigation, an undercover agent successfully infiltrated the 
        counterfeit pharmaceutical trafficking organization and 
        received approximately 17,000 counterfeit and misbranded Viagra 
        tablets over a two-and-a-half year period.
  --In April 2013, an Illinois resident was charged with trafficking in 
        counterfeit drugs, violating the Federal Food, Drug, and 
        Cosmetic Act in connection with illegally obtaining drugs from 
        China and dispensing them at his pharmacy.
  --In January 2013, a Puerto Rican man was sentenced to 2 years in 
        prison for being a key member of an organization that 
        distributed large quantities of Chinese-made, counterfeit 
        pharmaceuticals across the United States. The defendant worked 
        as a ``dropshipper'' for the counterfeit drug ring allegedly 
        headed by a Chinese national whose last known residence was in 
        New Zealand. The purported head of the drug ring was arrested 
        by New Zealand law enforcement pursuant to a provisional arrest 
        warrant, but he fled shortly after being released on bond and 
        remains a fugitive. In a related case, in April 2013, a 
        California resident was sentenced to 15 months in prison for 
        his role in a scheme to distribute the Chinese-made counterfeit 
        pharmaceuticals. He purchased the drugs from the alleged head 
        of the counterfeit drug ring and offered to sell them on 
        craigslist.
  --In October 2012, a New Zealand physician was sentenced to 18 months 
        in prison after pleading guilty to three counts of trafficking 
        in counterfeit pharmaceuticals. The investigation into the 
        defendant's illicit activities began in 2006 after Customs and 
        Border Protection intercepted a parcel shipped from China 
        containing counterfeit drugs, and the defendant was identified 
        as the sender. The defendant was originally indicted in 
        December 2007, but remained at large until March 2012 when he 
        was arrested at San Francisco International Airport flying into 
        the United States from Hong Kong.
  --In September 2012, a Puerto Rican distributor of counterfeit 
        pharmaceuticals was sentenced to 21 months in prison. The 
        pharmaceuticals were exported from China into Puerto Rico, 
        where the defendant re-shipped the drugs into other U.S. 
        locations, including to undercover agents in Houston.
  --In July 2012, a California man was sentenced to 1 year and a day in 
        prison after pleading guilty to trafficking in counterfeit 
        pharmaceuticals. The defendant admitted that he imported these 
        products into the United States from China and India and then 
        sold the pills on craigslist.
    In addition to seizing counterfeit and misbranded drugs and 
prosecuting the distributors, the Department has seized websites used 
to facilitate distribution of illegal sales of pharmaceuticals:
  --In June 2013, the U.S. Attorney's Office for the District of 
        Colorado and the Food and Drug Administration seized 1,600 
        domain names associated with Web sites selling counterfeit or 
        misbranded drugs as a part of INTERPOL's Operation Pangea VI, 
        an international week of action targeting the online sale of 
        counterfeit and illicit medicines.
  --In October 2012, in Operation Bitter Pill, Homeland Security 
        Investigations in coordination with the Department of Justice 
        seized 686 Web sites illegally selling counterfeit 
        pharmaceuticals. The operation was part of INTERPOL's Operation 
        Pangea V.
    The Department also works closely with the State Department to 
provide training in effective law enforcement techniques to reduce the 
trade in illicit pharmaceuticals into developing countries. The sale of 
counterfeit medicines in developing countries can simultaneously 
destroy the market for legitimate products and have devastating health 
consequences on the local population. As part of a multi-year series of 
programs to build IP enforcement capacity, the Department, working with 
the World Customs Organization, was able to support a 23-nation effort 
to seize counterfeit medicines across the African continent which 
resulted in the seizure of more than 550 million doses of counterfeit 
medicine during a 10-day period in April 2013.
    In addition to our efforts to increase awareness and enforcement in 
consumer countries, we continue to develop cooperative law enforcement 
mechanisms to pursue a range of IP offenses in source countries, 
including the ongoing effort to reach the producers of counterfeit and 
substandard pharmaceuticals.
  --The U.S.-China Joint Liaison Group's Intellectual Property Criminal 
        Enforcement (JLG IP) working group provides a forum to discuss 
        ways to improve law enforcement cooperation and coordination on 
        intellectual property matters, including counterfeit 
        pharmaceuticals, and to exchange information and coordinate 
        enforcement activities. The JLG IP working group is co-chaired 
        by China's Ministry of Public Security and DOJ's Criminal 
        Division. The JLG IP working group coordinates with U.S. law 
        enforcement officials in China to facilitate the exchange of 
        evidence.
  --In May 2013, the Department of Justice hosted the third 
        Intellectual Property Crime Enforcement Network (IPCEN) 
        conference in Bangkok, Thailand. Sixty intellectual property 
        crime investigators and prosecutors from the 10 members of the 
        Association of South East Asian Nations (ASEAN), as well as 
        South Korea and China, attended. The IPCEN conference is 
        designed to help prosecutors and investigators in the region 
        develop a network of IP enforcement authorities and foster 
        bilateral and regional cooperation in IP cases, including 
        counterfeit pharmaceutical cases.
    There are no recent examples of joint operations with our partners 
in Asia that are public at this time. However, we have seen a 
substantial increase in the willingness of law enforcement officials in 
some producer nations to cooperate in the disruption of counterfeit 
pharmaceutical manufacturing facilities, and we are looking for 
opportunities to develop joint operations through the IPCEN and JLG.
    In India we have been challenged by the lack of a central law 
enforcement authority with jurisdiction over counterfeit and 
substandard pharmaceutical investigations, making a coordinated 
approach to enforcement difficult. Additionally, larger issues relating 
to patent enforcement and access to medicines in India often limit 
political will and overshadow efforts at cooperative action against 
counterfeit pharmaceuticals.
    In China, law enforcement officials recognize the growing threat of 
counterfeit pharmaceuticals to the Chinese population and take well-
publicized actions to cut down on domestic IP crime. Chinese officials 
have shown an increasing willingness to work with U.S. law enforcement 
and rights holders to ensure the legitimacy of pharmaceuticals in the 
supply chain, using the Joint Liaison Group as a coordination 
mechanism. However, the sheer volume of production in China of 
counterfeit pharmaceuticals and other IP-infringing goods continues to 
make enforcement a challenge.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                 fairness in disclosure of evidence act
    Question. Suppose I were to ask the Department to provide a 
drafting service, get a bit introspective about what might be 
acceptable bearing in mind the comments in the Judiciary hearing last 
year and send me a bill that is worth moving forward on. Would you do 
this for me?
    Lead-in information from original document.--
          Last year I introduced the Fairness in Disclosure of Evidence 
        Act with the intention of ensuring that the obligation to 
        disclose exculpatory evidence to Federal defendants in 
        accordance with the Brady ruling was uniformly applied across 
        the districts. The bill was endorsed by a wide variety of 
        organizations across the ideological spectrum from the American 
        Civil Liberties Union to the American Bar Association to the 
        U.S. Chamber of Commerce. Suffice it to say, prosecution 
        interests were not as enamored with the bill. When the bill 
        went to hearing in the Judiciary Committee last year there was 
        widespread support within the Department for taking Brady 
        obligations seriously and there was a promising colloquy with 
        Senator Leahy and others about open file discovery. At the end 
        of the day my bill was unacceptable to the department but the 
        department failed to express the parameters of a bill that 
        would be acceptable. This issue is very very important to me 
        and I intend to pursue it. I would like to find common ground 
        with the Justice Department. So rather than me continuing to 
        draft bills that are unacceptable--[continued above as the 
        start of the question]

    Answer. The Department of Justice firmly believes that rather than 
seeking legislative solutions, the American people are better served by 
the steps the Department already has taken--and will continue to take--
since the time of the Stevens prosecution. Through improved policies, 
increased training, and the appointment of new Department experts on 
the topic of discovery obligations, the Department's prosecutors have 
at their disposal an array of resources to assist them in meeting their 
discovery obligations. In addition to supervisory attorneys, this 
includes: discovery coordinators in each U.S. Attorney's Office or 
Department component; the Professional Responsibility Advisory Office; 
online resources; a full-time National Criminal Discovery Coordinator 
in the Office of the Deputy Attorney General; and experienced attorneys 
throughout the Department.
                          attorney misconduct
    Question. In advance of the next round of reporting from the GAO, 
let me ask are you satisfied with the attorney misconduct program 
within the department? Are there any changes you would like to see 
implemented? I understand that the Department has long resisted 
permitting the Inspector General to inquire into issues of attorney 
misconduct. Senator Lee, I and others think this is shortsighted. The 
Inspector General is intended to be an independent figure with the 
power to inquire into all goings on within the Department furthering 
the public interest of integrity and efficiency. Is there any good 
reason that the Department should oppose S. 2127 which would remove 
Inspector General Act impediments pertaining to attorney misconduct?
    Lead-in information from original document.--
          I would like to speak with you about the issue of attorney 
        misconduct within the department. USA Today did a series on 
        attorney misconduct, the Project on Government Oversight 
        recently issued a report attorney misconduct and I have the GAO 
        working on a study mandated by this subcommittee on the same 
        subject that will be available later this year. We hear that 
        attorney misconduct is seriously addressed but looking back at 
        the discipline meted out on the Stevens prosecutors one might 
        question whether the discipline is severe at all. And the POGO 
        report indicates that rarely if ever are disciplined 
        prosecutors referred to their State bars.

    Answer. The Department takes all misconduct allegations with the 
utmost seriousness. The Department's Office of Professional 
Responsibility (``OPR'') has been recognized consistently as a strong, 
independent entity within the Department that has a long, 
distinguished, and strong history of investigating allegations of 
attorney misconduct and recommending appropriate punishment. OPR has a 
unique expertise and has well-developed policies, procedures, and an 
analytical framework to guide its work. Importantly, OPR, unlike the 
Office of the Inspector General (OIG), has a singular focus on 
investigating attorney misconduct.
    While the Administration does not yet have an official position on 
S. 2127, similar bills have been introduced a number of times in the 
past; none have proceeded, and for good reasons. Previous efforts to 
unnecessarily expand the jurisdiction of the OIG have failed, in part, 
because expanding their jurisdiction would not create a better attorney 
discipline system, but instead would create an inconsistent and 
inefficient system while eroding accountability.
    As with S. 2127, previous efforts at expanding the OIG's 
jurisdiction have sought to effectively cede OPR's current jurisdiction 
to the OIG on all matters, allowing the OIG to handle certain attorney 
misconduct investigations of its choosing, while OPR handles the 
remainder. This concurrent jurisdiction undoubtedly would lead to 
inconsistent results without addressing any of your concerns.
    When Congress created an Inspector General (IG) for the Department 
of Justice in 1988, the Department strongly insisted upon recognition 
of the special character of Department attorneys' exercise of authority 
to investigate, litigate and give legal advice. Since its creation in 
1975, OPR has developed unique expertise in applying the complex legal 
and ethical standards applicable to Department attorneys conducting 
investigations, litigating cases, and providing legal advice. OPR has 
developed unique investigative policies and procedures, as well as an 
analytical framework that together ensure the application of fair and 
consistent findings with regard to matters of professional misconduct. 
OPR is staffed with experienced attorneys, including former attorneys 
from the OIG, as well as attorneys who worked in private practice, have 
experience with the national Innocence Project, and have experience 
with attorney ethics investigations.
    For these reasons, Congress specifically carved out of the IG's 
jurisdiction the authority to investigate allegations relating to an 
attorney's authority to investigate, litigate, and provide legal 
advice; and required that such allegations continue to be referred to 
OPR. Since 1988, the OIG has raised periodically its claim that it 
should be empowered to investigate matters falling within OPR's 
jurisdiction. Each time the issue has been raised, Congress has wisely 
refrained from altering the carefully considered limitation on the IG's 
authority.
    In its nearly 40 years' existence, OPR has been called upon to 
investigate allegations of misconduct against high-ranking DOJ 
officials, including the Attorney General and the Deputy Attorney 
General. OPR in fact acts independently and without interference from 
senior Department leadership. Since its inception, OPR has been led by 
a Counsel who is a career Senior Executive Service Department employee, 
who remains unchanged with successive Attorneys General and 
presidential administrations. No serious allegation has ever been 
raised that any Attorney General or Deputy Attorney General has 
interfered with any OPR investigation.
    Although the OIG for many years has claimed a need to increase its 
own jurisdiction, the OIG points to no instance in which Department 
senior leadership interfered with an OPR investigation; nor does the 
OIG point to a single OPR investigation that failed to appropriately 
hold accountable Department leaders or other Department attorneys. OPR 
has not hesitated to investigate senior Department leadership at the 
highest levels in the past where appropriate, and to find misconduct by 
Department attorneys when the evidence supported such findings. In any 
event, if the OIG wishes to take over an investigation that falls 
within the jurisdiction of OPR, the OIG may make such a request to the 
Deputy Attorney General.
    Moreover, your concerns about the Stevens case would not have been 
addressed had the attorney misconduct investigation been handled by the 
OIG. As I understand it, your principal objection to the Department's 
handling of the Stevens attorney misconduct investigation is your 
belief that the punishment was insufficient. Had the OIG handled the 
investigation, the perceived problem of insufficient punishment would 
not have been rectified. OPR conducted a full and thorough 
investigation and determined in a detailed, 672-page report that two 
attorneys engaged in professional misconduct and that a third exercised 
poor judgment. OPR's findings were shared with Judge Sullivan, who 
presided over the Stevens matter and with Congress.
    As a result of OPR's findings, the Department imposed significant 
periods of suspensions without pay to the attorneys who were found to 
have engaged in professional misconduct. As is the right of any civil 
servant under similar circumstances, the attorneys appealed the imposed 
discipline to the Merit Systems Protection Board (MSPB); an 
administrative judge for the MSPB vacated the suspensions based on a 
finding of harmful procedural error when the original disciplinary 
proposing official was replaced. The Department appealed that decision 
to the full Board, believing that the replacement of the proposing 
official was proper. The full board affirmed the initial decision, 
finding similar harmful procedural error. Regardless of whether OPR or 
the OIG investigated this incident of attorney misconduct, there is no 
reason to believe the MSPB outcome would have been any different. OPR 
has the authority to investigate allegations of misconduct, but does 
not have the authority to impose discipline. Likewise, the OIG would 
have had no such authority. Rather, the OIG would only have authority 
to report its findings and conclusions to the Attorney General and the 
Deputy Attorney General; the Department, under longstanding civil 
service rules, would retain authority to impose discipline. But just as 
is the case under the present system, any attorney--like all Federal 
Government workers--would retain the right to appeal a suspension of 
more than 14 days to the MSPB.
    With respect to concerns about referrals of attorney misconduct to 
State bars, OPR's long-standing policy and practice in all 
investigations is also to review the State bar rules that govern each 
individual attorney who is under investigation, and to assess whether 
there has been a violation of those specific State bar rules. If the 
Department determines that the conduct violates an applicable State bar 
rule, OPR refers the matter to the relevant State bar and provides 
information about its finding. OPR routinely makes such referrals.
    Another reason OIG's jurisdiction to include attorney misconduct is 
neither warranted or appropriate is that having two entities 
responsible for attorney misconduct investigations would necessarily 
lead to inconsistent application of the often complex rules and 
standards governing attorney conduct and would leave Department 
attorneys uncertain as to the extent of their obligations. This 
uncertainty, in turn, would reduce accountability because of the lack 
of clear direction and opaque expectations regarding attorney conduct. 
This will inevitably create a dysfunctional system in which similarly-
situated Department attorneys will be treated differently for 
essentially similar conduct. It would be grossly unfair to subject 
attorneys to disparate treatment based on which investigative entity 
takes jurisdiction; decreased accountability would be the predictable 
result.
    With respect to transparency, the Privacy Act prevents OPR from 
releasing personal information about Department employees, except in 
limited circumstances, and those same limitations would apply to the 
OIG. Accordingly, whether OPR or some other entity undertakes 
disciplinary investigations, the same Privacy Act limitations are 
applicable. Although the Privacy Act prohibits the release of protected 
information, OPR annually discloses a substantial amount of information 
about its work and findings. OPR's annual report contains substantive 
and statistical information setting forth the complaints it receives 
and the numbers of inquiries and investigations it accepts and 
resolves. The fiscal year 2012 Annual Report, for example, not only 
included summaries of representative inquiries handled by OPR during 
the year but also included summaries of nearly every investigation OPR 
closed during fiscal year 2012. Future annual reports will do the same. 
Beyond that, OPR regularly provides complainants, including defense 
attorneys or judges who complain about the conduct of Department 
attorneys, information concerning the resolution of their complaint. 
Contrary to the suggestion in the POGO report otherwise, where bar 
rules are implicated, OPR also shares its misconduct findings and 
reports with bar disciplinary authorities.
                       ted stevens investigation
    Question. During last week's hearing with the FBI Director, Mr. 
Comey indicated that an FBI Agent whose conduct in the Ted Stevens 
investigation came under scrutiny was severely disciplined. But he 
didn't explain what severely disciplined meant. One person's severe 
discipline might be another's slap on the wrist. Can you shed any light 
on whether the individual is still working for the FBI, in what 
capacity, and what the discipline was. [If not, insist once again that 
the report be filed with the subcommittee so we can determine what went 
on].
    Answer. In light of the privacy interests implicated here, FBI 
would be prepared to brief the Committee on this matter.
                                 ______
                                 
                Questions Submitted by Senator Mark Kirk
                                 gangs
    Question. Would a tool like this be useful on a national scale in a 
classified or unclassified manner? Do any of our Federal law 
enforcement agencies gather this type on information on gangs of 
national significance (gang profiles, membership, signs or symbols, 
signature crimes, etc.) and share it with their State and local 
partners? If this is already being done, what is the manner that the 
information is shared?
    Lead-in information from original document.--
          The Chicago Crime Commission, a non-partisan, not-for-profit 
        organization, printed The Gang Book in 2012 that details the 
        leadership, membership, locations and other unique identifying 
        factors of gangs and their factions in both the city of Chicago 
        and the suburbs. The Gang Book also published the number and 
        type of crimes reported as ``gang related.'' This information 
        is useful for suburban police departments that are experiencing 
        gang crime for the first time.

    Answer. This type of tool is already being used on a national scale 
and is very helpful. The National Gang Intelligence Center (NGIC) 
operates NGIC Online, which is an information system composed of Web 
based tools for researching gang related intelligence and sharing this 
information with the largest possible segment of the law enforcement 
community. NGIC Online can be accessed by all Law Enforcement Online 
(LEO) users, which are comprised of local, State, Federal, tribal, and 
correctional law enforcement. NGIC Online has several resources, 
including the following: Gang Encyclopedia, Gang Dictionary, General 
Intelligence Library, and Officer Safety Alerts. There is also a 
mechanism within NGIC Online wherein law enforcement can submit a 
request for information to NGIC subject matter experts for support on 
gang investigations. NGIC also produces the bi-annual gang report, 
which is available to all law enforcement through the NGIC Online 
database.
    In addition, the Department's Office of Justice Programs' (OJP), 
Bureau of Justice Assistance (BJA), administers the Regional 
Information Sharing Systems (RISS) Program, which is a federally 
funded, locally operated program that provides secure intelligence and 
information sharing to law enforcement, prosecutors, corrections, and 
probation/parole officers at all levels of government. Although Federal 
agencies participate, the focus is information sharing between law 
enforcement no matter the size of the agency. In addition to 
information sharing services, RISS provides assistance to these 
agencies in the areas of investigative support, equipment loans for 
investigation and surveillance, court preparation, training, and field 
support.
    All RISS resources are used by State, local, and tribal agencies on 
a daily basis to investigate many types of crimes, especially narcotics 
and gangs (which are connected on many occasions). One specific 
resource of interest to gang investigators in the RISS program is the 
RISSGang system. RISSGang provides a place for officers to share and 
provide gang information on a national level to include gang profiles, 
tattoos, gang signs and symbols, and types of specific crimes 
affiliated with each gang. The gang information is made available 
through the RISSGang Web site, which is available to all law 
enforcement, and has a bulletin board feature, a searchable database, 
secure e-mail, and a method for officers to securely view gang Web 
sites without revealing the officers' IP address or identity as a 
government official.
    Question. Gang activity is increasingly expanding to new forms of 
illegal activity including sex trafficking. How is DOJ communicating 
and working with State and local law enforcement to combat sex-
trafficking? How is DOJ working with other Federal agencies and our 
allies to combatting international sex tourism? What are the biggest 
trends in sex trafficking? What areas are seeing increased activity? 
Please outline the biggest loopholes within current law that enable sex 
traffickers to evade the law enforcement and criminal prosecution.
    Answer. Through the FBI's Violent Crimes Against Children Section, 
the FBI has established 69 Child Exploitation Task Forces (CETFs) 
throughout the country. The FBI partners with nearly 400 local, State, 
and Federal law enforcement agencies, with approximately 760 law 
enforcement officers to combat the commercial sexual exploitation of 
children. This robust effort allows for multi-dimensional investigative 
strategies to be employed. The national level intelligence and 
investigative resources are layered with the local level intelligence 
to develop large enterprise level investigations. In addition to 
fostering the sharing of information across law enforcement, the CETFs 
facilitate prosecutions within both State and Federal courts of those 
who facilitate the commercial sexual exploitation of children. Without 
question, because of the partnerships through the FBI CETFs, law 
enforcement is able to more fully impact this crime problem without the 
limitations of any jurisdictional boundary.
    The FBI also operates its Child Sex Tourism Initiative in which FBI 
agents assigned to our Legal Attachee offices around the globe 
investigate U.S. citizens who travel overseas and engage in illicit 
sexual acts with children. These agents work with foreign law 
enforcement, non-governmental organizations (NGOs), and various victim 
services organizations in order to investigate and prosecute those 
engaged in child sex tourism. The Department of Homeland Security, U.S. 
Immigration and Customs Enforcement (ICE) also have agents stationed 
overseas that investigate child sex tourism and other crimes. The FBI 
has regular contact with ICE in order to collaborate on these cases.
    Trends related to the domestic child sex trafficking threat are 
typically reflected in the methodologies used by pimps to run their 
operations. This is reflected in the trend of using non-escort focused 
Web sites to post prostitution advertisements. Additionally, pimps are 
distancing themselves from their operations by assigning greater 
responsibility to associates and ``bottom girls'' (frequently the most 
trusted girl under the direction of a pimp). Some special events, such 
as the Super Bowl, continue to spur a surge of sex trafficking 
operations leading up to and during the event. Training and outreach 
efforts have resulted in an increased awareness of domestic child 
prostitution. As a result, law enforcement and the public are more 
conscious of indicators specific to domestic child sex trafficking, 
leading to an increase in reports of suspected trafficking. Domestic 
child sex trafficking continues to impact communities across the 
Nation.
    The Office of Justice Program's (OJP's) National Institute of 
Justice (NIJ) regularly consults with a range of State and local 
practitioners, including law enforcement, prosecutors, community 
organizations and victim service providers, to identify the prominent 
trends in human trafficking. These consultations revealed that the 
nature of trafficking cases calls into question the assumptions about 
who traffickers are, how they become traffickers and what might serve 
as the greatest deterrent to their entry into trafficking. In response, 
NIJ commissioned a study focused on answering these questions for all 
those convicted of trafficking at the Federal level, another examining 
the role of gangs in sex trafficking in San Diego, and a third 
exploring the role of organized crime in sex trafficking in the United 
States (all due to be completed in 2015). Combined with our recently 
completed studies of labor trafficking (published in 2013) and the 
unlawful commercial sex economy (published in 2014), these studies will 
provide a more clear picture of trends in sex trafficking in the United 
States.
    The Office for Victims of Crime (OVC) and the Bureau of Justice 
Assistance (BJA) jointly administer the Enhanced Collaborative Model to 
Combat Human Trafficking grant funding program to support anti-
trafficking law enforcement task forces that take a comprehensive 
approach to combating all forms of human trafficking--sex trafficking 
and labor trafficking of foreign nationals and U.S. citizens (male/
female, adults/minors). The task force model supports partnerships 
between local, tribal, State, and Federal law enforcement and victim 
service providers to build community capacity to rescue and serve 
trafficking victims. In addition to funding these task forces, OVC and 
BJA support practitioner-driven, evidence-based training and technical 
assistance (TTA) that is responsive to the needs of victim service 
organizations, law enforcement, allied professionals, and the 
communities they serve.
    Over the past several years, BJA and its partner, the Upper Midwest 
Community Policing Institute, have developed and delivered nationwide 
training for law enforcement, State prosecutors, State judges, and 
tribal law enforcement to promote awareness of human trafficking as 
well as advanced skills on how to investigate cases of human 
trafficking. In fiscal year 2014, BJA posted a solicitation seeking to 
continue the delivery of: (1) human trafficking training for 
prosecutors--to increase the capacity of State prosecutors to 
successfully prosecute perpetrators of trafficking; and (2) advanced 
human trafficking training for law enforcement--to increase the 
capacity of law enforcement to investigate, identify, and rescue 
victims of all forms of human trafficking.
                             cyber security
    Question. I am greatly concerned about the data breach incident at 
the end of 2013 that resulted in up to 110 million credit cards numbers 
stolen from Target. This is just one of many incident that happened 
last year. How does DOJ coordinate with the Secret Service, which has 
the lead agency on counterfeit activity, regarding data breaches? Do 
you have all of the legal authorities you need to effectively 
coordinate with other agencies? If not, is there further congressional 
action that will help you better protect the American people?
    Answer. Consistent with law, the FBI has a very forward-leaning 
approach to sharing information and intelligence with our partners, 
specifically the U.S. Secret Service (USSS). While the USSS is the lead 
agency for traditional counterfeit activity, an intrusion into computer 
networks is an altogether separate Federal violation, the investigation 
of which is a responsibility shared by both the FBI and USSS, and the 
FBI is the lead agency on national security intrusions. As such, the 
FBI and the Secret Service have a long history of jointly investigating 
computer intrusions, including large-scale data breaches, whether 
committed by financially-motivated criminals or other criminal actors. 
Over the past 2 years, the FBI has shared national security case 
details with the USSS, and both agencies are leading members of the 
National Cyber Investigative Joint Task Force, the founding mandate of 
which is to serve as the focal point for all government agencies to 
coordinate, integrate, and share information related to all domestic 
cyber threat investigations. In addition, both agencies engage in 
robust, bilateral collaboration at both the headquarters and field 
levels to ensure maximum resources are brought to bear against these 
criminal cyber threats in the most effective manner possible. Lastly, 
both agencies also participate in the International Organized Crime 
Intelligence and Operations Center (IOC-2), a forum for member agencies 
to meet and more effectively coordinate international criminal 
prosecutions--prosecutions which include cyber activities.
    The FBI has a variety of means to coordinate with its partner 
agencies in the U.S. law enforcement and intelligence communities. To 
successfully identify, pursue, and defeat our cyber adversaries, data 
collection and sharing among U.S. agencies must continue to evolve. 
That evolution requires a constant evaluation of the authorities 
governing such coordination including ensuring agency-specific data 
sharing restrictions, while often necessary, do not unduly burden that 
sharing. Another aspect of that evolution is increasing the speed at 
which intelligence is shared. In that vein, the FBI, working with 
partners in government and the private sector, will likely turn to 
machine-to-machine data sharing, but such enhanced coordination may 
require authorities not currently in place. This is an issue actively 
being reviewed at the present and will continue to be examined for the 
foreseeable future.
    Finally, cybersecurity legislation that requires companies to 
report intrusion activity to the Government and provides liability 
protections for those companies that share with and assist Government 
would have a positive impact on the FBI's cyber investigations.
                                 ______
                                 
               Question Submitted by Senator John Boozman
                       victims of child abuse act
    Question. I certainly hope that you will follow up on that 
commitment given that while this year funds weren't cut, they were 
significantly reduced from the levels that this subcommittee provided 
the past 2 years and I would appreciate you reaffirming your support 
for CAC's.
    Lead-in information from original document.--
          For the first time in several years, I am happy that the 
        administration's budget request did not zero out funds for the 
        Victims of Child Abuse Act, yet it reduced the funding by $8 
        million from the fiscal year 2014 enacted level. As you know, 
        VOCA funds vital programs that ensure that children who have 
        been victims of abuse receive adequate assistance and care.
          Specifically VOCA provides funding to the National Children's 
        Alliance, local Children's Advocacy Centers, and Regional 
        Children's Advocacy Centers, among other programs. These 
        centers are an essential part of communities and are deeply 
        supported by community leaders, local law enforcement, health 
        officials and members of the legal establishment.
          In a hearing in January of this year, you stated, ``I will be 
        advocating on behalf of these Children's Advocacy Centers. I 
        think they are proven to work, and given who they assist, I 
        think that as we're trying to decide what our priorities are, 
        the protection of our most vulnerable citizens, our children, 
        has to be a place where we put our money.''

    Answer. The Children's Advocacy Center (CAC) Program, funded under 
the Victims of Child Abuse Act (VOCA), is considered to be an effective 
multidisciplinary model. The CACs represent vital public-private 
partnerships. In 2012, more than 286,000 children were served at such 
centers, with over 197,000 cases of reported sexual abuse. One of the 
primary goals of the CAC Program is to ensure that child abuse victims 
are not further traumatized by the systems designed to protect them. 
CACs bring together multidisciplinary teams of child abuse 
professionals from law enforcement, prosecution, medical, mental 
health, child protective services, and victim advocacy agencies to 
coordinate the investigation and prosecution of child abuse. This model 
has been implemented in more than 850 communities throughout the United 
States and in numerous foreign countries.
    Research on the effectiveness of CACs indicates positive results 
from faster criminal charging decisions, increased prosecution rates, 
improved access to medical care, child and caregiver satisfaction and 
lower average per-case costs. Research has demonstrated that the 
coordinated response efforts also cost $1,000 less per case based on 
elimination of duplication of efforts.
                                 ______
                                 
            Questions Submitted to Hon. Michael E. Horowitz
            Questions Submitted by Senator Richard C. Shelby
    Question. Public trust and confidence are essential to successful 
Federal law enforcement efforts. However, the Department has faced 
significant issues in recent years that jeopardize that very trust and 
confidence. In fact, restoring public confidence, trust and integrity 
in the Department has been a top management challenge since 2007.
  --Seven years is a long time for any department to struggle with such 
        a serious management challenge. Has the Department made any 
        progress and if so, could you share some examples?
  --What changes, in your view, would help to restore public trust and 
        confidence? In other words, what does the Department need to do 
        to resolve this management challenge?
    Answer. We agree that the public's trust and confidence are 
essential to successful Federal law enforcement efforts, and that the 
Department of Justice (Department) has faced numerous significant 
issues in recent years that have jeopardized that support. For example, 
our 2007 and 2008 Top Management Challenges report noted the 
politicized personnel decisions of Department components had identified 
in three of our reviews. In 2010, the Office of Inspector General (OIG) 
issued a report concerning allegations that the Federal Bureau of 
Investigation (FBI) had targeted certain domestic advocacy groups for 
scrutiny based upon their exercise of rights guaranteed under the First 
Amendment to the United States Constitution. More recently, our 2012 
report on improper hiring practices in the Justice Management Division 
(JMD) found problems with nepotism in multiple offices in JMD, marking 
the third OIG investigation in the last 8 years involving improper 
hiring practices within JMD. Also in 2012, we described significant 
issues involving the conduct of both the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF) and the U.S. Attorney's Office for the 
District of Arizona in connection with their handling of Operation Fast 
and Furious and Related Matters. And in a 2013 report assessing the 
enforcement priorities of the Voting Section of the Civil Rights 
Division, we identified issues in the handling of a small number of 
cases that the OIG believed risked undermining public confidence in the 
non-ideological enforcement of the voting rights laws. The review also 
revealed several incidents in which ideological polarization fueled 
disputes and mistrust that harmed the functioning of the Voting 
Section, including numerous examples of harassment and marginalization 
of employees and managers due, at least in part, to their perceived 
ideological or political beliefs.
    Despite the problems we have identified over the past several 
years, we also have noted the Department's significant efforts to 
restore its reputation for impartiality and excellence since we first 
included this issue in our Top Management Challenges report. For 
example, following our 2006 report on the FBI's handling of the Brandon 
Mayfield case, the FBI Laboratory implemented major reforms that have 
strengthened the objectivity and reliability of its latent fingerprint 
identifications and have helped restore the FBI Laboratory's reputation 
as a leader in this discipline; in response to our 2013 review of its 
purchase of promotional items, the U.S. Marshals Service instituted a 
new promotional items policy and other internal controls that we 
believe will help restore the public's confidence that appropriated 
funds will be used in the manner intended by Congress; and following 
our 2008 report on politicized hiring, the Civil Rights Division has 
taken major steps to improve public confidence that its hiring 
practices are fair, transparent, and merit-based.
    Nevertheless, significant challenges remain. One especially 
important concern that continues to be raised by, among others, Members 
of Congress, Federal judges, and public interest groups is the 
Department's ability to discipline its attorneys for misconduct. In 
December 2013, Chief Judge Alex Kozinski of the U.S. Court of Appeals 
for the Ninth Circuit issued a dissenting opinion stating that there 
was an ``epidemic of Brady violations'' by Federal and State 
prosecutors, and that ``[o]nly judges can put a stop to it.'' In 
reaching this conclusion, Chief Judge Kozinski cited a plethora of 
Federal and State court decisions finding Brady violations by 
prosecutors, and he noted that professional discipline is ``rare.'' In 
March 2013, the Project on Government Oversight (POGO) raised similar 
concerns about prosecutorial misconduct and the transparency of the 
Department's disciplinary decisions, and recommended that the OIG 
should be authorized to investigate allegations of misconduct by 
Department attorneys rather than the Department's Office of 
Professional Responsibility (OPR), which currently has responsibility 
for these investigations. As we have repeatedly noted in the past, and 
as POGO stated in its recent report, providing the OIG with this 
jurisdiction would result in independent oversight of alleged 
prosecutorial misconduct, greater transparency over the process, and an 
increase in accountability, with the inevitable result being that the 
public's trust and confidence in the disciplinary process would 
improve. This is particularly true in matters where the lack of 
independence and transparency of an OPR review might reasonably call 
its conclusions into doubt. For these reasons and others, the OIG 
supports the bipartisan Inspector General Empowerment Act of 2014 (S. 
2127), introduced by Senator Lee and co-sponsored by Senators Tester, 
Grassley, Murkowski, and Coburn, which would amend the Inspector 
General Act to allow the OIG to investigate allegations of misconduct 
involving Department attorneys.
    Question. It is my understanding that the Attorney General has 
granted all of your requests to access documents. If that is true, why 
are you concerned about the current process for accessing certain 
documents and records?
    Answer. For any OIG to conduct effective oversight, it must have 
complete and timely access to all records in the agency's possession 
that the OIG deems relevant to its review. This principle is codified 
in Section 6(a) of the Inspector General Act, which authorizes 
Inspectors General ``to have access to all records, reports, audits, 
reviews, documents, papers, recommendations or other material available 
to the applicable establishment which relate to programs and operations 
with respect to which that Inspector General has responsibilities under 
this Act.'' Refusing, restricting, or delaying an OIG's access to 
documents may lead to incomplete, inaccurate, or significantly delayed 
findings or recommendations, which in turn may prevent the agency from 
correcting serious problems in a timely manner.
    We have had multiple instances recently where one or more 
Department components have declined to provide the OIG with materials 
that were relevant to an ongoing OIG review because of a claim that the 
Inspector General Act did not authorize our access to those materials 
in light of limitations in other Federal laws. Ultimately, in each 
instance, the Attorney General or the Deputy Attorney General issued an 
order granting the OIG permission to receive the materials because they 
concluded that our ongoing reviews were of assistance to them in 
managing the Department. However, there are significant issues with 
this process. First, requiring an OIG to receive permission from 
Department leadership in order to obtain documents that the OIG has 
determined are necessary for its review is inconsistent with an OIG's 
independence. Second, authorizing access to relevant records only after 
the Attorney General or Deputy Attorney General concludes that the 
review would assist them in managing the Department is wholly 
inconsistent with the Inspector General Act, which expressly authorizes 
an independent Inspector General to determine what reviews are 
necessary and should be undertaken. Third, a process that requires the 
OIG to elevate certain document requests to the highest levels of the 
Department, including in routine audits, results in significant delays 
in the timeliness of our work. Indeed, one of our reviews was delayed 
for almost a full year because of these issues. And just this year, 
another review was delayed approximately 3 months when a component 
initially objected to producing certain materials that were highly 
relevant to an OIG audit; the OIG obtained access only after 
discussions between the Inspector General and the component head 
resolved the matter. Moreover, the FBI, which was the component that 
objected in 2010 and 2011 to producing certain documents to the OIG, 
thereby triggering the involvement of the Attorney General and Deputy 
Attorney General, has since put in place a process that requires its 
Office of General Counsel to review and produce documents to the OIG in 
connection with an audit or review. We did note the FBI Director's 
testimony before the Senate Judiciary Committee earlier this week in 
which he stated that he has directed his General Counsel to approve the 
production of documents to the OIG much faster than in recent years. 
This process, which has resulted in delays of our audits and reviews, 
is in our view a significant waste of the FBI's limited legal 
resources, not to mention of the OIG's, particularly since the Attorney 
General has stated that he is going to ensure that we receive all of 
the materials that we need for our reviews and audits.
    Question. Do you agree that certain laws include a specific process 
whereby the Attorney General is responsible for granting or denying 
access to specific documents and records? If not, could you detail the 
differences in your opinion from that of the Attorney General?
    Question. We are not aware of any laws that include a specific 
process whereby the Attorney General is responsible for granting or 
denying access to specific documents and records. On the contrary, 
Section 6 of the Inspector General Act provides OIGs with authorization 
to access relevant documents and materials that are already in the 
possession of the establishment each oversees. The only exception to 
that authorization relevant to the Department of Justice OIG is found 
in Section 8E of the Inspector General Act, which authorizes the 
Attorney General to prevent the Inspector General from obtaining 
certain information in certain circumstances, but only after the 
Attorney General has made the necessary determination under Section 8E. 
Further, the Attorney General is required to issue a written 
explanation of the reasons for his decision to the Inspector General, 
which is then provided to Congress within 30 days. These statutory 
safeguards serve to underscore the fact that the Inspector General Act 
is intended to allow the OIG complete and timely access to the 
Department's documents and materials, while providing the Attorney 
General carefully circumscribed avenues for withholding information in 
exceptional circumstances--and only with prompt and specific 
notification to the Inspector General and Congress. We have attached a 
memorandum from 2011 that summarizes our views on Sections 6 and 8E of 
the Inspector General Act as they relate to the OIG 's access to 
certain documents and materials gathered by the FBI.
    Question. What, in your view, is the best way to address the 
limitation that has been placed on your access to certain documents and 
records? Do we need to pass legislation or can the problem be remedied 
by the Attorney General? Is it as simple as the Attorney General 
requiring the entire Department to allow you unfettered access to the 
documents and records necessary to conduct oversight?
    Answer. We believe that the Attorney General or Deputy Attorney 
General can immediately remedy the problem by finding as a matter of 
policy and practice that the OIG is entitled to access all documents in 
the Department's possession that are relevant to an OIG review, and by 
directing all Department components to comply with such a finding by 
providing the OIG with timely access to relevant documents. Such a 
directive would obviate the need for additional legislation so long as 
it is in place. However, in the absence of such a finding and 
directive, given the Department's current process of requiring the OIG 
to obtain permission from Department leadership in order to obtain 
access to certain records in the Department's possession, we believe 
that corrective legislation would be necessary.
    Question. The Attorney General stated that the Office of General 
Counsel has never ruled on the issue of access to documents and records 
by the Inspector General. If the Attorney General does not seek a 
formal ruling as I have requested of him, would you be willing to seek 
a formal ruling on these matters?
    Answer. The OIG does not believe that a formal ruling is necessary 
to decide this issue because the Inspector General Act is already clear 
in authorizing the OIG to access all documents and materials in the 
possession of the Department that are relevant to our reviews. 
Moreover, the Department's practice until 2010 had been to provide the 
OIG with access to all relevant materials in the Department's 
possession.
    Nevertheless, if the Attorney General concludes that a legal 
opinion is necessary, the OIG does not object to the Department 
requesting that its Office of Legal Counsel (OLC) rule on the issue of 
OIG access to grand jury, Title III, and Fair Credit Reporting Act 
information. However, given the continuing access issues that the OIG 
is facing and the impact that those issues have on our independence, it 
is critical that such a process move expeditiously and that OLC issue 
its opinion promptly. Additionally, we would object if the Department 
were to ask OLC for a broad opinion that covered OIG access to 
documents beyond the three categories of materials currently in 
dispute, or that sought to address access to documents by other Federal 
Inspectors General, because of the impact such a broad ruling could 
have on those other Federal OIGs and the lengthy process that would 
ensue were the OLC to consult those OIGs for their views.
    Question. Mr. Horowitz, you have raised concerns about the 
distinction the Department makes between the treatment of misconduct by 
attorneys acting in their legal capacity and misconduct by other 
Department employees. In fact, your office has no authority to 
investigate misconduct by attorney's acting in their legal capacity. 
That authority has been granted to the Department's Office of 
Professional Responsibility.
  --Why do you believe that these types of investigations should be the 
        responsibility of your office rather than the Office of 
        Professional Responsibility? Are there specific examples of 
        investigations being called into question because they were 
        handled by the Office of Professional Responsibility?
    Answer. As stated in our response to the first question, we believe 
that all Department employees should be held to the same standards of 
accountability for misconduct, and we have long questioned the 
distinction between the treatment of misconduct by attorneys acting in 
their legal capacity and misconduct by other Department employees, 
including law enforcement agents. We believe the institutional 
independence of the OIG, which is codified in the Inspector General 
Act, and which OPR lacks, is critical to the effectiveness of our 
misconduct investigations. Moreover, Inspectors General across the 
Federal Government have the authority to handle misconduct allegations 
against lawyers acting as such within their agencies, and they have 
demonstrated that they are fully capable of dealing with such matters.
    Additionally, the OIG 's strong record of transparency is vital to 
ensuring the Department's accountability, particularly in cases where 
the independence or fairness of an internal review might be called into 
question. As noted in response to the first question, in recent months, 
others have expressed a similar concern, including the independent, 
non-partisan Project on Government Oversight (POGO), which issued a 
report last month that was critical of OPR's longstanding lack of 
transparency and recommended empowering our office to investigate 
misconduct by DOJ attorneys. The POGO report identifies specific 
examples of OPR investigations--including of the prosecution team in 
the case of former Senator Ted Stevens and of Department attorneys Jay 
Bybee and John Yoo in the torture memorandum issue--that it believes 
have fed skepticism about whether the Department is capable of 
investigating misconduct by its attorneys.
    Question. Would such a change require a legislative fix or is this 
something that can be handled by the Attorney General?
    Answer. In 2002, the 21st Century Department of Justice 
Appropriations Authorization Act amended Section 8E of the IG Act to 
specifically allocate to OPR exclusive jurisdiction over alleged 
misconduct by Department attorneys (except OPR attorneys) where the 
allegations relate to the exercise of the authority to investigate, 
litigate, or provide legal advice (Section 8E(b)(3)). Thus, 
notwithstanding a general provision of the IG Act (Section 9(a)(2)) 
that permits agency heads to transfer functions to the OIG, based on 
the specific language in the current law relating to jurisdiction over 
attorney professional misconduct allegations, it would appear that the 
Attorney General does not have the authority to transfer that function 
to the OIG. We therefore believe that legislation, such as the 
bipartisan legislation recently introduced by Senator Lee and co-
sponsored by Senators Tester, Grassley, Murkowski, and Coburn, is the 
best way to address the issue.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                         usa patriot act review
    Question. On March 17, 2010, I wrote to former Inspector General 
Glenn Fine and asked him to complete a number of audits of government 
surveillance authorities, including the use of Section 215 orders, pen 
register and trap and trace devices, and National Security Letters. On 
June 15, 2010, Inspector General Fine responded to my letter, 
indicating that a review to examine these provisions would be initiated 
by the Office of Inspector General. I understand that these reviews 
have commenced, yet, nearly 4 years later, I still have not seen final 
reports.
    What is the status of these reviews and when can I expect to 
receive completed reports from your office?
    Answer. We have completed the three reports regarding the above-
mentioned matters and we expect to issue our latest report on the FBI's 
use of National Security Letters in the next few weeks. We provided our 
report on Section 215 orders and our report on pen register and trap 
and trace usage to the FBI on February 28 for a classification review 
of FBI information, but still have not received a completed 
classification review from the FBI or a date on which it will be 
completed. Without completed classification reviews from the FBI and 
the non-Department agencies whose information appears in the reports, 
we are prohibited from issuing our reports, including to Congress.

                          SUBCOMMITTEE RECESS

    The next hearing will be on Thursday, at 10 a.m., in which 
we will take testimony from Secretary Pritzker, the Secretary 
of Commerce.
    [Whereupon, at 12:05 p.m., Wednesday, April 3, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 4.]
</pre></body></html>
